No. __________

IN THE
SUPREME COURT OF THE UNITED
STATES

FRATERNAL ORDER OF POLICE,
CHICAGO LODGE NO. 7,

Petitioner,
v.
THE CITY OF CHICAGO,

Respondent.
On Petition For Writ of Certiorari
To The Supreme Court of Illinois
PETITION FOR A WRIT OF CERTIORARI
Brian C. Hlavin
Patrick N. Ryan

Counsel of Record
Baum Sigman Auerbach & Neuman, Ltd.
200 W. Adams Street, Suite 2200
Chicago, IL 60606-5231
(312) 236-4316
bhlavin@baumsigman.com

(Back of front cover)

i
QUESTION PRESENTED
Whether the Illinois Supreme Court erred as a
matter of law by expanding the scope of the public
policy exception to enforcement of labor arbitration
awards in a way that impermissibly erodes the
Federal public policy favoring enforcement of
arbitration agreements and arbitration awards, as
established by W.R. Grace & Co. v. Local Union No.
759, 461 U.S. 757, 103 S.Ct. 2177, 2183, 76 L.Ed.2d
298, 307 (1983); United Paperworkers
International Union v. Misco, Inc., 484 U.S. 29, 108
S.Ct. 364, 98 L.Ed.2d 286 (1987); and Eastern

Associated Coal Corp. v. United Mine Workers of
America, Dist. 17, 531 U.S. 57, 63, 121 S.Ct. 462,
148 L. Ed. 354 (2000)?

ii
PARTIES TO THE PROCEEDING
Petitioner, Fraternal Order of Police, Chicago
Lodge No. 7 (“Lodge”), was the Appellant in the
Illinois Supreme Court proceedings from which it
now seeks review. Respondent, City of Chicago
(“City”), was Appellee in the Illinois Supreme Court
case.
CORPORATE DISCLOSURE STATEMENT
Pursuant to Rules of the Supreme Court of the
United States, Rule 29.6, Petitioner, Fraternal Order
of Police, Chicago Lodge No. 7, states that it has no
parent corporation and is not a publicly held company.
RELATED PROCEEDINGS
C

In the Matter of The City of Chicago and
Fraternal Order of Police, Chicago Lodge No. 7,
Grievance Nos. 129-11-035 and 129-12-004,
Voluntary Labor Arbitration Tribunal before
Arbitrator George Roumell. Arbitrator’s
Opinion and Interim Award entered January
12, 2016; Opinion and Award entered April 28,
2016 and Arbitrator’s Ruling on Fraternal
Order of Police Lodge No. 7's Motion for
Reconsideration or, Alternatively, Clarification,
entered June 21, 2016.

iii
C

The City of Chicago v. Fraternal Order of
Police, Chicago Lodge No. 7, Docket No. 2016
CH 09793, Circuit Court of Cook County,
Illinois, County Department, Chancery
Division. Judgment entered October 18, 2017.
(City of Chicago v. Fraternal Order of Police,
Chicago Lodge No. 7, 2017 WL 11318382 (Ill.
Cir. Ct., 2017))

C

The City of Chicago v. Fraternal Order of
Police, Chicago Lodge No. 7, Docket No. 1-172907, Appellate Court of Illinois, First District,
Fifth Division. Judgment entered March 29,
2019. (City of Chicago v. Fraternal Order of
Police, Chicago Lodge No. 7, 2019 IL App (1st)
172907, 126 N.E.3d 662, 430 Ill. Dec. 574 (Ill.
App., 2019)).

C

The City of Chicago v. Fraternal Order of
Police, Chicago Lodge No. 7, Docket No. 124831,
Supreme Court of Illinois. Judgment entered
June 18, 2020. (City of Chicago v. Fraternal
Order of Police, Chicago Lodge No. 7, 2020 IL
124831, __ N.E.3d __, 2020 WL 3273050 (Ill.,
June 18, 2020)).

iv
TABLE OF CONTENTS

QUESTION PRESENTED . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . ii
RELATED PROCEEDINGS . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . vii
PETITION FOR A WRIT OF CERTIORARI . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTES AND CONSTITUTIONAL
PROVISIONS INVOLVED . . . . . . . . . . . . . . 2
INTRODUCTION AND
STATEMENT OF THE CASE . . . . . . . . . . . . 2
REASONS FOR GRANTING THE WRIT . . . . 11
A. The public policy favoring enforcement
of labor arbitration awards is wellestablished and dominant, and
carefully circumscribes when a public
policy may be utilized to vacate an
arbitration award. . . . . . . . . . . . . . . . . . 11

v
B. The Illinois Supreme Court erred
because there is no explicit public
policy requiring retention of the
disciplinary records at issue. . . . . . . . . 20
C. The Illinois Supreme Cour t erred by
not enforcing the Awards because they
are consistent with the express public
policy embodied in the PLRA and with
any public policies, explicit or implicit,
in the SRA or LRA. . . . . . . . . . . . . . . . . 25
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . 30
APPENDIX . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX A
Illinois Supreme Court Decision . . . . . . . . . 1a
APPENDIX B
Illinois Appellate Court Decision . . . . . . . 42a
APPENDIX C
Illinois Circuit Court Decision . . . . . . . . . 65a
APPENDIX D
Interim Arbitration Award
(January 13, 2016) . . . . . . . . . . . . . . . . . . . 85a
APPENDIX E
Final Arbitration Award
(April 28, 2016) . . . . . . . . . . . . . . . . . . . . 173a

vi
APPENDIX F
Clarification Award (June 31, 2016) . . . 216a
APPENDIX G
Declaratory Ruling by General Counsel
for Illinois Labor Relations Board
(October 26, 2020) . . . . . . . . . . . . . . . . . . 237a
APPENDIX H
Statutory text of relevant sections of
Illinois Public Labor Relations Act
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 257a
APPENDIX I
Illinois Local Records Act . . . . . . . . . . . . 260a
APPENDIX J
Illinois State Records Act . . . . . . . . . . . . 267a

vii
TABLE OF AUTHORITIES
Cases

American Federation of State, County & Municipal
Employees v. Department of Central Management
Services (AFSCME),
173 Ill. 2d 299, 671 N.E.2d 668,
219 Ill.Dec. 501 (Ill. 1996) . . . . . . . . . . . 19, 28

City of Belvidere v. Illinois State Labor Relations
Bd.,
181 Ill.2d 191,692 N.E.2d 295 (Ill. 1998) . . 23

City of Chicago v. Fraternal Order of Police,
Chicago Lodge No. 7,
2020 IL 124831, __ N.E.3d __, 2020
WL 3273050 (Ill., June 18, 2020) . . . . . . iii, 1

City of Chicago v. Fraternal Order of Police,
Chicago Lodge No. 7,
2017 WL 11318382 (Ill. Cir. Ct., 2017) . . iii, 1

City of Chicago v. Fraternal Order of Police,
Chicago Lodge No. 7,
2019 IL App (1st) 172907, 126 N.E.3d 662,
430 Ill. Dec. 574 (Ill. App., 2019) . . . . . . . iii, 1

City of Decatur,
2 PERI 2008 (ILRB 1986) . . . . . . . . . . . . . . 23

viii

Eastern Associated Coal Corp. v. United
Mine Workers of America, Dist. 17,
531 U.S. 57, 121 S.Ct. 462,
148 L. Ed. 354 (2000) . . . . i, 11, 12, 17-19, 21,
26, 29

Fraternal Order of Police, Chicago Lodge No. 7
v. City of Chicago,
2016 IL App (1st) 143884, ¶4
(Ill. App. 1st Dist. 2016) . . . . . . . . . . . . . . . . 4

Fraternal Order of Police, Chicago Lodge No. 7
v. City of Chicago,
60 N.E.3d 872, 406 Ill.Dec. 321 (Ill. 2016) . . 4

Int’l Bhd. of Teamsters, Local 700 v.
Ill. Labor Rels. Bd.,
2017 IL App (1st) 152993, ¶33
(Ill. App. 1st Dist. Feb. 1, 2017) . . . . . . . . . 23

NLRB v. Katz,
369 U.S. 736, 82 S.Ct. 1107,
8 L.Ed. 2d 230 (1962) . . . . . . . . . . . . . . . . . . 23

Pacific Maritime Association,
367 NLRB No. 121 (2019) . . . . . . . . . . . . . . 23

Steelworkers v. Enterprise Wheel & Car Corp.,
363 U.S. 593, 80 S.Ct. 1358,
1360, 4 L.Ed.2d 1424 (1960) . . . . . . . . . . . . 12

Toledo Blade Co.,
343 NLRB 385, (2004) . . . . . . . . . . . . . . . . . 23

ix

United Paperworkers International
Union v. Misco, Inc.,
484 U.S. 29, 108 S.Ct. 364,
98 L.Ed.2d 286 (1987) . . . i, 11, 12, 15-17, 19,
25-29

W.R. Grace & Co. v. Local Union No. 759,
461 U.S. 757, 103 S.Ct. 2177,
76 L.Ed.2d 298 (1983) . . . i, 11-16, 18, 19, 21,
24, 26, 29
Statutes
28 U.S.C. § 1257 . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 14141 . . . . . . . . . . . . . . . . . . . . . . . . 8
Illinois Local Records Act,
50 ILCS 205/1, et seq. . . . . . . 2, 20, 21, 24-27
Illinois Public Labor Relations Act,
5 ILCS 315/1, et seq. . . . . . . . . . . 2, 22, 24, 25
Illinois State Records Act,
5 ILCS 160/1, et seq. . . . . . . . 2, 20, 21, 24, 25
Other Authorities

Fraternal Order of Police, Chicago Lodge No. 7
and City of Chicago,
L-DR-21-001 (G.C. Dec. Ruling, October 16, 2020)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

x

In the Matter of The City of Chicago and Fraternal
Order of Police, Chicago Lodge No. 7,
Grievance Nos. 129-11-035 and 129-12-004
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

1
PETITION FOR A WRIT OF CERTIORARI
The Fraternal Order of Police, Chicago Lodge
No. 7 petitions for a writ of certiorari to review the
judgment of the Supreme Court of the State of
Illinois in this case.
OPINIONS BELOW

City of Chicago v. Fraternal Order of Police,
Chicago Lodge No. 7, 2017 WL 11318382 (Ill. Cir.
Ct., 2017)

City of Chicago v. Fraternal Order of Police,
Chicago Lodge No. 7, 2019 IL App (1st) 172907, 126
N.E.3d 662, 430 Ill. Dec. 574 (Ill. App., 2019).

City of Chicago v. Fraternal Order of Police,
Chicago Lodge No. 7, 2020 IL 124831, __ N.E.3d __,
2020 WL 3273050 (Ill., June 18, 2020).
JURISDICTION
The Opinion of the Illinois Supreme Court from
which Petitioner seeks a writ of certiorari was
issued on June 18, 2020 (Pet. App. A 1a-41a).
Petitioner invokes this Court’s jurisdiction under
28 U.S.C. § 1257, having timely filed this petition
for a writ of certiorari within 150 days of the
Illinois Supreme Court’s judgment, consistent with
this Court’s Covid-19 Order of March 19, 2020,
extending the time in which a petition for a writ
may be filed.

2
STATUTES AND CONSTITUTIONAL
PROVISIONS INVOLVED
Illinois Public Labor Relations Act, 5 ILCS 315/1,
et seq.
Illinois Local Records Act, 50 ILCS 205/1, et seq.
Illinois State Records Act, 5 ILCS 160/1, et seq.
INTRODUCTION AND
STATEMENT OF THE CASE
The Fraternal Order of Police, Chicago Lodge
No. 7 (“Lodge”) is a labor organization representing
Police Officers below the rank of Sergeant in the
City of Chicago’s (“City”) Department of Police for
collective bargaining (Pet. App. 4a-5a, ¶8, 63a).
The City is a municipal corporation employing
Police Officers represented by the Lodge (Pet. App.
4a-5a, ¶8, 63a).
Since the early 1980's, the Lodge and the City
have been parties to collective bargaining
agreements (“Agreement”), with the Agreement
relevant to this matter effective June 1, 2007
through May 31, 2012 (Pet. App. 4a-5a, ¶8, 93a,
105a-111a). The Agreement contains a detailed
grievance and arbitration procedure, including a
provision that the decision of an arbitrator “shall
be final and binding upon the parties.” (Pet. App.
6a, ¶10, 86a-93a). Central to this case is Section
8.4 of the Agreement, the relevant terms of which
have remained substantially unchanged over
decades, which requires the destruction of certain

3
records after a fixed period of time, with several
exceptions, (Pet. App. 4a-5a, 105a-111a), and reads
in relevant part as follows:
Section 8.4 — Use and Destruction of File
Material.
All disciplinary investigation files,
disciplinary history card entries,
Independent Police Review Authority and
Internal Affairs Division disciplinary
records, and any other disciplinary record or
summary of such record other than records
related to Police Board cases, will be
destroyed five (5) years after the date of the
incident or the date upon which the violation
is discovered, whichever is longer, except
that not sustained files alleging criminal
conduct or excessive force shall be retained
for a period of seven (7) years after the date
of the incident or the date upon which the
violation is discovered, whichever is longer,
....
When the City receives a complaint of
misconduct alleged against a Police Officer, a
Complaint Register (“CR”) file is opened, which
contains the information gathered in the course of
investigating the alleged misconduct (Pet. App.
45a, ¶5-6, 50a). The Lodge filed two grievances
over the City’s failure to destroy CR files in excess
of five years old and otherwise not excepted from
destruction pursuant to Section 8.4 of the collective

4
bargaining agreement, which the City denied (Pet.
App. 6a ¶10, 86a-93a). As the parties could not
resolve the grievances, the Lodge advanced them to
arbitration (Pet. App. 6a ¶10, 85a-172a).
In the interim, in October 2014, the City
notified the Lodge that it received Freedom of
Information Act requests seeking information from
CR files dating back to 1967, and that it intended
to comply with those requests (Pet. App. 6a-7a
¶11). Fraternal Order of Police, Chicago Lodge No.
7 v. City of Chicago, 2016 IL App (1st) 143884, ¶4
(Ill. App. 1st Dist. 2016). In response, the Lodge
filed an action in the Circuit Court of Cook County
seeking, inter alia, temporary and permanent
injunctive relief to prevent the release of the
requested information pending the arbitration at
issue here (Pet. App. 6a-7a ¶11). Id. at ¶ 5. On
July 8, 2016, the Appellate Court vacated
preliminary injunctions precluding the release of
the CR materials (Pet. App. 6a-7a ¶11). Id. at ¶ 55.
On September 28, 2016, the Illinois Supreme Court
denied the Lodge’s petition for leave to appeal the
Appellate Court’s decision in that case. Fraternal

Order of Police, Chicago Lodge No. 7 v. City of
Chicago, 60 N.E.3d 872, 406 Ill.Dec. 321 (Ill. 2016).
At the arbitration hearing, which proceeded
while the injunction suit was litigated, the parties
had an equal opportunity to, and did, in fact, make
opening statements and present evidence in the
form of documents and testimony, and submitted
briefs to the Arbitrator (Pet. App. 85a-172a).

5
Arbitrator Roumell issued his Interim Award on
January 12, 2016 (“Interim Award”) (Pet. App. 85a172a), providing a detailed recitation of the
evidence considered and conclusions reached,
including: the grievances and responses (Pet. App.
86a-93a); the collective bargaining agreement (Pet.
App. 93a-96a); the parties’ arguments (Pet. App.
97a-105a); the evolution and bargaining of Section
8.4since the early 1980’s (Pet. App. 105a-111a); the
City’s internal document destruction policies (Pet.
App. 111a-116a); prior arbitration decisions
addressing Section 8.4 (Pet. App. 116a-119a); the
City’s testimony regarding its document retention
practices (Pet. App. 119a-123a); prior court orders
cited by the City (Pet. App. 123a-135a); evidence
pertinent to the City’s past-practice argument (Pet.
App. 135a-147a); the arbitration award of Jules
Crystal (Pet. App. 147a-150a); the City’s testimony
regarding current litigation (Pet. App. 150a-158a);
and the City’s public policy arguments (Pet. App.
158a-166a). Arbitrator Roumell specifically
considered the City’s arguments that the Illinois
Local Records Act precluded the relief sought by
the Lodge (Pet. App. 165a-166a). Ultimately,
Arbitrator Roumell found that the City violated
Section 8.4 of the Agreement and directed the
parties to meet and attempt to establish a
procedure for compliance (Pet. App. 166a-172a).
The parties met consistent with the Interim
Award, submitted letters and other records, and
subsequently met with Arbitrator Roumell on
March 22, 2016 (Pet. App. 176a-191a). Thereafter,

6
Arbitrator Roumell issued his April 28, 2016,
Opinion and Award (“Final Award”), reviewing
developments since the Interim Award (Pet. App.
173a-215a). He noted that “[t]he request of the
Justice Department brings forth a dynamic that
was not present when this Arbitrator considered
the public policy arguments, and, if not in existence
currently, would not change this Arbitrator’s view
as to the public policy argument.” (Pet. App. 209a).
Ultimately, Arbitrator Roumell concluded (Pet.
App. 214a):
In arriving at the conclusion that he has,
this Arbitrator is still of the opinion that 8.4,
as he has interpreted 8.4, is there to be read
in the context of the bargaining history
subject to a final resolution of the effect of
the term ‘normally’ in the last sentence of
the first paragraph of 8.4.
But this
Arbitrator, because of the public policy as
now established by the request of the U.S.
Department of Justice pursuant to statute,
cannot provide any remedy as suggested in
the January 12, 2016 Opinion and Interim
Award or any other relief or remedy at this
point in time.
On May 2, 2016, the Lodge filed a motion to
reconsider or clarify the April 28, 2016 Award, and
the City responded (Pet. App. 216a-236a). The
Arbitrator ruled on the Lodge’s motion on June 21,
2016, issuing his Arbitrator’s Ruling on Fraternal
Order Of Police Lodge No. 7's Motion for

7
Reconsideration or, Alternatively, Clarification
(“Clarification”) (Pet. App. 216a-236a) (the Interim
Award, Final Award and Clarification referred to
hereinafter collectively as “Award”), once again
carefully reviewing the parties’ arguments (Pet.
App. 227a-232a), and concluded (Pet. App. 233a234a):
The Award stands, but with a clarification
as to the Award’s meaning. The initial
finding of January 12, 2016 as to the
destruction of records pursuant to the
language of Section 8.4 is there to be read
and applied once the public policy exception
brought on by the Department of Justice
investigation and its possible consequences
no longer exists. This is the meaning of the
Award of April 28, 2016 by the language ‘at
this point in time’, namely, as long as the
Department of Justice is involved in any
capacity with the City of Chicago Police
Department and makes any requirements or
requests, as currently is the case and may be
in the future, that the records at issue be
preserved. The language ‘only for this
reason’ means that if the Department of
Justice is no longer involved with the City of
Chicago in any capacity wherein the
retention of the records is not involved, then
the public policy exception ceases to exist.
The definition of involvement by the
Department of Justice as a result of the
investigation could mean litigation or an

8
agreement between the City and the
Department of Justice in lieu of litigation or
a settlement stemming from litigation
monitoring or oversight that would involve
retention of records pursuant to the
Department of Justice’s authority as set
forth in 42 U.S.C. § 14141.
The City timely filed a petition to vacate the
Award in the Circuit Court of Cook County and the
Lodge filed its answer and counterclaim to enforce
the Award (Pet. App. 99a, ¶18). The parties
subsequently filed cross-motions to enforce and
vacate the Award based on the record before the
Arbitrator (Pet. App. 11a, ¶21). On October 18,
2017, the Circuit Court granted the City’s motion
to vacate, denied the Lodge’s motion to enforce, and
entered final judgment vacating the Award on
public policy grounds (Pet. App. 11a, ¶21, 63a-84a).
The Circuit Court’s primary holding was that the
Award, by enforcing Section 8.4 of the parties’
collective bargaining agreement requiring
destruction of Complaint Register (“CR”) files more
than five years old, violated State public policy
requiring preservation of governmental records,
relying primarily upon the Illinois State Records
Act and Illinois Local Records Act (Pet. App. 71a83a).
On November 16, 2017, the Lodge timely filed
its appeal from the decision of the Circuit Court to
the Illinois Appellate Court, First District (Pet.
App. 12a, ¶23, 51a,¶19). On March 29, 2019, the

9
Appellate Court issued its decision affirming the
Circuit Court, concluding: “we find that the
arbitration award violated an explicit, well-defined,
and dominant public policy requiring retention of
important public records.” (Pet. App. 12a, ¶23, 62a,
¶40). The Lodge subsequently sought leave to
appeal to the Illinois Supreme Court from the
adverse decision of the Appellate Court, which was
granted (Pet. App. 1a-41a).
On June 11, 2020, the Illinois Supreme Court
rendered its decision holding that the record
destruction provision in Section 8.4 is
unenforceable because it violates public policy (Pet.
App. 1a-41a). The Illinois Supreme Court found
that the Illinois Local Records Act and the Illinois
State Records Act established a well defined,
dominant public policy requiring the retention of
police disciplinary records (Pet. App. 19a, ¶37).
The Illinois Supreme Court held that, based on this
public policy, the arbitration award could not be
enforced, as it did not provide for compliance with
the provision of the Local Records Act giving
deference to determinations made by the Local
Records Commission (Pet. App. 23a-24a, ¶44).
Thus, the Court concluded: “Without allowing the
City to comply with state law, Section 8.4 clearly
contravenes a well-defined statutory declaration of
public policy and is simply incompatible with the
legislative procedures articulated in the Local
Records Act.” (Pet. App. 21a-22a, ¶42).

10
The dissent agreed with the majority that there
is a “‘well-defined and dominant’ public policy
rooted in state law concerning the procedures for
the proper retention and destruction of government
records” and that “an arbitrator’s award violating
this public policy can be set aside.” (Pet. App. 29a,
¶57). However, the dissent highlighted the fact
that the arbitrator’s award “merely directed the
parties to meet and negotiate[,]” and that “the
arbitrator did not order the destruction of any
records.” (Pet. App. 31a, ¶60). The dissent
correctly recognized the “separate ‘well-defined
dominant’ public policy in state law to enforce
collective bargaining agreements and labor
arbitration awards[,]” and discussed the U.S.
Supreme Court case law emphasizing the
importance of arbitration awards in upholding
rights guaranteed by collective bargaining
agreements (Pet. App. 31a-33a, ¶61-64, 36a-39a,
¶70-77). The dissent explained that “nothing in the
Local Records Act requires the indefinite retention
or permanent preservation of records.” (Pet. App.
40a, ¶79).
The Lodge now petitions for a writ of certiorari
requesting that this Court review the decision of
the Illinois Supreme Court, as it wrongfully
expands the scope of the public policy exception to
the enforcement of labor arbitration awards in a
manner contrary to clear precedent established by
the Court.

11

REASONS FOR GRANTING THE WRIT
This case concerns a decision by the Illinois
Supreme Court undermining the ability of public
sector employees to rely upon their contractual
grievance and arbitration procedures. Although
this action originated under a public sector
collective bargaining agreement under Illinois law,
the rationale behind the decision of the Illinois
Supreme Court implicates and undermines Federal
policies favoring enforcement of arbitration
provisions as a matter of contract law, as
established by this Court’s decisions, including:
W.R. Grace & Co. v. Local Union No. 759, 461 U.S.
757, 103 S.Ct. 2177, 2183, 76 L.Ed.2d 298, 307
(1983); United Paperworkers International Union
v. Misco, Inc., 484 U.S. 29, 108 S.Ct. 364, 98
L.Ed.2d 286 (1987); and Eastern Associated Coal
Corp. v. United Mine Workers of America, Dist. 17,
531 U.S. 57; 121 S.Ct. 462, 148 L. Ed. 354 (2000).
A. The public policy favoring enforcement of
labor arbitration awards is wellestablished and dominant, and carefully
circumscribes when a public policy may be
utilized to vacate an arbitration award.
This Court has long recognized a public policy
favoring court deference to labor arbitration
decisions rendered under a collective bargaining

12
agreement. Steelworkers v. Enterprise Wheel &
Car Corp., 363 U.S. 593, 596, 80 S.Ct. 1358, 1360,
4 L.Ed.2d 1424 (1960) (“The federal policy of
settling labor disputes by arbitration would be
undermined if courts had the final say on the
merits of the awards.”). Even if an arbitrator were
to give no explanation for an award, the courts
would still owe deference. Id. at 598 (“Arbitrators
have no obligation to the court to give their reasons
for an award”).
Notwithstanding this deference, this Court has
made clear that awards which violate public policy
may not be enforced. W.R. Grace, 461 U.S. 757;
Misco, 484 U.S. 29; and Eastern Associated Coal,
531 U.S. 57. Whether an award violates public
policy “is a specific application of the more general
doctrine, rooted in the common law, that a court
may refuse to enforce contracts that violate law or
public policy.” Misco, 484 U.S. at 42. See also,
Eastern Associated Coal, 531 U.S. at 63 (“the
public policy exception is narrow . . . ., where two
political branches have created a detailed
regulatory regime in a specific field, courts should
approach with particular caution pleas to divine
further public policy in that area.”). W.R. Grace,
461 U.S. at 766 (citations omitted) (“If the contract.
. . violates some explicit public policy, we are
obliged to refrain from enforcing it. Such a public
policy, however, must be well defined and
dominant, and is to be ascertained ‘by reference to
the laws and legal precedents and not from general
considerations of supposed public interests.’”).

13
In W.R.Grace, this Court affirmed an
arbitration award enforcing the seniority provision
of a collective bargaining agreement and ordering
the employer to reinstate employees it had laid off
in violation thereof. 461 U.S. at 764-65. Prior to
that, the employer entered into a conciliation
agreement with the Equal Employment
Opportunity Commission (“EEOC”), which the
EEOC sought to enforce in the district court. Id. at
760-61. The district court entered a declaratory
ruling that the conciliation agreement was binding
on all parties, including the Union, and barring
arbitration. Id. at 761. The employer laid
employees off consistent with the conciliation
agreement, but inconsistent with the seniority
provisions of the collective bargaining agreement.
Id. at 761-62. The district court’s decision was
reversed on appeal, finding the seniority provision
to be lawful and ordering arbitration over the
layoffs. Id. at 762. Several grievances then
proceeded to arbitration. Id. One arbitrator found
that the employer’s good faith reliance on the
district court’s order did not excuse its violation of
the seniority provision, ordering the employer to
make the affected employee whole. Id. at 763-64.
The employer then filed suit to vacate the
arbitration award. Id. at 764. The district court
granted summary judgment for the employer on
the basis that public policy precluded enforcement
of the arbitration award. Id. The Fifth Circuit
reversed the district court, and this Court affirmed.
Id. at 764, 772.

14
In considering the public policies at issue, this
Court recognized the important public policies of
“obedience to judicial orders” and “[v]oluntary
compliance with Title VII”. Id. at 766, 770.
Neither provided a basis warranting vacating the
arbitration award. The Court noted that the
conflict between the collective bargaining
agreement and the conciliation agreement enforced
by the district court “was of the Company’s own
making[,]” having voluntarily entered into both
agreements. Id. at 767, 770. Thus, the arbitrator
reasonably allocated losses to the employer caused
by its decision to honor one agreement over the
other prior to a final judicial resolution. Id.
Moreover, this Court highlighted the fact that
“nothing in the collective bargaining agreement
required the Company to violate that order.” Id. at
768.
As for compliance with Title VII, the Court
easily concluded that enforcement of the
arbitration award “will not inappropriately affect
this public policy.” Id. at 771. The Court reasoned:
Absent a judicial determination, the
Commission, not to mention the Company,
cannot alter the collective bargaining
agreement without the Union’s consent.
Permitting such a result would undermine
the federal labor policy that parties to a
collective bargaining agreement must have
reasonable assurance that their contract will
be honored. Id. (citations omitted).

15
This Court again took up the issue of the public
policy exception to enforcement of labor arbitration
awards to resolve a circuit court split in Misco, 484
U.S. at 35, n. 7. In Misco, an employee was
terminated for being in a car with marijuana on
company property, and his union filed a grievance
over the termination. Id. at 33. Days prior to the
arbitration hearing, the company further learned
that grievant was also found to have marijuana in
his personal car on company property. Id. The
arbitrator sustained the grievance, finding that the
company did not have just cause for the discharge.
Id. at 34. The arbitrator based his decision on the
fact that the company did not know the grievant
had marijuana in his car at the time it discharged
him, so that fact could not be the basis for the
termination. Id. The arbitrator further found that
the evidence that the grievant was in a car with a
lit marijuana cigarette insufficient to establish that
he possessed or used marijuana on company
property. Id.
The company filed suit to vacate the arbitrator’s
award. Id. Both the district court and appellate
court agreed with the employer, holding that
“reinstatement would violate the public policy
‘against the operation of dangerous machinery by
persons under the influence of drugs or alcohol.’”
Id. at 35.
On certiorari, this Court again
emphasized a court’s disagreement with an
arbitrator’s reading of the agreement or findings of
fact do not warrant vacating an award, as “the
speedy resolution of grievances by private

16
mechanisms would be greatly undermined.” Id. at
38. Importantly, the Court explained that the
“grievance and arbitration procedures are part and
parcel of the ongoing process of collective
bargaining.” Id.
In reviewing its decision in W.R. Grace, the
Misco Court explained;
Two points follow from our decision in W.R.
Grace. First, a court may refuse to enforce
a collective bargaining agreement when the
specific terms contained in the agreement
violate public policy. Second, it is apparent
that our decision in that case does not
otherwise sanction a broad judicial power to
set aside arbitration awards as against
public policy. Id. at 43.
The Court’s “examination of whether the award
created any explicit conflict with other ‘laws and
legal precedents’ rather than an assessment of
‘general considerations of supposed public
interest.’” Id. Thus, the Court explained, “[a]t the
very least, an alleged public policy must be
properly framed under the approach set out in
W.R. Grace, and the violation of such a policy must
be clearly shown if an award is not to be enforced.”
Id. In reversing the appellate court, this Court
noted the absence of an adequate explanation of
the basis for the asserted public policy. Id. at 44.
Likewise, the appellate court failed to explain how
the award would violate the asserted public policy,

17
as the grievant could be reinstated without
operating dangerous equipment “under the
influence of drugs or alcohol.” Id. As the Court
stated, “[a] refusal to enforce an award must rest
on more than speculation or assumption.” Id. This
Court particularly faulted the appellate court for
engaging in additional fact-finding, explaining that
an inquiry “into a possible violation of public
policy” does not “excuse a court for doing the
arbitrator’s task.” Id. at 44-45.
Most recently, this Court addressed the public
policy exception in Eastern Associated Coal, 531
U.S. 57. The grievant was terminated for testing
positive for marijuana on two drug tests. Id. at 60.
The arbitrator ordered the grievant to be
reinstated on the conditions that he accept a
suspension without pay, reimburse the costs of the
arbitrations, participate in substance abuse
treatment, undergo random drug testing and
provide a signed letter of resignation to take effect
on another positive test. Id. at 61. The employer
filed suit to vacate, arguing that reinstatement
violated the public policy against operating
“dangerous machinery by workers who test positive
for drugs.” Id. Both the district court and
appellate court rejected the employer’s argument,
upholding the award. Id. This Court affirmed the
decision of the appellate court. Id.
The Court explained that “we must treat the
arbitrator’s award as if it represented an
agreement between Eastern and the union as to

18
the proper meaning of the” agreement. Id. at 62.
Thus, the question for the Court was “whether a
contractual reinstatement requirement would fall
within the legal exception that makes
unenforceable ‘a collective bargaining agreement
that is contrary to public policy.’” Id., citing W.R.
Grace, 461 U.S. at 766. The employer relied upon
drug testing requirements for transportation
employees as the basis for its asserted public
policy. Id. However, this Court recognized that
“the Act’s remedial aims are complex[,]” and
include provisions for rehabilitation. Id. at 64-65.
Moreover, the Court explained that these public
policies “read in light of background labor law
policy that favors determination of disciplinary
questions through arbitration when chosen as a
result of labor-management negotiations.” Id. at
65.
The Court concluded that “[t]he award violates
no specific provision of any law or regulation.” Id.
at 66. The award recognized the seriousness of the
grievant’s conduct and still imposed a substantial
punishment, albeit short of termination. Id. at 6566.
Moreover, “[n]either Congress nor the
Secretary has seen fit to mandate the discharge of
a worker who twice tests positive for drugs.” Id. at
67. Accordingly, the conditional reinstatement
award did not violate “an ‘explicit,’ ‘well defined,’
‘dominant’ public policy[.]” Id.
Illinois purports to similarly limit the scope of
the public policy exception to the enforcement of

19
labor arbitration awards. American Federation of

State, County & Municipal Employees v.
Department of Central Management Services
(AFSCME), 173 Ill. 2d 299, 306, 671 N.E.2d 668,
219 Ill.Dec. 501 (Ill. 1996) (“Courts have crafted a
public policy exception to vacate arbitral awards
which otherwise derive their essence from a
collective-bargaining agreement.”). The AFSCME
court relied heavily on this Court’s decisions in
W.R. Grace and Misco, as well as other Federal
appellate court decisions, to recognize and
establish the public policy exception under Illinois
law. Id. Notwithstanding its stated intent to
uphold the standards set forth in W.R. Grace and
Misco, the Illinois Supreme Court’s decision in this
case expands the public policy exception1 to
enforcement of arbitration awards in a way that
wrongfully disregards the courts’ limited role in
reviewing arbitration awards and excuses the City
from adhering to the contract it agreed to without
first bargaining with the Lodge for changes.

1

The City has not asserted any statutory bases for
vacating the Award, relying exclusively on the nonstatutory public policy exception.

20
B. The Illinois Supreme Court erred
because there is no explicit public
policy requiring retention of the
disciplinary records at issue.
The Illinois Supreme Court found that the
Illinois Local Records Act, 50 ILCS 205/1, et seq.
(“LRA”), and the Illinois State Records Act, 5 ILCS
160/1, et seq. (“SRA”), established a well defined,
dominant public policy requiring the retention of
public records (Pet. App. 17a-18a, ¶ 35). The
Illinois Supreme Court relied primarily upon
sections 4, 6, 7 and 10 of the LRA, 50 ILCS 205/4,
6, 7 & 10 (Pet. App. 15a-17a, ¶ 31-33; 260a-266a).
Section 4(a) of the LRA makes it a felony for
anyone to intentionally violate the prohibition that
covered public records “shall not be mutilated,
destroyed, transferred, removed or otherwise
damages or disposed of, in whole or in part, except
as provided by law.” 50 ILCS 205/4(a) (Pet. App.
260a-262a). Sections 6, 7 and 10 establish the
requirements for approval by the Local Records
Commission before covered public records may be
destroyed. 50 ILCS 205/6, 7 & 10; (Pet. App. 262a266a). Thus, the Illinois Supreme Court held that
the “statutory framework the General Assembly
constructed makes clear that Illinois recognizes a
public policy favoring the proper retention of
government records and that the destruction of
public records may occur only after consideration
by and with the approval from the Commission in
a process established by the Commission.” (Pet.
App. 17a-18a, ¶ 35). The Illinois Supreme Court

21
further relied on the purpose of the State Records
Act (which does not apply to the City), which
similarly requires certain procedures to dispose of
covered State records. 5 ILCS 160/1.5 & 17 (Pet.
App. 18a-19a, ¶ 36; 267a-270a).
Nothing in the SRA or LRA explicitly preclude
the City from entering into a document
retention/destruction agreement such as that in
Section 8.4 of the collective bargaining agreement
(Pet. App. 260a-270a). As the dissent explained,
“nothing in the Local Records Act requires the
indefinite retention or permanent preservation of
records.” (Pet. App. 40a, ¶ 79). The fact that the
SRA and LRA establish procedures to schedule
documents for destruction means that they cannot
form the basis for a well-defined and dominant
public policy requiring the indefinite retention of
the disciplinary records at issue here. Consistent
with W.R. Grace, nothing in the Award requires
the City to violate the LRA. 416 U.S. at 768.
Indeed, the precise mechanisms laid out in the SRA
and LRA, including the establishment of
Commissions and the delegation of authority to
make determinations, strongly indicate that the
public policy is to provide for the orderly
destruction of records that have exceeded their
value, rather than the indefinite retention of
everything. As with the statute in Eastern
Associated Coal, the remedial goals of the LRA and
SRA are “complex.” 531 U.S. at 64-65. There is no
need for the legislature to have created such a

22
mechanism if the clear policy they sought to
establish was the indefinite retention of records.
Significantly, as pointed out by the dissent, the
Illinois Supreme Court’s decision fails to recognize
the “separate ‘well-defined dominant’ public policy
in state law to enforce collective bargaining
agreements and labor arbitration awards” (Pet.
App. 30a, ¶ 58). The Illinois Public Labor
Relations Act, 5 ILCS 315/1, et seq., (“PLRA”) (Pet.
App. 257a-259a), provides that it and any
agreements made thereunder, “shall control” over
where there is “any conflict between the provisions
of this Act and any other law[,]” and that they
“shall supercede any contrary statutes, charters,
ordinances, rules or regulations relating to wages,
hours and conditions of employment and
employment relations adopted by the public
employer or its agents”. 5 ILCS 315/15(a)&(b) (Pet.
App. 257a-259a). Moreover, the PLRA requires all
collective bargaining agreements to have a detailed
grievance and arbitration provision. 5 ILCS 315/8
(Pet. App. 257a). As the dissent correctly noted,
the PLRA establishes a “separate ‘well-defined
dominant’ public policy in state law to enforce
collective bargaining agreements and labor
arbitration awards[,]” and properly focused on this
Court’s decisions emphasizing the importance of
arbitration awards in upholding rights guaranteed
by collective bargaining agreements (Pet. App. 31a32a, ¶61).

23
It is well established under both Illinois and
Federal law that an employer cannot unilaterally
change terms and conditions of employment
without bargaining with the recognized union first.
See, NLRB v. Katz, 369 U.S. 736, 742-43, 82 S.Ct.
1107, 1111, 8 L.Ed. 2d 230 (1962); City of Belvidere
v. Illinois State Labor Relations Bd., 181 Ill.2d 191,
206-7; 692 N.E.2d 295 (Ill. 1998).
Matters
surrounding how employees are disciplined,
including the use and retention of disciplinary
records, like CR files, clearly concern a term and
condition of employment. See, Pacific Maritime
Association, 367 NLRB No. 121 (2019) (citing
NLRB v. Katz, 369 U.S. 736 (1962); Toledo Blade
Co., 343 NLRB 385, 387 (2004))(“It is well
established that Section 8(a)(5) and (1) of the Act
requires an employer to provide its employees'
representative with notice and an opportunity to
bargain before making material, substantial and
significant changes to terms of employment that
are mandatory subjects of bargaining, such as the
employer's disciplinary system.”); Int’l Bhd. of
Teamsters, Local 700 v. Ill. Labor Rels. Bd., 2017
IL App (1st) 152993, ¶33 (Ill. App. 1st Dist. Feb. 1,
2017) (“A matter concerns wages, hours, and terms
and conditions of employment if it (1) involved a
departure from previously established operating
practices, (2) effected a change in the conditions of
employment, or (3) resulted in a significant
impairment of job tenure, employment security, or
reasonably anticipated work opportunities for those
in the Union.”); City of Decatur, 2 PERI 2008
(ILRB 1986) (employee discipline is a mandatory

24
subject of collective bargaining within the meaning
of Section 7 of the Act). Indeed, the General
Counsel for the Illinois Labor Relations Board
recently issued a declaratory ruling confirming that
the portions of Section 8.4 concerning the retention
or destruction of disciplinary records is a
mandatory subject of bargaining. See, Fraternal

Order of Police, Chicago Lodge No. 7 and City of
Chicago, L-DR-21-001 (G.C. Dec. Ruling, October
16, 2020) (Pet. App. 194a-195a). In this case, the
Illinois Supreme Court erred by failing to recognize
Section 8.4 as a mandatory subject of bargaining.
The failure to recognized this important
designation allowed the Illinois Supreme Court to
place the public policy it found in the LRA and SRA
above the Award and PLRA. By dismissing the
public policy in the PLRA, particularly as to the
supremacy of collective bargaining agreements
concerning mandatory subjects of bargaining, the
Illinois Supreme Court unreasonably and wrongly
expanded the scope of the public policy exception.
Thus, contrary to W.R. Grace, the Lodge and its
members have been denied “reasonable assurance
that their contract will be honored.” 461 U.S. at
771.
It is important to note that while the Illinois
Supreme Court based its public policy holding
solely on the SRA and LRA, it referenced the report
issued by the United States Department of Justice
(“DOJ”), and the Mayoral Task Force reports
regarding Section 8.4 (Pet. App. 10a-11a, ¶19-20).
This was significant because, in contrast, the

25
Illinois Appellate Court relied on the DOJ and
Task Force reports to “further support a finding
that public policy favors the maintenance of
important public records like those related to
allegations of police misconduct.” (Pet. App. 16a17a, ¶33). The Illinois Supreme Court’s failure to
disclaim the Appellate Court’s reliance on these
Reports strongly suggest that they were incorrectly
considered in making its public policy
determination. Neither report provide a basis to
find a public policy, as they clearly are not “laws
and legal precedents[,]” but are at best akin to
“general considerations of supposed public
interests” that cannot be the basis for the public
policy exception. Misco, 484 U.S. at 43. Any
reliance on these Reports would constitute a
further unwarranted expansion of the public policy
exception to the enforcement of labor arbitration
awards.
C. The Illinois Supreme Court erred by
not enforcing the Awards because
they are consistent with the express
public policy embodied in the PLRA
and with any public policies,
explicit or implicit, in the SRA or
LRA.
The Illinois Supreme Court held that the
arbitration Award could not be enforced consistent
with the public policies embodied in the LRA and
SRA (Pet. App. 23a-14a, ¶44).
The Court
specifically found the Award unenforceable because

26
it did not explicitly state that the City must comply
with the provision of the LRA, stating: “Without
allowing the City to comply with state law, Section
8.4 clearly contravenes a well-defined statutory
declaration of public policy and is simply
incompatible with the legislative procedures
articulated in the Local Records Act.” (Pet. App.
21a-22a, ¶42). As the dissent correctly
acknowledged, the Award in no way requires the
City to violate the Local Records Act: “nothing in
the Local Records Act requires the indefinite
retention or permanent preservation of records.”
(Pet. App. 40a, ¶79). As the dissent correctly
highlighted, the Arbitrator’s Award “merely
directed the parties to meet and negotiate[,]” and
“the arbitrator did not order the destruction of any
records.” (Pet. App. 40a, ¶79). Rather, the dissent
explained, the LRA provides a process, and the
arbitration Award can be implemented consistent
therewith. As with W. R. Grace, any conflict the
City finds itself in between the Award and LRA is
a conflict of its “own making.” 416 at 767, 770.
Accordingly, the Illinois Supreme Court has
expanded the public policy exception well beyond
the limited scope established by this Court in
Misco, W.R. Grace and Eastern Associated Coal
The Illinois Supreme Court further erred by
disregarding important factual findings made by
the Arbitrator concerning the City’s compliance
Misco, 484 U.S. at 44-45.
with the LRA.
Specifically, the Arbitrator found no evidence “that
the Local Records Commission denied” any

27
application by the City to destroy the records at
issue (Pet. App. 166a). Put simply, there is no
basis in the arbitral record for the Illinois Supreme
Court to conclude that the Local Records
Commission would deny such a petition (Pet. App.
21a-22a, ¶42). As explained in Misco, “[a] refusal
to enforce an award must rest on more than
speculation and assumption.” 484 U.S. at 44.
Similarly, the Illinois Supreme Court did not
address the Arbitrator’s finding that the City has
had, since at least 1975 (pre-dating the collective
bargaining relationship between the City and the
Lodge) a document destruction policy identical to
that set forth within Section 8.4 of the collective
bargaining agreement (Pet. App. 111a-116a).
Given the existence of the City’s own document
destruction policies mirroring the scope of records
and the time frames in Section 8.4, the Arbitrator
found that there was “no basis to suggest that the
issuance of an award granting relief in these
grievances violates public policy based upon the
Local Records Act.” (Pet. App. 166a).
The City had the opportunity to introduce
evidence at the arbitration hearing regarding
whether it had made such requests to the Local
Record Commission or what additional process it
might have to follow. The City, however, failed to
present any evidence at the arbitration (or in the
Circuit Court) regarding its interactions with the
Local Records Commission or its processes for
implementing its own document destruction policy.
Thus, there is no record evidence that the City

28
lacked the authority under the LRA to comply with
either Section 8.4 or its own document destruction
policy (Pet. App. 166a). The Illinois Supreme Court
(and the Appellate Court and Circuit Court),
simply assumed that the Local Records
Commission would deny such an application by the
City, excusing the City from its obligations to
present evidence at the arbitration hearing and
subverting the role of the Arbitrator. While the
Courts have the authority to determine pubic
policy, they remain bound by the factual findings
and the record before the Arbitrator. Misco, 484
U.S. at 43; AFSCME, 173 Ill. 2d at 304-305. In this
case, the Illinois Supreme Court disregarded
important factual findings made by the Arbitrator
to wrongfully invalidate the Award on the basis of
public policy.
The City voluntarily agreed to some variation of
Section 8.4 in each of the collective bargaining
agreements between the Lodge and the City since
the inception of bargaining in 1981 (Pet. App. 106a111a). Indeed, as the record before the Arbitrator
established, the City regularly sought changes to
Section 8.4 at the bargaining table, achieving some,
but not all of its proposals prior to reaching
agreement on the 2007-2012 collective bargaining
agreement (Pet. App. 106a-111a). The decision of
the Illinois Supreme Court ignores the very
reasonable assumption that the City would not
enter into a contract it believed was imprudent (or
inconsistent with its needs and/or statutory
obligations), and that the Lodge should be able to

29
rely on the City’s representations made through
collective bargaining. See, W.R. Grace, 461 U.S. at
771. As is clear from the Awards the City broke its
promises to the Lodge and the thousands of
Officers it represents. The Arbitrator carefully
considered the City’s arguments and rejected them.
That the City regrets its agreement, and that the
Illinois Supreme Court may disapprove of the
bargain the City made, are not bases upon which
the Award may be vacated. The remedy for those
concerns is for the City to bargain for changes to
Section 8.4, and for the public to vote out City
officials if dissatisfied with the results of the City’s
bargaining. These are principles upon which
government functions. By vacating the Award, the
Illinois Supreme Court unreasonably expanded the
scope of the public policy exception, relieving the
City of its bargaining obligations and directly
infringing on the Lodge’s ability to enforce the
collective bargaining agreement through the
grievance and arbitration provision.
Because the Award can be enforced consistent
with public policy – indeed, public policy favors its
enforcement–the Illinois Supreme Court wrongfully
expanded the scope of the public policy exception
established by this Court in Misco, W.R. Grace and
Eastern Coal Association.
Accordingly, the
decision of the Illinois Supreme Court should be
reversed and the Award enforced.

30
CONCLUSION
For the foregoing reasons, Fraternal Order of
Police, Chicago Lodge No. 7, respectfully requests
that this Court issue of writ of certiorari to review
the judgment of the Illinois Supreme Court.
Respectfully submitted,
Brian C. Hlavin

Counsel of Record
BAUM SIGMAN AUERBACH
& NEUMAN, LTD.
200 W. Adams Street, Suite 2200
Chicago, IL 60606-5231
(312) 236-4316
bhlavin@baumsigman.com
November 11, 2020

1a
APPENDIX A
2020 IL 124831
IN THE
SUPREME COURT
OF
THE STATE OF ILLINOIS
_______________________________
(Docket No. 124831)
THE CITY OF CHICAGO, Appellee, v.
FRATERNAL ORDER OF POLICE, CHICAGO
LODGE NO. 7,
Appellant.

Opinion filed June 18, 2020.
JUSTICE KARMEIER delivered the judgment of
the court, with opinion.
Chief Justice Anne M. Burke and Justices
Garman, Theis, Neville, and Michael J. Burke
concurred in the judgment and opinion.
Justice Kilbride dissented, with opinion.
OPINION
¶1
This appeal presents a single issue: whether
a provision in a collective bargaining agreement
(CBA) that, contrary to the provisions of the Local

2a
Records Act (50 ILCS 205/1 et seq. (West 2016)),
requires the destruction of disciplinary files after a
fixed period of time violates public policy. The issue
arises in the context of an action brought by the
Fraternal Order of Police, Chicago Lodge No. 7
(FOP), against the City of Chicago (City) for failing
to destroy records of police misconduct as required
under the CBA. The matter went to arbitration,
where the arbitrator held that the CBA should
prevail and directed the parties to come to an
agreement regarding the destruction of the
documents. The City sought to overturn the
arbitration award in the Cook County circuit court
and was successful on public policy grounds. The
appellate court affirmed, and this court allowed the
FOP’s petition for leave to appeal. Ill. S. Ct. R. 315
(eff. July 1, 2018). For the reasons that follow, we
affirm the judgment of the appellate court.
¶2

PRINCIPAL STATUTES INVOLVED

¶3
Section 4 of the Local Records Act states in
relevant part:
“(a) Except as otherwise provided in
subsection (b) of this Section, all public records
made or received by, or under the authority of,
or coming into the custody, control or possession
of any officer or agency shall not be mutilated,
destroyed, transferred, removed or otherwise
damaged or disposed of, in whole or in part,
except as provided by law. Any person who
knowingly, without lawful authority and with

3a
the intent to defraud any party, public officer,
or entity, alters, destroys, defaces, removes, or
conceals any public record commits a Class 4
felony.” 50 ILCS 205/4(a) (West 2016).
¶4
Section 6 of the Local Records Act provides
for the creation of a local records commission
(Commission) to administer the requirements set
forth in the Act. Id. § 6.
¶5
Section 7 of the Local Records Act states in
relevant part:
“Disposition rules. Except as otherwise
provided by law, no public record shall be
disposed of by any officer or agency unless the
written approval of the appropriate Local
Records Commission is first obtained.
The Commission shall issue regulations
which shall be binding on all such officers. Such
regulations shall establish procedures for
compiling and submitting to the Commission
lists and schedules of public records proposed
for disposal; procedures for the physical
destruction or other disposition of such public
records; procedures for the management and
preservation of electronically generated and
maintained records; and standards for the
reproduction of such public records by
photography, microphotographic processes, or
digitized electronic format.” Id. § 7.

4a
¶6

Section 10 of the Local Records Act states:
“§ 10. The head of each agency shall submit
to the appropriate Commission, in accordance
with the regulations of the Commission, lists or
schedules of public records in his custody that
are not needed in the transaction of current
business and that do not have sufficient
administrative, legal or fiscal value to warrant
their further preservation. The head of each
agency shall also submit lists or schedules
proposing the length of time each records series
warrants retention for administrative, legal or
fiscal purposes after it has been received by the
agency. The Commission shall determine what
public records have no administrative, legal,
research or historical value and should be
destroyed or otherwise disposed of and shall
authorize destruction or other disposal thereof.
No public record shall be destroyed or otherwise
disposed of by any Local Records Commission
on its own initiative, nor contrary to law. This
Section shall not apply to court records as
governed by Section 4 of this Act.” Id. § 10.

¶7

BACKGROUND

¶8
Since January 1981, the City of Chicago and
the Fraternal Order of Police, Chicago Lodge No. 7,
have been parties to a collective bargaining
agreement. Central to this case is section 8.4 of the
2007-12 CBA, which mandates the destruction of
disciplinary and investigation records like

5a
complaint register files. These files are produced in
the course of investigations by the Civilian Office of
Police Accountability (COPA) and the Chicago
Police Department’s Bureau of Internal Affairs of
alleged misconduct by Chicago Police Department
(CPD) officers. COPA and the bureau had the
authority to recommend to the CPD superintendent
disciplinary action for violations of CPD rules and
regulations. The relevant terms of section 8.4 have
remained substantially unchanged over the
decades since it was implemented in the initial
CBA. Section 8.4 of the 2007-12 CBA reads in
relevant part:
“All disciplinary investigation files,
disciplinary history card entries, Independent
Police Review Authority and Internal Affairs
Division disciplinary records, and any other
disciplinary record or summary of such record
other than records related to Police Board cases,
will be destroyed five (5) years after the date of
the incident or the date upon which the
violation is discovered, whichever is longer ***.”
¶9
Until 1991, the City destroyed records
subject to section 8.4 in accordance with that
provision. That changed in 1991 when a federal
district judge entered an order in a civil rights case
requiring the City to cease destroying complaint
register files. Other federal district judges also
began entering similar orders as a matter of
routine. Thereafter, the City was unsuccessful in
its multiple attempts to eliminate section 8.4 from

6a
the CBA during negotiations with the FOP. As
such, the provision remains included in the CBA.
¶ 10 In 2011 and 2012, the FOP filed two
grievances over the City’s failure to destroy
complaint register files in excess of five years old
and otherwise not excepted from destruction
pursuant to section 8.4 of the CBA. The City denied
both of the FOP’s grievances, and the FOP initiated
arbitration.
¶ 11 Subsequently, in October 2014, the City
notified the FOP that the City intended to comply
with requests under the Freedom of Information
Act (FOIA) (5 ILCS 140/1 et seq. (West 2014)) from
the Chicago Tribune and Chicago Sun-Times for
information related to complaint register files
dating back to 1967. The FOP sought a preliminary
injunction in the circuit court on the basis that
disclosure of the complaint register files during
arbitration would interfere with the FOP’s ability
to obtain relief in arbitration. In December 2014,
the circuit court granted the FOP’s request for a
preliminary injunction barring the release of the
complaint register files until the FOP’s claims
under the CBA were adjudicated. The City and
Chicago Tribune filed separate interlocutory
appeals challenging the preliminary injunction. In
May 2015, the circuit court entered a second
preliminary injunction enjoining the City from
releasing any complaint register files more than

7a
four years old as of the date of the FOIA request,
and the City filed an interlocutory appeal. 1
¶ 12 In December 2015, the United States
Department of Justice (DOJ) announced that,
pursuant to the Violent Crime Control and Law
Enforcement Act of 1994 (42 U.S.C. § 13701 et seq.
(2006)), it had opened a civil pattern or practice
investigation of the CPD focusing on allegations of
use of excessive force and discriminatory policing.
In connection with the investigation, the DOJ sent
the City a document preservation request and
document preservation notice requesting the City
and the CPD to preserve all existing documents
related to all complaints of misconduct against
Chicago police officers, including documents
related to the investigations into and discipline
imposed because of such alleged misconduct. In a
follow-up communication, the DOJ clarified that its
document preservation request was intended to
cover all officer misconduct complaint and
disciplinary files maintained by the CPD, including
those that were the subject of the two pending
arbitration cases. In light of the letter, the City
1

Section 8 of the Personnel Record Review Act provides
that an employer, before releasing personnel-related
information to a third party, “shall ***, except when the
release is ordered to a party in a legal action or arbitration, delete disciplinary reports, letters of reprimand, or
other records of disciplinary action which are more than
4 years old.” 820 ILCS 40/8 (West 2008).

8a
informed the arbitrator of the pendency of the DOJ
investigation and requested guidance on how the
City should respond to the DOJ’s requests for the
production of misconduct and disciplinary records.
¶ 13 A month later, in January 2016, the
arbitrator issued his initial opinion and interim
award, which found that the City violated section
8.4 of the CBA and directed the parties to meet and
attempt to establish a procedure for compliance.
The arbitrator remanded the matter to the parties
to negotiate a timeline and method on how “to
destroy all records covered by Section 8.4 [of the
CBA],” except for files related to pending litigation
or arbitration.
¶ 14 In February 2016, an assistant United
States attorney sent letters to the City specifically
stating that, “for the duration of DOJ’s pattern and
practice investigation,” the City and CPD must
“preserve all existing documents related to all
complaints of misconduct,” including those that
were the subject of the arbitration.
¶ 15 On April 28, 2016, the arbitrator issued a
second award, altering his previous interim award
and denying the plaintiff’s grievances “for the
reasons of the public policy involved in the request
of the U.S. Department of Justice, and only for this
reason.”
¶ 16 In response to a motion filed by the FOP
requesting reconsideration or clarification of the

9a
second award, on June 21, 2016, the arbitrator
issued a third and final award, incorporating the
prior awards and clarifying that public policy
would not prevent enforcement of the initial
January 2016 award once the DOJ had completed
its investigation.
¶ 17 On July 8, 2016, the appellate court in the
FOP’s preliminary injunction action vacated the
circuit court’s 2014 and 2015 orders granting the
FOP’s requests. Fraternal Order of Police, Chicago
Lodge No. 7 v. City of Chicago, 2016 IL App (1st)
143884, ¶ 55. The appellate court found that,
although the parties’ CBA mandated destruction of
complaint register files that were more than four
years old, an arbitration award seeking
enforcement of this provision would violate FOIA
and the public policy underlying the General
Assembly’s enactment of the FOIA. Accordingly,
the appellate court held that there was no legal
basis to enjoin the City and CPD from releasing the
requested records in order to allow the FOP to
pursue a legally unenforceable remedy at
arbitration. Id. ¶ 38.
¶18 On July 26, 2016, the City filed a petition in
the circuit court to vacate the arbitration award on
the grounds that it violated Illinois public policy
favoring the proper retention of important public
records. In August 2016, the FOP filed a counter
petition to confirm the arbitration award.

10a
¶ 19 On January 13, 2017, while the case
remained pending in the circuit court, the DOJ
issued its comprehensive report. Among its many
conclusions, the DOJ found that section 8.4’s
“document destruction provision not only may
impair the investigation of older misconduct, but
also deprives CPD of important discipline and
personnel documentation that will assist in
monitoring historical patterns of misconduct.”
¶ 20 Around the same time, a local police
accountability task force (Task Force) was formed
to evaluate CPD’s practices separately from the
DOJ’s investigation. The Task Force also concluded
that section 8.4 is problematic and likely violates
Illinois law because “[e]xpunging records
contradicts best practices, impedes the
development of early intervention systems and
deprives the public of information that is rightfully
theirs.” The Task Force further stated that section
8.4 “also deprives police oversight bodies of
evidence of potential patterns of bad behavior” and
“it may also deprive wrongfully convicted persons
of exonerating information.” Consequently, the
Task Force recommended:
“The provision requiring destruction of
records should be eliminated. The rule is in
tension if not outright conflict with general
principles of public record-keeping, and
deprives the public of important information
that is rightfully theirs and may include the
destruction of information that serves

11a
numerous operational
objectives.”

and

public

policy

¶ 21 In October 2017, the circuit court granted
the City’s petition to vacate the arbitration award
and denied the FOP’s counter petition to enforce
the award, ruling that enforcement of the award
“violated a well-defined and dominant public policy
to preserve government records.” The court stated:
“To hold otherwise would (i) violate the
public policy of maintaining public records for
the benefit of the municipality and the general
public; (ii) infringe on the municipality and
general public’s ownership interest in public
records; (iii) usurp the municipality’s right to
determine for itself what records are required
for the transaction of business, including legal
and administrative matters; and (iv)
commandeer the authority of a local records
commission as the exclusive arbiter of whether
and what public records may be destroyed.”
¶ 22 Referencing the reports published by the
DOJ, the circuit court agreed with the Task Force’s
findings that
“destruction of important public records,
such as the police disciplinary files at issue
here, undermines principles of government
transparency that are so vital to the
preservation of the rule of law. If the City is to
be responsive to the citizenry, it must have

12a
access to historical police disciplinary and
investigative records to make better-informed
decisions on policing, a point echoed in the DOJ
and Task Force reports.”
¶ 23 The FOP appealed, and the appellate court
affirmed, holding that the statutory framework the
General Assembly constructed in the Local Records
Act (50 ILCS 205/1 et seq. (West 2016)), the State
Records Act (5 ILCS 160/1 et seq. (West 2016)), and
FOIA (5 ILCS 140/1 et seq. (West 2016))
establishes “a well-defined public policy favoring
the proper retention of important public records for
access by the public.” 2019 IL App (1st) 172907, ¶
27. The appellate court explained that these acts
mandate that the destruction of public records
“occur only after consideration by and with the
approval of the head of the governmental agency
and the [Local Records] Commission and in a wellregulated process established by the Commission.”
Id. ¶ 32. The appellate court found that the
arbitrator’s award requiring the City to destroy all
records related to alleged police misconduct
without consideration of whether the records have
administrative, legal, research, or historical value
ignored the requirements of the Local Records Act
and resulted in diminishing the Commission’s
authority to determine what records should be
destroyed or maintained. Id. ¶ 36.

13a
¶ 24

ANALYSIS

¶ 25 It is well established that judicial review of
an arbitrator’s award is extremely limited and the
award must be construed, if possible, as valid.

American Federation of State, County & Municipal
Employees v. State of Illinois, 124 Ill. 2d 246, 254
(1988) (AFSCME I). This court, however, has
recognized a public-policy exception to vacate
arbitration awards that are based on collective
bargaining agreements. American Federation of

State, County & Municipal Employees v.
Department of Central Management Services, 173
Ill. 2d 299, 306 (1996) (AFSCME II). Under the
public-policy exception, if an arbitration award is
derived from the essence of the
collective-bargaining agreement, this court will
vacate the award if it “is repugnant to established
norms of public policy.” Id. at 307. Such vacatur is
rooted in the common-law doctrine that a court
may refuse to enforce contracts that violate law or
public policy. Id. at 306-07. The public-policy
exception is a narrow one—one that is to be
invoked only when a party clearly shows
enforcement of the contract, as interpreted by the
arbitrator, contravenes some explicit public policy.
Id. at 307.
¶ 26 In order to vacate an award under the
exception, this court applies a two-step analysis. Id.
The initial question is whether a well-defined and
dominant public policy can be identified through a

14a
review of our constitution, statutes, and relevant
judicial opinions. Id. (citing Zeigler v. Illinois Trust
& Savings Bank, 245 Ill. 180, 193 (1910)). If we
establish the existence of a well-defined and
dominant public policy, we must then determine
whether the arbitrator’s award, as reflected in his
interpretation of the agreement, violated the public
policy. Id. at 307-08. Because our inquiry is
whether the arbitrator’s construction of the CBA,
as reflected in his award, is unenforceable due to a
predominating public policy, which is a question of
law, our review is de novo. Country Preferred
Insurance Co. v. Whitehead, 2012 IL 113365, ¶ 27.
With these principles in mind, we turn to the issue
presented.
¶ 27 Central to this case is section 8.4 of the
2007-12 CBA, which requires the destruction of
“[a]ll disciplinary investigation files, disciplinary
history card entries, Independent Police Review
Authority and Internal Affairs Division
disciplinary records, and any other disciplinary
record or summary of such record other than
records related to Police Board cases” after five
years from the date of the incident or the date upon
which the violation is discovered, whichever is
longer.
¶ 28 As to the initial inquiry of our public policy
exception, we must first examine whether our
constitution, statutes, or judicial opinions shed
light on a well-defined and dominant public policy
regarding the challenged provision.

15a
¶29 To support its argument that there is a
“well-defined and dominant public policy,” the City
cites various sections of the Local Records Act,
which set forth the mandatory procedures a
governmental body must follow prior to the
destruction of government records. The City argues
that section 8.4’s document destruction
requirement in the CBA directly conflicts with the
plain language of the Local Records Act.
¶ 30 In response, the FOP argues that there is no
well-defined, dominant public policy that would
allow Illinois courts to set aside a provision within
a collective bargaining agreement mandating
document destruction of governmental records like
police disciplinary and investigation records. The
FOP contends that the City’s reliance on the Local
Records Act as well as the State Records Act is
misplaced because these legislative acts do not
specifically preclude the City from entering into an
independent document destruction agreement. The
FOP’s arguments do not withstand scrutiny.
¶ 31 The Local Records Act, which undisputedly
applies to the City, directs that local public records
“shall not be mutilated, destroyed, transferred,
removed or otherwise damaged or disposed of, in
whole or in part, except as provided by law” and
even goes so far as to make it a Class 4 felony to
“knowingly, without lawful authority and with the
intent to defraud any party, public officer, or
entity, alter[ ], destroy[ ], deface[ ], remove[ ], or

16a
conceal[ ] any public record.” 50 ILCS 205/4(a)
(West 2016).
¶ 32 Section 7 requires that “no public record
shall be disposed of by any officer or agency unless
the written approval of the appropriate Local
Records Commission is first obtained.” Id. § 7.
Section 7 further vests in the Commission the
authority to issue binding regulations and
procedures to “establish procedures for compiling
and submitting to the Commission lists and
schedules of public records proposed for disposal”;
to regulate “the physical destruction or other
disposition of such public records”; to manage the
“preservation of electronically generated and
maintained records”; and to create “standards for
the reproduction of such public records by
photography, microphotographic processes, or
digitized electronic format.” Id.
¶ 33 Under the requirements of section 10 of the
Local Records Act, the head of each local
governmental agency must submit to the
Commission “lists or schedules of public records in
his custody that are not needed in the transaction
of current business and that do not have sufficient
administrative, legal or fiscal value to warrant
their further preservation” and “lists or schedules
proposing the length of time each records series
warrants retention for administrative, legal or
fiscal purposes after it has been received by the
agency.” Id. § 10. Once a local governmental
agency submits local public records for review, the

17a
Commission will decide whether the records should
be maintained or destroyed after it determines
“what public records have no administrative, legal,
research or historical value and should be
destroyed or otherwise disposed of and shall
authorize destruction or other disposal thereof.” Id.
¶ 34 In this case where the challenge to the
arbitrator’s award is substantiated on establishing
a direct conflict between a provision of the CBA
and statutory requirements, we need not look
further than the plain language of the statute to
determine the state’s public policy. See, e.g., People
v. Felella, 131 Ill. 2d 525, 539 (1989) (“Declaring
public policy is the domain of the legislature.”);
Henderson v. Foster, 59 Ill. 2d 343, 347-48 (1974)
(citing various cases for the proposition that state
statute is the strongest indicator of public policy
and, where the legislature speaks on a subject upon
which it has constitutional power to legislate, the
public policy is what the statute passed indicates);
AFSCME II, 173 Ill. 2d at 316-17 (relying on
various statutes to find a well-defined and
dominant public policy).
¶ 35 In light of the plain language of the Local
Records Act, we agree with the City that the
statutory framework the General Assembly
constructed makes clear that Illinois recognizes a
public policy favoring the proper retention of
government records and that the destruction of
public records may occur only after consideration
by and with the approval from the Commission in

18a
a process established by the Commission. 50 ILCS
205/7, 10 (West 2016). As such, the procedures laid
out in the Local Records Act are an express,
legislative restriction on a local government to act
in any other way than authorized by the statute.
¶ 36 We find further support that Illinois public
policy demands the oversight of the destruction and
maintenance of government records through
creation of a State Records Commission which,
under the State Records Act, similarly requires
state agencies to seek the approval of the State
Records Commission prior to the destruction of
state records. 5 ILCS 160/17 (West 2016). The
legislature underscored its public policy purposes
for enacting the State Records Act, specifically
declaring:
“Pursuant to the fundamental philosophy of the
American constitutional form of government, it
is declared to be the public policy of the State of
Illinois (i) that government records are a form of
property whose ownership lies with the citizens
and with the State of Illinois; [and] (ii) that
“those records are to be created, maintained,
and administered in support of the rights of
those citizens and the operation of the State
***.” Id. § 1.5.
The State Records Act further states, “those
records are, with very few exemptions, to be
available for the use, benefit, and information of
the citizens; and *** may not be disposed of

19a
without compliance to the regulations in this Act.”
Id.
¶ 37 In sum, we find there is a “well-defined and
dominant” public policy rooted in state law
concerning the procedures for the proper retention
and destruction of government records, which is at
issue in this case. We turn then to the question of
whether the arbitrator’s award violated the public
policy established by the legislature by enforcing
compliance with the contract provision. We
conclude that it did.
¶ 38 Here, the arbitrator determined in his initial
arbitration order that the City violated section 8.4
by withholding the destruction of the disciplinary
records covered under the agreement.
Consequently, the arbitrator directed the parties
“to negotiate between themselves a time line and
method to implement the findings” and that the
City should “destroy all records covered by Section
8.4.” Addressing the City’s argument that police
disciplinary records cannot be destroyed without
the Commission’s written approval, the arbitrator
interpreted the CBA to hold that there is no basis
to suggest that the issuance of an award granting
relief in favor of the FOP violates public policy,
stating “in issuing an Award that enforces Section
8.4 [he] is doing so consistent with State law and
not contrary to State public policy.” In the
arbitrator’s subsequent awards, which incorporate
the initial award, the arbitrator again found the
document destruction requirement valid and

20a
enforceable once
investigation.

the

DOJ

concluded

its

¶ 39 Before this court, the FOP contends the
City’s facial challenge is a “direct attack on the
contract language, as opposed to the enforceability
of the Award, clearly indicating that the City seeks
to evade its bargaining obligations through this
action.” The FOP notes that, because “the City
agreed to the provision, *** presumably with full
knowledge of its obligations under the Local
Records Act,” the provision must be contractually
enforced. The FOP argues that the award can be
validly enforced because the City can still request
document destruction approval from the
Commission.
¶ 40 Although the FOP is correct that the City
could comply with the Local Records Act by
submitting disciplinary records to the Commission,
which we note is not required under the CBA,
submission to the Commission is but a single
element of the statutory procedures a local
government must follow under the Local Records
Act. The second, and arguably most crucial, aspect
is compliance with the Commission’s ultimate
decision regarding the retention or destruction of
the government records.
¶ 41 As written, section 8.4 only requires that
disciplinary documents “will be destroyed” after a
finite period of time. Section 8.4 does not take into
consideration whether the records “do not have

21a
sufficient administrative, legal or fiscal value to
warrant their further preservation” (see 50 ILCS
205/10 (West 2016)), nor does the provision require
the parties to be bound by a decision from the
Commission. In fact, section 8.4 makes no reference
to any of the mandatory review procedures codified
in the Local Records Act.
¶ 42 Moreover, the FOP’s assertion that the City
could comply with state law by submitting
disciplinary records to the Commission begins to
quickly unravel when considering the circumstance
where, after submitting disciplinary records to the
Commission for review, the Commission denies the
City’s request for destruction, thereby mandating
the retention of the disciplinary records covered
under section 8.4. In this situation, the City would
find itself in a catch-22, where, on the one hand,
the City would violate the CBA (as well as the
arbitrator’s award) if, in accordance with an order
from the Commission, the City retained
disciplinary records beyond section 8.4’s five-year
requirement for destruction. On the other hand,
the City would violate the Commission’s binding
order if it were to destroy any public records per
the CBA without the Commission’s “written
approval” or contrary to the Commission’s
mandate. Id. § 6. Thus, even if the City complies
with the initial review procedures of the Local
Records Act, the FOP’s position cannot be
reconciled with state law, as it makes no allowance
for the Commission to decide whether local
government records should be destroyed or

22a
retained. Any attempt by the City to challenge the
Commission’s decision based on the CBA’s
document destruction requirement would be futile,
given that the legislature has vested in the
Commission the ultimate authority to determine
what public records should be destroyed. An
opposite result would lead to a shift in the balance
of power where document destruction procedures in
a contract provision would supersede statutory
procedures. Such an outcome runs counter to the
Commission’s oversight responsibility and is
completely inconsistent with the plain language
and the spirit of the Local Records Act. Hence, it is
no surprise that, when asked at oral argument
whether this apparent conflict could be reconciled,
counsel for the FOP declined to provide a definitive
answer but rather stated he would first need to
consider the Commission’s order requiring the
retention of public records covered under section
8.4. As illustrated above, waiting for an order from
the Commission denying the City’s request for the
destruction of records covered under section 8.4 is
unnecessary as the provision, on its face, fails to
require or provide for the City to act in accordance
with the document destruction procedures
expressly outlined in the Local Records Act.
Without allowing the City to comply with state law,
section 8.4 clearly contravenes a well-defined
statutory declaration of public policy and is simply
incompatible with the legislative procedures
articulated in the Local Records Act.

23a
¶ 43 While parties are generally free to make
their own contracts, this court has long held that
when a conflict exists between a contract provision
and state law, as it clearly does in this case, state
law prevails. See, e.g., Green v. Hutsonville
Township High School District No. 201, 356 Ill.
216, 221 (1934) (“A contract expressly prohibited by
law is void, and there is no exception to this rule
for the reason that a law cannot at the same time
prohibit a contract and enforce it.” (citing Duck

Island Hunting & Fishing Club v. Edward Gillen
Dock, Dredge & Construction Co., 330 Ill. 121
(1928), and DeKam v. City of Streator, 316 Ill. 123
(1925))); Progressive Universal Insurance Co. of
Illinois v. Liberty Mutual Fire Insurance Co., 215
Ill. 2d 121, 129 (2005) (where a provision in an
insurance policy conflicts with the law, the statute
will continue to control). This doctrine is based on
the common-law notion that courts will not lend
judicial power to the enforcement of private
agreements that are immoral or illegal. United
Paperworkers International Union v. Misco, Inc.,
484 U.S. 29, 43 (1987). That is the precise situation
presented here where a provision in a CBA
contravenes explicit state law.
¶ 44 Accordingly, based on the foregoing reasons,
the arbitrator erred in finding that section 8.4 is
“consistent with state law and not contrary to state
public policy,” thereby mandating the parties to
comply with the destruction of “all discipline
records” covered under that provision.
Consequently, the award is void and not

24a
enforceable. See, e.g., AFSCME I, 124 Ill. 2d at 260
(“An arbitration award in contravention of
paramount considerations of public policy is not
enforceable.”).
¶ 45 Based on our holding above that section 8.4
of the CBA violates explicit state law, we reject the
FOP’s assertion that the arbitration award is
enforceable per section 15 of the Illinois Public
Labor Relations Act (Labor Act) (5 ILCS 315/15
(West 2016)). Section 15 provides, in relevant part,
the following:
“(a) In case of any conflict between the
provisions of this Act and any other law (other
than Section 5 of the State Employees Group
Insurance Act of 1971 and other than the
changes made to the Illinois Pension Code by
Public Act 96889 and other than as provided in
Section 7.5), executive order or administrative
regulation relating to wages, hours and
conditions of employment and employment
relations, the provisions of this Act or any
collective bargaining agreement negotiated
thereunder shall prevail and control. ***
(b) Except as provided in subsection (a) above,
any collective bargaining contract between a
public employer and a labor organization
executed pursuant to this Act shall supersede
any contrary statutes, charters, ordinances,
rules or regulations relating to wages, hours
and conditions of employment and employment

25a
relations adopted by the public employer or its
agents.” Id.
¶ 46 The FOP argues that section 15 of the Labor
Act establishes a public policy in favor of enforcing
labor arbitration awards over any other laws. As
such, the FOP argues that, if this court finds a
conflict between section 8.4 of the CBA and the
provisions in the Local Records Act, the CBA
prevails. We disagree.
¶ 47 If section 15 of the Labor Act were read as
the FOP advocates, the public-policy exception
established and applied by this court in numerous
decisions (see, e.g., AFSCME I, 124 Ill. 2d 246)
would cease to exist. That is so because no matter
how offensive to public policy an arbitrator’s
decision is—even if it violates state law— the
arbitrator’s decision would stand. By this logic, the
public policy exception doctrine would never apply
to CBA provisions affecting the terms and
conditions of employment, which is contrary to our
decision in AFSCME II striking down just such a
CBA provision on the ground that, “[a]s with any
contract, a court will not enforce a
collective-bargaining agreement that is repugnant
to established norms of public policy.” AFSCME II,
173 Ill. 2d at 307, 316.
¶ 48 Further, we reject the FOP suggestion that
this court should consider legislative bills that were
introduced but never signed into law as evidence of
legislative intent.

26a
The FOP contends that, because the General
Assembly failed to pass proposed bills that would
have required retention of records of alleged police
misconduct and employee discipline, “the
Legislature has signaled that such a public policy
mandating indefinite retention of these types of
records should not be established.”
¶ 49 The FOP’s position totally disregards the
basic framework of the Illinois Constitution where
the only manner in which the General Assembly
has the power to impose its will upon the state is
through the passage of a bill in both chambers that
is either signed by the governor or repassed by a
supermajority after his veto. Ill. Const., art. IV, §§
8, 9. Accordingly, the introduction of a bill that is
never passed or signed into law has no legal effect
whatsoever, as the legislature cannot express its
will or intent by a failure to legislate. See United
States v. Estate of Romani, 523 U.S. 517, 535
(1998) (Scalia, J., concurring in part and
concurring in the judgment) (“The act of refusing to
enact a law (if that can be called an act) has utterly
no legal effect, and thus has utterly no place in a
serious discussion of the law.”). The reasoning is
simple: there are several equally tenable inferences
that may be drawn from such inaction. See, e.g.,

Solid Waste Agency of Northern Cook County v.
United States Army Corps of Engineers, 531 U.S.
159, 170 (2001) (stating that failure to pass a bill
outlawing an agency interpretation of the law does
not imply Congress’s “acquiescence” to that
interpretation, in part because “[a] bill can be

27a
proposed for any number of reasons, and it can be
rejected for just as many others”). One could only
envision the chaos that would ensue (especially for
the judiciary) if any of the 177 members of the
General Assembly could dictate public policy
through the introduction of a legislative
bill—regardless if the bill becomes law.
¶ 50 With all this being said, our decision does
not disregard the right of the parties to negotiate
their contracts, nor do we attempt to restrain them
in any way from doing so in the future. Phoenix
Insurance Co. v. Rosen, 242 Ill. 2d 48, 55 (2011).
We have reasoned:
“The freedom of parties to make their own
agreements, on the one hand, and their
obligation to honor statutory requirements, on
the other, may sometimes conflict. These
values, however, are not antithetical. Both
serve the interests of the public. Just as public
policy demands adherence to statutory
requirements, it is in the public’s interest that
persons not be unnecessarily restricted in their
freedom to make their own contracts.”
Progressive Universal Insurance Co., 215 Ill. 2d
at 129.
However, “[a]s with any contract, a court may not
enforce a collective-bargaining agreement in a
manner that is contrary to public policy.” AFSCME
II, 173 Ill. 2d at 318; DeKam, 316 Ill. at 129 (“A
contract expressly prohibited by a valid statute is

28a
void. This proposition has no exception, for the law
cannot at the same time prohibit a contract and
enforce it. The prohibition of the legislature cannot
be disregarded by the courts.”).
¶ 51

CONCLUSION

¶ 52 For the foregoing reasons, we find that the
arbitration award violated an explicit, well-defined,
and dominant public policy. The appellate court
was therefore correct when it affirmed the
judgment of the circuit court vacating that award.
Accordingly, the judgment of the appellate court is
affirmed.
¶ 53

Affirmed.

¶ 54

JUSTICE KILBRIDE, dissenting:

¶ 55 I respectfully dissent from the majority. My
disagreement with the majority has nothing to do
with the records that are the subject of this appeal.
I firmly believe that police misconduct must be
rooted out, and I would vehemently oppose the
indiscriminate destruction of police misconduct
records. That is not what the arbitrator ordered in
this case.
¶ 56 Rather, the arbitrator’s award merely
directed the parties to meet and negotiate. The
arbitrator did not order the destruction of any
records. We do not know what agreement, if any,
would have resulted from the parties meeting and

29a
negotiating. We do not know whether those
negotiations would have resulted in an agreement
for the future destruction of any records. We also
do not know whether they would have resulted in
an agreement that fully complied with the Local
Records Act (50 ILCS 205/1 et seq. (West 2016))
and all other applicable laws. I believe the parties
should be allowed to meet and negotiate in
accordance with the arbitrator’s directive. This
court could retain jurisdiction and remand for
negotiations. After proceeding with negotiations, it
would be warranted for this court to review the
status of any agreement.
¶ 57 To repeat, the issue of police misconduct is a
serious issue that must be confronted by society.
This court was asked, however, to consider a
fundamental principle of labor law, namely, the
validity and enforcement of arbitration awards.
The majority acknowledges that “[i]t is well
established that judicial review of an arbitrator’s
award is extremely limited and the award must be
construed, if possible, as valid.” (Emphasis added.)
Supra ¶ 25 (citing American Federation of State,
County & Municipal Employees v. State of Illinois,
124 Ill. 2d 246, 254 (1988) (AFSCME I)). I agree
with the majority that there is a “ ‘well-defined and
dominant’ public policy rooted in state law
concerning the procedures for the proper retention
and destruction of government records” (supra ¶
37) and that an arbitrator’s award violating this
public policy can be set aside (supra ¶ 25).

30a
¶ 58 There is, however, a separate “well-defined
and dominant” public policy in state law to enforce
collective-bargaining agreements and labor
arbitration awards. See 5 ILCS 315/15 (West 2016).
I believe that these two important public policies
can coexist harmoniously, and the arbitrator’s
decision may be construed so as not to create a
conflict between these public policies. I disagree
with the majority’s conclusion that “the arbitrator’s
award [in this case] violated the public policy
established by the legislature by enforcing
compliance with the contract provision.” Supra ¶
37. Unfortunately, today’s decision may well
adversely impact the enforceability of other labor
agreements.
¶ 59 As the majority recognizes, in January 2016,
the arbitrator issued his initial opinion and interim
award directing the parties to meet and attempt to
establish a procedure for compliance with section
8.4 of the collective bargaining agreement and to
negotiate a timeline and procedure to be followed
in destroying eligible records and a method on how
to destroy all records covered by that provision,
except for records related to pending litigation or
arbitration. Supra ¶ 13. On April 28, 2016, the
arbitrator issued a second award altering his
previous interim award “‘for the reasons of the
public policy involved in the request of the U.S.
Department of Justice.’ ” Supra ¶ 15. On June 21,
2016, the arbitrator issued a third award clarifying
that public policy would not prevent enforcement of
the initial January 2016 award once the

31a
Department of Justice completed its investigation.
Supra ¶ 16.
¶ 60 The arbitrator’s award simply directed the
parties to negotiate the method and procedure for
the possible future destruction of eligible records in
compliance with section 8.4 of the collective
bargaining agreement. The arbitrator did not
mandate destruction of all records. Indeed, after
negotiations, the parties may not reach any
agreement on the destruction of any records.
Accordingly, I would find that the arbitrator’s
award did not violate any “well- defined and
dominant” public policy concerning the procedures
for the proper retention and destruction of
government records.
¶ 61 There is strong United States Supreme
Court labor law precedent confirming a court’s duty
to uphold arbitration awards. Importantly, as the
Supreme Court made clear in United Paperworkers
International v. Misco, Inc., 484 U.S. 29, 37 (1987):
“The reasons for insulating arbitral decisions
from judicial review are grounded in the federal
statutes regulating labor-management
relations. These statutes reflect a decided
preference for private settlement of labor
disputes without the intervention of
government ***. The courts have jurisdiction to
enforce collective-bargaining contracts; but
where the contract provides grievance and
arbitration procedures, those procedures must

32a
first be exhausted and courts must order resort
to the private settlement mechanisms without
dealing with the merits of the dispute.”
¶ 62

The Supreme Court in Misco emphasized:

“[W]here it is contemplated that the
arbitrator will determine remedies for contract
violations that he finds, courts have no
authority to disagree with his honest judgment
in that respect. If the courts were free to
intervene on these grounds, the speedy
resolution of grievances by private mechanisms
would be greatly undermined. *** [A]s long as
the arbitrator is even arguably construing or
applying the contract and acting within the
scope of his authority, that a court is convinced
he committed serious error does not suffice to
overturn his decision.” Misco, 484 U.S. at 38.
¶ 63 Misco likewise recognized that “a court may
refuse to enforce contracts that violate law or
public policy.” Misco, 484 U.S. at 42 (citing W.R.

Grace & Co. v. Local Union 759, International
Union of the United Rubber, Cork, Linoleum, &
Plastic Workers of America, 461 U.S. 757, 766
(1983), and Hurd v. Hodge, 334 U.S. 24, 34-35
(1948)). The Supreme Court cautioned, however,
“that a court’s refusal to enforce an arbitrator’s
interpretation of such contracts is limited to
situations where the contract as interpreted would
violate ‘some explicit public policy’ that is ‘well

33a
defined and dominant, and is to be ascertained “by
reference to the laws and legal precedents and not
from general considerations of supposed public
interests.” ’ ” (Emphasis in original.) Misco, 484 U.S.
at 43 (quoting W.R. Grace, 461 U.S. at 766, quoting
Muschany v. United States, 324 U.S. 49, 66 (1945)).
¶ 64 In examining its prior decision in W.R. Grace, the
Supreme Court in Misco stated:
“Two points follow from our decision in W. R.
Grace. First, a court may refuse to enforce a
collective- bargaining agreement when the specific
terms contained in that agreement violate public
policy. Second, it is apparent that our decision in
that case does not otherwise sanction a broad
judicial power to set aside arbitration awards as
against public policy. Although we discussed the
effect of that award on two broad areas of public
policy, our decision turned on our examination of
whether the award created any explicit conflict with
other ‘laws and legal precedents’ rather than an
assessment of ‘general considerations of supposed
public interests.’ [W.R. Grace,] 461 U. S., at 766. At

the very least, an alleged public policy must be
properly framed under the approach set out in W. R.
Grace, and the violation of such a policy must be
clearly shown if an award is not to be enforced.”
(Emphasis added.) Misco, 484 U.S. at 43.
¶ 65 This court subsequently adopted in AFSCME I,
124 Ill. 2d 246, the analysis employed by the Supreme
Court in W.R. Grace and Misco. In AFSCME I, a

34a
patient at a mental health facility died while two
employees of the facility were away from their worksite
without permission. The Department of Mental Health
discharged the employees, but the arbitrator reduced
the discipline to suspensions and reinstatement without
back pay or other benefits. AFSCME I, 124 Ill. 2d at
250-51.
¶ 66 This court, while recognizing we are not bound to
follow federal decisions because Illinois has a different
arbitration act, looked to the Supreme Court’s decisions
in W.R. Grace and Misco, reaffirming that the public
policy exception is extremely narrow. AFSCME I, 124
Ill. 2d at 260-61.
In AFSCME I, this court
acknowledged “the important public policy of this
State’s commitment to compassionate care for the
mentally disabled,” but we also recognized that the case
involved “the public policy of promoting constructive
relationships between public employers and public
employees, and the public policy which requires finality
in arbitration awards.” AFSCME I, 124 Ill. 2d at 262.
We determined that the collective- bargaining
agreement, as interpreted by the arbitrator, did not
violate any explicit public policy that was well defined
and dominant. AFSCME I, 124 Ill. 2d at 262-63.
Moreover, we noted that the arbitration award in
AFSCME I did not sanction violations of the law.
AFSCME I, 124 Ill. 2d at 263. Accordingly, we held that
public policy did not mandate discharge of the
employees. AFSCME I, 124 Ill. 2d at 265.
¶ 67

Subsequently, in American Federation of State,

County and Municipal Employees v. Department of

35a

Central Management Services, 173 Ill. 2d 299, 307
(1996) (AFSCME II), this court applied the principles
articulated in AFSCME I, W.R. Grace, and Misco. In
AFSCME II, we held that an arbitration award
reinstating an employee who falsely stated she had
seen three children in the Department of Children and
Family Services’ custody and that they were “doing
fine,” when in fact they had perished in an accidental
fire, violated public policy in favor of truthful and
accurate reporting by the Department of Children and
Family Services. AFSCME II, 173 Ill. 2d at 307-08.
¶ 68 AFSCME II specifically recognized that the
public policy exception’s ultimate applicability to vacate
an arbitrator’s award in any case is necessarily fact
dependent. AFSCME II, 173 Ill. 2d at 311. This court
emphasized that the public policy concerning “the
welfare and protection of minors has always been
considered one of the State’s most fundamental
interests.” AFSCME II, 173 Ill. 2d at 311. Indeed, we
also stated that “a mechanical application of [a
collective-bargaining agreement] provision may ***
collide with public policy” and recognized “the
possibility of other remedies, short of a blanket
reinstatement.” AFSCME II, 173 Ill. 2d at 334. Thus,
this court determined that the arbitrator’s award ran
afoul of public policy promoting the welfare and
protection of abused and neglected children. AFSCME
II, 173 Ill. 2d at 318-20. A careful reading of AFSCME
II shows it left the door open for the arbitrator to enter
an award that would not violate public policy. See
AFSCME II, 173 Ill. 2d at 332-33.

36a
¶ 69 Here, no public harm results from the
arbitrator’s decision directing the parties to negotiate
over the method and procedure for destroying eligible
records. The arbitrator did not engage in a “mechanical
application” of any collective bargaining agreement
provision and specifically acknowledged public policy
concerns when declining to impose a blanket direction
to destroy records. Instead, the arbitrator simply
directed the parties to negotiate the matter. How could
continued negotiations violate any public policy?
¶ 70 The arbitration award is specifically enforceable
under section 15 of the Illinois Public Labor Relations
Act (5 ILCS 315/15 (West 2016)). There is a
well-established dominant public policy supporting
collective bargaining and the enforcement of labor
arbitration awards. The Public Labor Relations Act sets
forth this explicit public policy:
“It is the public policy of the State of Illinois to grant
public employees full freedom of association,
self-organization, and designation of representatives of
their own choosing for the purpose of negotiating
wages, hours and other conditions of employment or
other mutual aid or protection.” 5 ILCS 315/2 (West
2016).
¶ 71 The Public Labor Relations Act specifically
provides that it and any agreements made under the
Act “shall prevail and control” when there is “any
conflict between the provisions of this Act and any other
law.” (Emphasis added.) 5 ILCS 315/15(a) (West 2016).
The Public Labor Relations Act further states that “any

37a
collective bargaining contract between a public
employer and a labor organization *** shall supersede
any contrary statutes, charters, ordinances, rules or
regulations relating to wages, hours and conditions of
employment and employment relations adopted by the
public employer or its agents.” (Emphasis added.) 5
ILCS 315/15(b) (West 2016). Thus, section 15 of the
Public Labor Relations Act clearly establishes a well-defined and dominant public policy favoring collective
bargaining and the enforcement of labor arbitration
awards.
¶ 72 This court emphasized in AFSCME I both “the
public policy of promoting constructive relationships
between public employers and public employees, and
the public policy which requires finality in arbitration
awards.” AFSCME I, 124 Ill. 2d at 262. Likewise, in

City of Decatur v. American Federation of State,
County, & Municipal Employees, Local 268, 122 Ill. 2d
353, 363-64 (1988), this court discussed the Public
Labor Relations Act, noting that other “courts facing
conflicts between public employee bargaining laws and
local civil service systems have opted in favor of
granting primacy to the bargaining laws. [Citations.]”
¶ 73 Even the majority recognizes that review of an
arbitrator’s award is very limited, and indeed, this
court must construe an award as valid if at all possible
Supra ¶ 25 (citing AFSCME I, 124 Ill. 2d at 254). Such
a deferential judicial review is necessary to promote the
State’s declared public policy that, “where the right of
employees to strike is prohibited by law, it is necessary
to afford an alternate, expeditious, equitable and

38a
effective procedure for the resolution of labor disputes.”
5 ILCS 315/2 (West 2016). As noted, this court has
previously followed the United States Supreme Court
decisions limiting the public policy exception to
enforcement of arbitration awards.
¶ 74 Collective bargaining and the enforcement of
arbitration awards are the cornerstone of labor policy.
The majority’s opinion discounts the basic protections
guaranteed to public employees by the Illinois Public
Labor Relations Act (5 ILCS 315/1 et seq. (West 2016)).
The General Assembly, in enacting the Public Labor
Relations Act evinced a strong public policy favoring
collective bargaining and enforcement of labor
arbitration awards over other laws.
¶ 75 The parties in this case not only collectively
bargained section 8.4 but also agreed to the arbitration
process for resolving any contractual disputes over the
interpretation or application of section 8.4. The
majority decision strikes at the heart of the collective
bargaining process protected by the Public Labor
Relations Act and may, as a consequence, adversely
affect public sector collective bargaining contracts that
contain arbitration agreements.
¶ 76 Importantly, the Public Labor Relations Act also
requires that collective bargaining agreements in the
public sector include a grievance procedure and, as a
quid pro quo for the guarantee of the statutorily
required final and binding arbitration process, must
contain a no-strike provision for the duration of the
agreement. 5 ILCS 315/8 (West 2016). In other words,

39a
in furtherance of the General Assembly’s stated public
policy supporting collective bargaining and final and
binding arbitration procedure, public sector employees
give up their right to strike.
¶ 77 Here, we have two well-defined and dominant
public policies. I believe the General Assembly’s clear
statement of public policy favoring collective bargaining
agreements and enforcement of labor arbitration
awards over other laws tips the scale in this case in
favor of enforcing the arbitrator’s award. Nevertheless,
I believe these two public policies can coexist
harmoniously and, in this case, the arbitrator’s decision
should be construed so as not to create a conflict
between these public policies. I would hold that the
arbitrator’s decision requiring negotiation for the
methodology and procedure for the possible future
destruction of eligible records does not violate any
public policy as defined by the majority.
¶ 78 Undeniably, as the majority notes, in 1991, a
federal district judge entered an order in a civil rights
case requiring the City of Chicago (City) to cease
destroying complaint register files, and other federal
district judges began entering similar orders. Supra ¶
9. In January 2019, a consent decree was entered in the
United States District Court for the Northern District
of Illinois. The consent decree requires implementation
of reforms to the Chicago Police Department and other
City agencies to ensure the City and the Chicago Police
Department engage in lawful, constitutional policing.
The consent decree specifically states that it was not
intended to alter, impair, or conflict with the collective

40a
bargaining agreements or rights of employees under the
Public Labor Relations Act. The City has not argued,
however, that the consent decree prohibits destruction
of all disciplinary records. In any event, the arbitrator
specifically excluded from negotiations the destruction
of any records relating to pending litigation or
arbitration.
¶ 79 Additionally, nothing in the Local Records Act
requires the indefinite retention or permanent
preservation of records. I would, therefore, find that the
arbitrator’s decision does not clearly show a violation of
any public policy and should not be set aside. The
arbitrator’s award merely directs the parties to meet
and negotiate. The award does not require the
destruction of any police misconduct records or any
other police disciplinary records, nor does it require the
parties to violate any statute.
¶ 80 Finally, I wish to reiterate that I do not advocate
the indiscriminate destruction of police misconduct
records. Nor do I minimize the seriousness of police
misconduct. Public safety and effective law enforcement
are of utmost importance. In fact, the consent decree
requires implementation of reforms to ensure the City
and the Chicago Police Department engage in lawful,
constitutional policing. Those reforms include
identifying and analyzing trends within misconduct
complaints. The parties could well negotiate the
timeline and preservation of records necessary for the
implementation of reforms.

41a
¶ 81 Based on the parties’ briefs and comments during
oral argument, it is readily apparent that the parties
are fully aware of the requirements of the Local Records
Act, other applicable statutes, and the consent decree.
Thus, we can safely assume that negotiations for the
possible future destruction of any eligible discipline
records would be done in full compliance with the
consent decree and any other requirements under the
law. I believe the parties should be allowed to meet and
negotiate in accordance with the arbitrator’s directive.
¶ 82 In sum, as I have explained, the arbitrator in this
case did not mechanically apply the provisions of the
collective bargaining agreement. Instead, the arbitrator
thoughtfully included public policy considerations in the
decision and merely directed the parties to meet and
negotiate. The arbitrator did not order the destruction
of any police misconduct records or any other police
disciplinary records.
¶ 83 For those reasons, I would reverse the decision of
the appellate court and enforce the arbitrator’s award.
Accordingly, I respectfully dissent.

42a
APPENDIX B
Illinois Official Reports
Appellate Court
City of Chicago v. Fraternal Order of Police,
2019 IL App (1st) 172907
Appellate
Court Caption

THE CITY OF CHICAGO,
Petitioner-Appellee, v.
FRATERNAL ORDER OF
POLICE, CHICAGO
LODGE NO. 7,
Respondent-Appellant.

District & No.

First District, Fifth Division
Docket No. 1-17-2907

Filed

March 29, 2019

Decision Under
Review

Appeal from the Circuit Court
of Cook County, No.
16-CH-9793;
the Hon. Sanjay T. Tailor,
Judge, presiding.

Judgment

Affirmed.

43a
Counsel on
Appeal

Baum Sigman Auerbach &
Neuman, Ltd., of Chicago
(Pasquale A. Fioretto,
Catherine M. Chapman, Brian
C. Hlavin, and Patrick N.
Ryan, of counsel), for
appellant.
Edward N. Siskel, Corporation
Counsel, of Chicago (Benna
Ruth Solomon, Myriam
Zreczny Kasper, and Justin A.
Houppert,
Assistant
Corporation Counsel, of
counsel), for appellee.

Panel

JUSTICE
LAMPKIN
delivered the judgment of the
court, with opinion.
Justices Hoffman and Hall
concurred in the judgment and
opinion.
OPINION

¶1
The Fraternal Order of Police, Chicago
Lodge No. 7 (FOP), appeals the circuit court's
decision that granted the petition of the City of
Chicago (City) to vacate an arbitration award that
ordered the City to destroy records of alleged police
misconduct that were more than five years old and

44a
denied the FOP’s counterpetition to enforce the
award.
¶2
The FOP argues that the circuit court erred
as a matter of law by (1) holding that a
well-established Illinois public policy required the
preservation of governmental records; (2) holding
that the award could not be enforced consistent
with the Local Records Act (Local Act) (50 ILCS
205/1 et seq. (West 2016)), State Records Act (State
Act) (5 ILCS 160/1 et seq. (West 2016)), or any
public policy embodied therein or based on any
other state law or public policy; and (3) not
enforcing the award pursuant to the Illinois Public
Labor Relations Act (Labor Act) (5 ILCS 315/1 et
seq. (West 2016)) and the Uniform Arbitration Act
(Arbitration Act) (710 ILCS 5/1 et seq. (West
2016)).
¶3
For the reasons that follow, we affirm the
judgment of the circuit court that granted the
City's petition to vacate the award and denied the
FOP's counterpetition to enforce the same.1

1

In adherence with the requirements of Illinois
Supreme Court Rule 352(a) (eff. July 1, 2018), this
appeal has been resolved without oral argument upon
the entry of a separate written order.

45a
¶4

I. BACKGROUND

¶5
This appeal arises from grievances the FOP
submitted in 2011 and 2012 to the Chicago Police
Department (CPD) over the retention of
disciplinary records older than five years, which
retention the FOP claimed was in violation of
section 8.4 of the 2007-12 collective bargaining
agreement (CBA) between the FOP and the City.
¶6
The records at issue are complaint register
files (CR files). CR files are produced in the course
of investigations by the Civilian Office of Police
Accountability (COPA) and the CPD's Bureau of
Internal Affairs (Internal Affairs) of alleged
misconduct by CPD officers. COPA and Internal
Affairs had the authority to recommend to the CPD
superintendent disciplinary action for violations of
CPD rules and regulations.
¶7
The retention of disciplinary and
investigation records like CR files was governed in
the first CBA between the City and FOP, effective
January 1, 1981, by a provision in section 8.4,
which required the destruction of such records “five
(5) years after the date of the incident or the date
upon which the violation is discovered.” Future
CBAs continued to include some version of section
8.4, including the 2007-12 CBA at issue in this
case, which provided, in relevant part:

46a
“All disciplinary investigation files,
disciplinary history card entries,
Independent Police Review Authority and
Internal Affairs Division disciplinary
records, and any other disciplinary record or
summary of such record other than records
related to Police Board cases, will be
destroyed five (5) years after the date of the
incident or the date upon which the violation
is discovered, whichever is longer[.]”
¶8
The City’s destruction of records pursuant to
section 8.4 ceased following a federal court’s 1991
order in a civil rights case, which required the City
to cease destroying CR files. Thereafter, other
federal district court judges began entering similar
orders as a matter of routine, and the City sought
to eliminate section 8.4 from the CBA during
negotiations with the FOP.
¶9
In 2012, the CPD denied both of the FOP’s
2011 and 2012 grievances, and the FOP initiated
arbitration.
¶ 10 Meanwhile, in October 2014, the City
notified the FOP that the City intended to comply
with requests under the Freedom of Information
Act (FOIA) (5 ILCS 140/1 et seq. (West 2014)), from
the Chicago Tribune and Chicago Sun-Times for
CR files dating back to 1967. The FOP sought a
preliminary injunction in the circuit court on the
basis that disclosure of the CR files during
arbitration would interfere with the FOP’s ability

47a
to obtain relief in arbitration. In December 2014,
the circuit court granted the FOP's request for a
preliminary injunction barring the release of the
CR files to maintain the status quo until the FOP's
claims under the CBA were adjudicated. The City
and Chicago Tribune filed separate interlocutory
appeals challenging the preliminary injunction. In
May 2015, the circuit court entered a second
preliminary injunction enjoining the City from
releasing any CR files more than four years old as
of the date of the FOIA request, and the City filed
an interlocutory appeal.
¶ 11 In December 2015, the United States
Department of Justice (DOJ) opened an
investigation into the CPD’s use of force policies.
The City informed the arbitrator of the pendency of
the DOJ investigation and requested guidance on
how the City should respond to the DOJ’s requests
for the production of misconduct and disciplinary
records.
¶ 12 In January 2016, the arbitrator issued an
opinion and interim award, which found that the
City violated section 8.4 of the CBA and directed
the parties to meet and attempt to establish a
procedure for compliance.
¶ 13 In February 2016, an assistant United
States attorney sent letters to the City specifically
stating that, "for the duration of DOJ’s pattern and
practice investigation," the City and CPD must
“preserve all existing documents related to all

48a
complaints of misconduct,” including those that
were the subject of the arbitration.
¶ 14 In April 2016, the arbitrator issued a second
opinion and award, holding that, because of the
DOJ's demand that the City preserve all records
related to alleged officer misconduct, an order
requiring destruction of such records would be
against public policy. In June 2016, the arbitrator
issued an order clarifying that public policy would
not prevent enforcement of the initial January
2016 award once the DOJ had completed its
investigation of the CPD.
¶ 15 On July 8, 2016, this court vacated the
circuit court's 2014 and 2015 orders granting the
FOP's preliminary injunction requests. This court
found that, although the parties' CBA mandated
destruction of CR files that were more than four
years old, an arbitration award seeking
enforcement of this provision would violate FOIA
and the public policy underlying the General
Assembly's adoption of the FOIA. Accordingly, this
court held that there was no legal basis to enjoin
the City and CPD from releasing the requested
records in order to allow the FOP to pursue a
legally unenforceable remedy at arbitration.

Fraternal Order of Police, Chicago Lodge No. 7 v.
City of Chicago, 2016 IL App (1st) 143884, ¶ ¶
32-36.
¶ 16 On July 26, 2016, the City filed a petition in
the circuit court to vacate the arbitration award on

49a
the grounds that it violated Illinois public policy
favoring the proper retention of important public
records. In August 2016, the FOP filed a
counterpetition to confirm the arbitration award.
¶ 17 In January 2017, the DOJ issued its report.
Among its conclusions, the DOJ found that section
8.4's "document destruction provision not only may
impair the investigation of older misconduct, but
also deprives CPD of important discipline and
personnel documentation that will assist in
monitoring historical patterns of misconduct." A
local police accountability task force (Task Force)
was also formed to evaluate the CPD's practices
separately from the DOJ's investigation. The Task
Force also concluded that section 8.4 was
problematic and likely violated Illinois law. The
Task Force stated, "Expunging records contradicts
best practices, impedes the development of early
intervention systems and deprives the public of
information that is rightfully theirs." Further, the
Task Force stated that "[i]t also deprives police
oversight bodies of evidence of potential patterns of
bad behavior," and "it may also deprive wrongfully
convicted persons of exonerating information." The
Task Force recommended that the "provision
requiring destruction of records should be
eliminated. The rule is in tension if not outright
conflict with general principles of public
record-keeping, and deprives the public of
important information that is rightfully theirs and
may include the destruction of information that

50a
serves numerous operational and public policy
objectives."
¶ 18 In October 2017, the circuit court granted
the City's petition to vacate the arbitration award
and denied the FOP's counterpetition to enforce the
award. The court concluded that "enforcement of
the Arbitral Award violated a well-defined and
dominant public policy to preserve government
records." The court stated that,
"[t]o hold otherwise would (i) violate the
public policy of maintaining public records
for the benefit of the municipality and the
general public; (ii) infringe on the
municipality and general public's ownership
interest in public records; (iii) usurp the
municipality's right to determine for itself
what records are required for the
transaction of business, including legal and
administrative matters; and (iv)
commandeer the authority of a local records
commission as the exclusive arbiter of
whether and what public records may be
destroyed."
The court further stated that
"destruction of important public records,
such as the police disciplinary files at issue
here, undermines principles of government
transparency that are so vital to the
preservation of the rule of law. If the City is

51a
to be responsive to the citizenry, it must
have access to historical police disciplinary
and investigative records to make
better-informed decisions on policing, a point
echoed in the DOJ and Task Force reports."
¶ 19
¶ 20

The FOP appealed.
II. ANALYSIS

¶ 21 On appeal, the FOP contends that the circuit
court's order vacating the arbitration award and
denying the FOP's counterpetition should be
reversed because the court erred as a matter of law
in holding that there is a well-established Illinois
public policy requiring the preservation of
governmental records. Alternatively the FOP
contends the court erred as a matter of law by
holding that the award could not be enforced
consistent with the Local Act (50 ILCS 205/1 et seq.
(West 2016)), the State Act (5 ILCS 160/1 et seq.
(West 2016)), or any public policy embodied
therein, or based on any other state law or public
policy. The FOP also contends that the court erred
by not enforcing the award pursuant to the Labor
Act (5 ILCS 315/1 et seq. (West 2016)), and the
Arbitration Act (710 ILCS 5/1 et seq. (West 2016)).
¶ 22

A. The Public Policy Exception

¶ 23 A court's review of an arbitration award is
extremely limited, and courts must construe
arbitration awards, if possible, as valid. American

52a

Federation of State, County & Municipal
Employees v. State, 124 Ill. 2d 246, 254 (1988).
Where, as here, the arbitration involved a collective
bargaining agreement, a court, consistent with
section 12(e) of the Arbitration Act (710 ILCS
5/12(e) (West 2016)), will disturb the arbitration
award only on the common-law grounds that
existed prior to the enactment of the Arbitration
Act, i.e., "instances of fraud, corruption, partiality,
misconduct, mistake, or failure to submit the
question to arbitration." American Federation of

State, County & Municipal Employees v.
Department of Central Management Services, 173
Ill. 2d 299, 304 (1996) (AFSCME 1996).
"The rationale for the limited review of
an award interpreting a collective
bargaining agreement is that the parties
have contracted to have their disputes
settled by an arbitrator, rather than by a
judge. [Citation.] A labor arbitration award
must be enforced if the arbitrator acts
within his scope of authority and the award
draws its essence from the parties' collective
bargaining agreement. [Citation.]
However, a court will vacate the award if
it is repugnant to the established norms of
public policy. [Citation.] The public policy
exception is narrow and its successful
invocation requires a clear showing that the
award violates some explicit public policy.
[Citation.] The contract as interpreted by

53a
the arbitrator must violate some explicit
public policy that is well-defined and
dominant and ascertainable by reference to
the laws and legal precedents and not from
generalized considerations of supposed
public interest. [Citation.] Accordingly, the
public policy of a state must be determined
by its constitution, laws, and judicial
decisions. [Citation.] ***
To vacate an award under the public policy
exception, this court is required to
undertake a two-step analysis. The
threshold question is whether a well-defined
and dominant public policy can be identified.
[Citation.] If so, the court must determine
whether the arbitrator's award, as reflected
in his interpretation of the agreement,
violated public policy. [Citation.] As our
supreme court has cautioned, although a
rote recitation of the exception's two-prong
test can be easily made, the exception's
ultimate applicability to a case is necessarily
fact dependent. [Citation.]" (Internal
quotation marks omitted.) Chicago Transit

Authority v. Amalgamated Transit Union,
Local 241, 399 Ill. App. 3d 689, 695-96
(2010).
The question of whether an award violated public
policy is one of law, which we review de novo. City

of Des Plaines v. Metropolitan Alliance of Police,
Chapter No. 240, 2015 IL App (1st) 140957, ¶20.

54a
¶ 24 B. The Existence of a Well-Defined Public
Policy
¶ 25 To determine whether a public policy exists,
a court considers Illinois's "constitution and ***
statutes, and when cases arise concerning matters
upon which they are silent, then *** its judicial
decisions and the constant practice of the
government officials." (Internal quotation marks
omitted.) AFSCME 1996, 173 Ill. 2d at 307. In
AFSCME 1996, the supreme court vacated as
against public policy an arbitral award reinstating
an employee of the Department of Children and
Family Services (DCFS), who had falsely stated
that she had seen three children in DCFS custody
and that they were "doing fine," when in fact they
had perished in a fire. Id. at 301, 306. The court
looked to various state statutes that collectively
formed a "comprehensive legislative scheme
designed for the welfare and protection of children
found to be abused or neglected." Id. at 315. From
this legislative scheme, the court determined that
"there is a well-defined public policy in
favor of truthful and accurate DCFS reporting and
that the arbitral award in this case violates that
policy." Id. at 308.
¶ 26 This court has followed AFSCME 1996 to
find public policies in other statutory frameworks
that required vacating contrary arbitration awards.
E.g., Chicago Fire Fighters Union Local No. 2 v.
City of Chicago, 323 Ill. App. 3d 168, 176-77 (2001)

55a
(recognizing public policy "favoring safe and
effective fire protection services"); Illinois Nurses

Ass'n v. Board of Trustees of the University of
Illinois, 318 Ill. App. 3d 519, 530 (2000)
(recognizing public policy "in favor of safe nursing
care"); State Police v. Fraternal Order of Police
Troopers Lodge No. 41, 323 Ill. App. 3d 322, 328-29
(2001) (recognizing public policy "promoting
effective law enforcement"); County of De Witt v.

American Federation of State, County & Municipal
Employees, 298 Ill. App. 3d 634, 637-38 (1998)
(recognizing public policy "to protect the elderly
from abuse or harm"); Board of Education of School

District U-46 v. Illinois Educational Labor
Relations Board, 216 Ill. App. 3d 990, 1000-01
(1991) (recognizing public policy "favoring the safe
transportation of school children").
¶ 27 The statutory framework the General
Assembly constructed in the Local Act, the State
Act, and FOIA establishes a well-defined public
policy favoring the proper retention of important
public records for access by the public. The Local
Act, which applies to the City, directs that local
public records "shall not be mutilated, destroyed,
transferred, removed or otherwise damaged or
disposed of, in whole or in part, except as provided
by law." 50 ILCS 205/4(a) (West 2016). The Local
Act then requires that "no public record shall be
disposed of by any officer or agency unless the
written approval of the appropriate Local Records
Commission [(Commission)] is first obtained." Id.

56a
§7. The law requires the Commission to issue
binding regulations and procedures to "establish
procedures for compiling and submitting to the
Commission lists and schedules of public records
proposed for disposal"; to regulate "the physical
destruction or other disposition of such public
records"; and manage the "preservation of
electronically generated and maintained records";
and to create "standards for the reproduction of
such public records by photography,
microphotographic processes, or digitized electronic
format." Id.
¶ 28 The Local Act further requires that the head
of each local governmental agency submit to the
Commission "lists or schedules of public records in
his custody that are not needed in the transaction
of current business and that do not have sufficient
administrative, legal or fiscal value to warrant
their further preservation" and "lists or schedules
proposing the length of time each records series
warrants retention for administrative, legal or
fiscal purposes after it has been received by the
agency." Id. § 10. The General Assembly vested in
the Commission the ultimate authority to
determine what records should be maintained or
destroyed: "The Commission shall determine what

57a
public records have no administrative, legal,
research or historical value and should be
destroyed or otherwise disposed of and shall
authorize destruction or other disposal thereof." Id.
¶ 29 The law also dictates that "[n]o public record
shall be destroyed or otherwise disposed of by any
Local Records Commission on its own initiative,
nor contrary to law" (id.), and even goes so far as to
make it a Class 4 felony to "knowingly, without
lawful authority and with the intent to defraud any
party, public officer, or entity, alter[ ], destroy[ ],
deface[ ], remove[ ], or conceal[ ] any public record."
Id. § 4.
¶ 30 The State Act applies similar requirements
to the maintenance and destruction of state
records. 5 ILCS 160/1 et seq. (West 2016). In
enacting the State Act, the legislature made its
policy purposes explicit, stating,
"[p]ursuant to the fundamental philosophy
of the American constitutional form of
government, it is declared to be the public
policy of the State of Illinois (i) that
government records are a form of property
whose ownership lies with the citizens and
with the State of Illinois; [and] (ii) that
"those records are to be created, maintained,
and administered in support of the rights of
those citizens and the operation of the
State." Id. § 1.5.

58a
Further, "those records are, with very few
exemptions, to be available for the use, benefit, and
information of the citizens; and *** may not be
disposed of without compliance to the regulations
in this Act." Id.
¶ 31 In enacting FOIA, a similar explicit intent to
ensure public access to important government
documents was expressed:
"Pursuant to the fundamental philosophy of
the American constitutional form of
government, it is declared to be the public
policy of the State of Illinois that all persons
are entitled to full and complete information
regarding the affairs of government and the
official acts and policies of those who
represent them as public officials and public
employees consistent with the terms of this
Act." 5 ILCS 140/1 (West 2016).
"Such access is necessary to enable the people to
fulfill their duties of discussing public issues fully
and freely, making informed political judgments
and monitoring government to ensure that it is
being conducted in the public interest." Id.
Moreover, the General Assembly declared "that it
is the public policy of the State of Illinois that
access by all persons to public records promotes the
transparency and accountability of public bodies at
all levels of government," and "[i]t is a fundamental
obligation of government to operate openly and
provide public records as expediently and

59a
efficiently as possible in compliance with this Act."

Id.
¶ 32 These statutes clearly show that Illinois
recognizes a public policy favoring the proper
retention of important government records for the
benefit of the public. The Local Act and State Act
mandate that the destruction of public records
occur only after consideration by and with the
approval of the head of the governmental agency
and the Commission and in a well-regulated
process established by the Commission. Those acts
also reflect that public records belong to the public
and expressly forbid the destruction of public
records outside of those statutorily mandated
processes. In addition, FOIA exists to ensure the
public's access to records that have not been
destroyed through those processes. The General
Assembly declared the policies underlying these
acts part of the "fundamental philosophy of the
American constitutional form of government." Id. §
1; 5 ILCS 160/1.5 (West 2016).
¶ 33 The conclusions of the investigations by the
DOJ and the Task Force further support a finding
that public policy favors the maintenance of
important public records like those related to
allegations of police misconduct. The DOJ
concluded that the CBA's document destruction
provision not only might impair the investigation
of older misconduct but also deprive the CPD of
important discipline and personnel documentation
that would assist in monitoring

60a
historical patterns of misconduct. The Task Force
concluded that the destruction provision
contradicts Illinois law and best practices, impedes
the development of early intervention systems, and
deprives the public of information that is rightfully
theirs. The Task Force also concluded that the
destruction provision deprives police oversight
bodies of evidence of potential patterns of bad
behavior and may also deprive wrongfully
convicted persons of exonerating information. The
Task Force recommended the elimination of the
provision requiring the destruction of records
because it was in tension, if not outright conflict,
with general principles of public record-keeping
and deprives the public of important information
that is rightfully theirs and may include the
destruction of information that serves numerous
operational and public policy objectives.
¶ 34 These statutes and other materials leave no
doubt that Illinois has a well-defined public policy
favoring the proper retention of important
government records for the benefit of the public,
like the CR files at issue here.
¶ 35

C. Violation of a Well-Defined Public Policy

¶ 36 The arbitration award requiring destruction
of the records pursuant to section 8.4 of the CBA
clearly violated well-defined Illinois public policy
requiring the proper retention of important public
records. The award ignored the requirements of the
Local Act and obviates the local record

61a
commission's authority to determine what records
should be destroyed or maintained. Further, the
award required the City to destroy records related
to alleged police misconduct without regard to the
statute's explicit concerns for those records'
"administrative, legal, research or historical value."
50 ILCS 205/10 (West 2016).
¶ 37 The circuit court properly vacated this
arbitration award because, as stated in the circuit
court's October 2017 order, the arbitration award
"(i) violate[d] the public policy of
maintaining public records for the benefit of
the municipality and the general public; (ii)
infringe[d] on the municipality and general
public's ownership interest in public records;
(iii) usurp[ed] the municipality's right to
determine for itself what records are
required for the transaction of business,
including legal and administrative matters;
and (iv) commandeer[ed] the authority of a
local records commission as the exclusive
arbiter of whether and what public records
may be destroyed."
¶ 38 Based on our analysis above concerning the
statutory framework constructed by the General
Assembly's enactment of the Local Act, the State
Act, and FOIA, which established a well-defined
public policy favoring the proper retention of
important public records for access by the public,
we need not address the FOP's remaining

62a
assertions that the circuit court should have
deemed the arbitration award enforceable as
consistent with the Labor Act and Arbitration Act.
¶ 39

III. CONCLUSION

¶ 40 For the foregoing reasons, we find that the
arbitration award violated an explicit, well-defined,
and dominant public policy requiring retention of
important public records. Therefore, we affirm the
judgment of the circuit court, which vacated the
arbitration award and denied the FOP's
counterpetition to enforce the award.
¶ 41

Affirmed.

63a
APPENDIX C
IN THE CIRCUIT COURT OF COOK COUNTY,
ILLINOIS
COUNTY DEPARTMENT, CHANCERY
DIVISION
CITY OF CHICAGO,
Petitioner,
v.
FRATERNAL ORDER OF
POLICE, CHICAGO LODGE
NO. 7,
Respondent.

)
)
)
)
) No. 16 CH 9793
)
)
)
)
)
)

MEMORANDUM OPINION AND ORDER
The petitioner, the City of Chicago (“City”),
brings this action under the Illinois Uniform
Arbitration Act, 710 ILCS 5/1 et seq., against the
defendant, the Fraternal Order of Police, Chicago
Lodge No. 7 (“FOP”), to vacate an arbitration
award entered on April 28, 2016, as modified on
June 21, 2016 (“Arbitral Award”). The Arbitral
Award enforces a provision in a collective
bargaining agreement between the City and the
FOP that requires, with few exceptions, the
destruction after five years of police officer
disciplinary records, including records in

64a
connection with the investigation of complaints for
excessive and deadly force against residents of
Chicago. The City moves to vacate the Arbitral
Award on the basis that the document destruction
provision is unenforceable because it violates public
policy. The FOP cross-moves to enforce the Arbitral
Award.
I. BACKGROUND
When the Chicago Police Department (“CPD”)
receives a complaint of police officer misconduct, it
opens an investigatory file. These files are stored
and maintained in the CPD’s Records Division.
Since the early 1980s, the City and the FOP, the
union that represents Chicago’s approximately
11,000 police officers below the rank of sergeant,
have been parties to numerous collective
bargaining agreements, with the agreement
relevant to this case effective June 1, 2007 through
May 31, 2012 (the “CBA”). Section 8.4 of the CBA,
the provision at issue in this action, states in
relevant part:
All disciplinary investigation files,
disciplinary history card entries, IPRA
[Independent Police Review Authority] and
IAD [Internal Affairs Division] disciplinary
records, and any other disciplinary record or
summary of such record other than records
related to Police Board cases, will be
destroyed five (5) years after the date of the
incident or the date upon which the violation

65a
is discovered, whichever is longer, except
that no sustained files alleging criminal
conduct or excessive force shall be retained
for a period of seven (7) years after the date
of the incident or the date upon which the
violation is discovered, whichever is longer,
and thereafter, cannot be used against the
Officer in any future proceedings in any
other forum, except as specified below,
unless the investigation relates to a matter
which has been subject to either civil or
criminal court litigation or arbitration prior
to the expiration of the five (5) year period.
In such instances, the Complaint Register
case files normally will be destroyed
immediately after the date of the final
arbitration award or the final court
adjudication, unless a pattern of sustained
infractions exists.
CBA §8.4.1
The City alleges in its petition that beginning in
the 1990s, federal courts presiding over civil
lawsuits against the City and its police officers
began to order that all records relevant to the cases
be retained, including disciplinary histories and

1

This provision has remained substantially unchanged
over the decades that collective bargaining agreements
have been in place between the City and the FOP.

66a
investigative files, regardless of their age. This
provision has remained substantially unchanged
over the decades that collective bargaining
agreements have been in place between the City
and the FOP. The City complied with those court
orders. The City has been party to thousands of
civil lawsuits since that time, and as of the time of
the filing of the petition had approximately 480
civil lawsuits pending alleging police misconduct,
with 90% in federal court and 10% in state court.
The City contends that these lawsuits include
wrongful conviction claims that date back to the
1980s, and could include cases that go back even
further. Finally, the City alleges that many of these
court actions involved claims of civil rights
violations under 42 U.S.C. § 1983 and Monell v.
New York City Dept. of Social Servs., 436 U.S. 658
(1978)2 alleging individual and department-wide
police misconduct. In these cases, courts have
required the City to preserve and produce
investigatory files and other disciplinary
documents as evidence of whether officers have
shown a pattern of misconduct and whether the
City has taken appropriate steps to ensure proper
training and discipline of officers whose conduct

2

In Monell, the United States Supreme Court held that
a governmental entity can be liable under Section 1983
of the Civil Rights Acts in the plaintiff’s injury was
inflicted as a result of a governmental policy.

67a
has such a significant impact on all residents of
Chicago.
On November 30, 2011 and April 12, 2012, the
FOP filed separate grievances related to the City’s
retention of police disciplinary records, claiming
that the City violated section 8.4 of the CBA by
releasing records that should have been destroyed
after five years.3 While those grievances were
pending, in October 2014, the City notified the FOP
that it received Freedom of Information Act
(“FOIA”) requests from the Chicago Sun-Times and
Chicago Tribune seeking information from
complaint register (“CR”) files, which are records
generated by police oversight agencies’
investigation into citizen complaints of police
misconduct, dating back to 1967. The City further
advised the FOP that it intended to comply with
the FOIA requests. The FOP then filed a complaint
in the Circuit Court of Cook County seeking to
enjoin the disclosure of any disciplinary records or
lists more than five years old, on the basis that
such records should have been destroyed pursuant
to section 8.4 of the CBA. On December 19, 2014,
the Circuit Court granted the injunction requested
by the FOP pending the arbitration of the FOP’s

3

The CBA contains a grievance and arbitration procedure, including a provision in section 9.7(A) that the
decision of an arbitrator “shall be Final and binding
upon the parties.” CBA §9.7(A).

68a
grievances, but on July 8, 2016, the Appellate
Court vacated the injunction, holding that any
arbitration award directing the destruction of the
files at issue “would violate the FOIA as well as the
public policy under the General Assembly’s
adoption of the Act.” Fraternal Order of Police v.
Chicago of Chicago, 2016 IL App (1st) 143884, ¶ 32,
35 (“In light of these public policy considerations
and the purposes of the FOIA to open
governmental records to the light of public
scrutiny, an award in the pending arbitration
proceedings would be unenforceable if it
circumvented the City’s required compliance with
FOIA . . .”).
The FOP’s grievances were submitted to
arbitration on June 23, 2015. On January 12, 2016,
before the Appellate Court vacated the Circuit
Court’s injunction, the Arbitrator issued an interim
award sustaining the FOP’s grievances that the
City violated section 8.4 of the CBA and directing
the parties to negotiate a timeline for destruction
of documents that were more than five years old.
The parties met but failed to come to agreement on
which records were to be destroyed and when.
In the meantime, the City informed the
Arbitrator that on December 7, 2015, the United
States Department of Justice (“DOJ”) had,
pursuant to a number of federal statutes, opened
an investigation into the CPD and Independent
Police Review Authority (“IPRA”). The purpose of
the investigation was to determine whether the

69a
CPD was engaging in a pattern or practice of
unlawful conduct and, if so, what systemic
deficiencies or practices within CPD, IPRA, and the
City might be facilitating or causing this pattern or
practice.4
The City also informed the Arbitrator that the
DOJ had requested that all relevant documents,
including disciplinary and investigative records, be
preserved. On April 28, 2016, the Arbitrator issued
his final award on the FOP’s grievances,
determining that state law did not make section 8.4
of the CBA unenforceable, but that the DOJ
document preservation request constituted a
sufficient public policy exception to preserve the
subject records until the investigation and all
resulting intervention and litigation was concluded.
On June 21, 2016, the Arbitrator clarified the
award by stating that “. . . destruction of records
pursuant to the language of Section 8.4 is there to
be read and applied once the public policy
exception brought by the Department of Justice
investigation and its possible consequences no
longer exists.”
On January 13, 2017, after the City filed the
present petition to vacate the Arbitral Award and
the FOP filed its answer and counterclaim to

4

Days earlier, City of Chicago Mayor Rahm Emanuel
appointed a task force of experienced professionals to
evaluate the CPD.

70a
enforce the Arbitral Award, the DOJ, through its
Civil Rights Division and the United States
Attorney’s Office for the Northern District of
Illinois, issued a report on its investigation of the
CPD. In the section addressing policies and
practices that impede the investigation of officer
misconduct, the report states that the CBA:
requires destruction of most disciplinary
records older than five years. Yet, CPD’s
culture and 'code of silence' as described
elsewhere in these findings may prevent
disclosure of serious misconduct in a timely
fashion. Moreover, the document destruction
provision not only may impair the
investigation of older misconduct, but also
deprives CPD of important discipline and
personnel documentation that will assist in
monitoring historical patterns of
misconduct.
DOJ Report, p. 52. The City of Chicago Police
Accountability Task Force (“Task Force”) went even
further, recommending that the document
destruction provision of the CBA be eliminated
because it impedes the development of early
intervention systems and deprives the public of
information that is rightfully theirs. Task Force
Recommendations for Reform Report, p. 72.
Further, the document destruction provision
deprives “police oversight bodies of evidence of
potential patterns of bad behavior,” and
“wrongfully convicted persons of exonerating

71a
information.” Id. at 72-73. The Task Force
concluded that the document destruction provision
of the CBA “is in tension if not outright conflict
with general principles of public record-keeping ...”
Id. at 75.
II. DISCUSSION
Judicial review of arbitral awards is “extremely
limited.” American Fed. of State, County & Mun.
Emples. v. Department of Cen Mgmt. Servs., 173
Ill. 2d 299, 304 (1996). Courts are “duty bound to
enforce a labor-arbitration award if the arbitrator
acts within the scope of his or her authority and
the award draws its essence from the parties’
collective bargaining agreement.” Id. However,
there is a “public policy exception to vacate arbitral
awards which otherwise derive their essence from
a collective bargaining agreement.” Id. at 307 (“As
with any contract, a court will not enforce a
collective-bargaining agreement that is repugnant
to established norms of public policy. Likewise, we
may not ignore the same public policy concerns
when they are undermined through the process of
arbitration.”). The exception is a narrow one and is
invoked only when a contravention of public policy
is clearly shown. Id. The public policy must be
“well-defined and dominant” and ascertainable “by
reference to the laws and legal precedents and not
from generalized considerations of supposed public
interests.” Id. To determine whether there is a
well-defined and dominant public policy, a court
must look to the “constitution and ... statutes, and

72a
when cases arise concerning matters upon which
they are silent, then in its judicial decisions and
the constant practice of the government officials.”
Id.
Thus, application of the public policy exception
requires a two-step analysis. Id. The threshold
question is whether a well- defined and dominant
public policy can be identified. If so, the court must
determine whether the arbitrator's award, as
reflected in his interpretation of the agreement,
violated the public policy. Id. at 307-8. Applying
these two steps, the Court finds a well-defined and
dominant public policy of preserving government
records, and that the Arbitral Award in this case
violates that policy.
The State Records Act, 5 ILCS 160/1 et seq.
(“SRA”), and the Local Records Act, 50 ILCS 205/1
et seq. (“LRA”), establish that preservation of
government records is a well-defined and dominant
public policy.5 In enacting the SRA, the General
5

Because the SRA and LRA are dispositivc, the Court
need not consider whether the DOJ and Task Force
reports may also serve as the basis of a public policy to
preserve disciplinary records. Nevertheless, the principles of government transparency and an informed
citizenry that permeate the DOJ and Task Force reports
likewise form the basis of the public policy reflected in
the SRA and LRA to preserve government records. To
be clear, however, the Court does not base its decision
on the DOJ and Task Force Reports.

73a
Assembly declared a public policy to maintain
public records for the benefit of not only the State
government apparatus but also the general public,
going so for as to grant the citizenry an ownership
interest in such records:
Pursuant to the fundamental philosophy of
the American constitutional form of
government, it is declared to be the public
policy of the State of Illinois (i) that
government records are a form of property

whose ownership lies with the citizens and
with the State of Illinois; (ii) that those
records are to be created, maintained, and
administered in support of the rights of
those citizens and the operation of the State;
(iii) that those records are, with very few
exemptions, to be available for the use,
benefit, and information of the citizens; and
(iv) that those records may not be disposed
of without compliance to the regulations in
this Act.
5 ILCS 160/1.5 (emphasis added). See also Family
Life League v. Department of Pub. Aid, 112 Ill. 2d
449, 458 (1986) (“The purpose of the [SRA] is to
open the State’s books to the light of public
scrutiny.”); cf See also Weinstein v. Rosenbloom, 59
Ill. 2d 475, 482 (1974) (“Good policy requires
liberality in the right to examine public records.”).

74a
Section 3(a) of the SRA prohibits destruction of
public records except as provided by law:
All records created or received by or under
the authority of or coming into the custody,
control, or possession of public officials of
this State in the course of their public duties
are the property of the State. These records
may not be mutilated, destroyed,
transferred, removed, or otherwise damaged
or disposed of, in whole or in part, except as
provided by law. Any person shall have the
right of access to any public records, unless
access to the records is otherwise limited or
prohibited by law.

Id. at §3. The SRA further creates the State
Records Commission, whose duty it is “to
determine what records no longer have any
administrative, fiscal, legal, research, or historical
value and should be destroyed or disposed of
otherwise.” 5 ILCS 160/16; see also 5 ILCS 160/17
(“Regardless of other authorization to the contrary,
... no record shall be disposed of by any agency of
the State, unless approval of the State Records
Commission is first obtained.”). Finally, knowing
destruction of public records without legal
authority constitutes a felony: “Any person who
knowingly and without lawful authority alters,
destroys, defaces, removes, or conceals any public
record commits a Class 4 felony.” Id. at §11. In
short, the provisions of the SRA reflect a
well-defined and dominant public policy to

75a
maintain public records. Indeed, the rule of default
under the SRA is to preserve public records.
Like the SRA, the LRA provides that “all public
records made or received by, or under the authority
of, or coming into the custody, control or possession
of any officer or agency shall not be mutilated,
destroyed, transferred, removed or otherwise
damaged or disposed of, in whole or in part, except
as provided by law.” 50 ILCS 205/4(a). Further, the
LRA provides that “any person who knowingly,
without lawful authority and with the intent to
defraud any party, public officer, or entity, alters,
destroys, defaces, removes, or conceals any public
record commits a Class 4 felony.” Id. Public records
may only be destroyed with the written approval of
the appropriate Local Record Commission, id. at
§7, the members of which are designated by
statute. Id. at §6. In addition, section 10 of the
LRA provides that the head of each agency shall
submit a schedule of “public records in his custody
that arc not needed in the transaction of current
business and that do not have sufficient
administrative, legal or fiscal value to warrant
their further preservation.” Id. at § 10. Finally,
section 10 states that “[t]he Commission shall
determine what public records have no
administrative, legal, research or historical value
and should be destroyed or otherwise disposed of
and shall authorize destruction or other disposal
thereof. No public record shall be destroyed or
otherwise disposed of by any Local Records
Commission on its own initiative, nor contrary to

76a
law.” Id. Thus, like the SRA, the rule of default
under the LRA is to preserve public records. See
also Lopez v. Fitzgerald, 76 Ill. 2d 107,
116 (observing that “Local Records Act is concerned
with the preservation of records,” and that “the
definition of public records is broad and serves to
ensure that no important records will be
destroyed.”).
Several aspects of the SRA and LRA establish
the legislature’s clear and unequivocal policy
favoring the preservation and public availability of
government records. First, public records are to be
maintained not only for the government’s benefit,
but the general public’s as well. Second, the rule of
default for public records is that they are to be
preserved. Public records may not be destroyed
except as provided by law. Third, knowing and
willful destruction of public records constitutes a
felony. Finally, only the state and local records
commissions may authorize the destruction of
public records.
The FOP, however, argues that neither the SRA
nor the LRA affirmatively declare a public policy to
preserve records; rather, each statute permits
destruction of public records so long as the
statutory requirements arc met. Thus, according to
the FOP, there is nothing in the SRA or LRA to
preclude the City from entering into a disciplinary
file destruction contract, even if the City must first
obtain approval to implement it from the Local
Records Commission. However, the FOP fails to

77a
offer any satisfactory answer to what happens if
the Local Records Commission denies the City’s
request to destroy police disciplinary records. Tr. of
Aug. 28, 2017 Hrg., pp. 34-35 (indicating that FOP
would have to examine the decision of the local
records Commission).
In any case, a public policy may be found even
in the absence of the legislature’s express
declaration. For instance, in Board of Education v.
Illinois Education Labor Relations Board, 216 Ill.
App. 3d 990 (4th Dist. 1991 ), no statute stated that
it was the public policy of the state to safely
transport school children. Rather, the court
analyzed the constitution, statutes, judicial
decisions, and rules and regulations of the school
district to determine whether such a public policy
exists. The court held that the legislative
determination that a school board may provide
transportation to school and school-related
activities supported a public policy to safely
transport school children because it “suggests . . .
a corollary desire to ensure the students reach
their destination,” and “[a]t the very least, these
statutes indicate a public policy favoring the
transportation of school children and undoubtedly
this would include the safe transportation of those
students.” Id. at 1000. So even if the SRA and LRA
do not explicitly establish that preservation of
government records is a well-defined and dominant
public policy, preservation of such records is a
necessary corollary to the policies underlying these
statutes.

78a
The City also looks to the FOIA as proof of a
public policy to preserve government records,
arguing that “it would eviscerate the policy behind
FOIA favoring disclosure and public use if the City
destroyed documents of great public interest, such
as the disciplinary files at issue here.” City's Mot.
at 10. The FOP responds that FOIA disclaims any
obligation to preserve records, pointing to Section
1 of the FOIA, which provides that the FOIA “is not
intended to create an obligation on the part of any
public body to maintain or prepare any public
record which was not prepared or maintained by
such public body at the time when this Act becomes
effective except as otherwise required by local,
State or federal law.” 5 ILCS 140/1. The FOP likely
reads too much into Section 1 of the FOIA, but the
Court need not decide this question because the
policy to preserve government records is strongly
embraced by the SRA and LRA. Nevertheless, the
public policy behind the FOIA informs the Court’s
decision here for a different reason. As discussed
above, in Fraternal Order of Police v. City of
Chicago, 2016 IL App (1st) 143884, the court held
that any arbitration award directing the
destruction of the files that were subject to the
FOIA request in that case “would violate the FOIA
as well as the public policy under the General
Assembly’s adoption of the Act.” Id. at ¶32. The
FOP argues the appellate court did not prohibit the
destruction of disciplinary records that are not
subject to a FOIA request or once disciplinary
records have been produced pursuant to a FOIA
request. But even if the FOP is correct, the City is

79a
currently responding to a FOIA request for all CR
files from 1967 through 2014 in Green v. CPD, 15
CH 17646 (Cir. Ct. of Cook County, Illinois). Thus,
pursuant to the appellate court's holding in
Fraternal Order of Police v. City of Chicago, as a
matter of the public policy reflected in the FOIA,
the City is prohibited from destroying responsive
records until that FOIA request, and any others
that the City may receive in the interim, is
responded to.
Beyond the requirement that disciplinary files
be preserved due to pending FOIA requests, the
City also has litigation hold obligations in pending
lawsuits in federal and state courts alleging
misconduct against itself and its police officers. As
discussed above, the LRA empowers a municipality
to determine, in the first instance, whether records
are “needed in the transaction of current business
and that do not have sufficient administrative,
legal or fiscal value to warrant their further
preservation.” 50 ILCS 205/10. Thus, the LRA
permits the City to retain indefinitely records that
in its judgment are needed in the transaction of
current business or have significant legal,
administrative, or fiscal value to the public. The
disciplinary records at issue here must be
preserved because of liability exposure that the
City and its police officers have in current and
future civil litigation. Federal courts have ordered
the City to preserve records that could be relevant
to police-involved litigation. Destruction of these
files would cause the City to be in violation of these

80a
obligations and put the City at risk of being
sanctioned. Moreover, in civil lawsuits involving
police officers, the City is regularly required to
produce the disciplinary files at issue here,
sometimes records that are more than five years
old. When these lawsuits involve Monell policy and
practice claims, these requests include department-wide information spanning several years, and not
just information related to the underlying incident
or the individuals named in the lawsuit. At any
given time, there are 40 Monell claims pending
against the City. Enforcement of Section 8.4 of the
CBA would cause the City to be in violation of
federal and state court orders, and put it at risk of
being sanctioned.
Further, enforcement of the Arbitrator’s award
also prejudices the City in defending itself against
pending lawsuits. Disciplinary files may contain
information that the City can use in defending
itself and its officers, including in Monell policy
and practice claims. The destruction of these
records would disable the City's defense of these
lawsuits. Although section 8.4 of the CBA allows
for disciplinary records to be retained during the
pendency of civil litigation, this provision is
insufficient as it does not account for anticipated
future litigation involving unknown officers. The
City cannot predict what claims will be filed
against it and what disciplinary files will be
relevant. If these documents are destroyed, then
they cannot be recreated should a lawsuit be filed
thereafter. In addition, the destruction of

81a
disciplinary files could prejudice plaintiffs
asserting civil rights claims against the City, the
very class that the City's litigation hold obligation
is intended to benefit. The FOP fails to offer any
satisfactory approach to reconcile the destruction
of police disciplinary records and the protection of
the City and its police officers from the exposure
that might ensue therefrom in future civil lawsuits.
Finally, the City suggests that preservation of
disciplinary records is necessary as it formulates
and implements reform policies for its police
department and the independent police review
body. Again, the LRA grants the City the
prerogative to decide which records are necessary
to preserve for the transaction of current business,
which would include the City's stated decision to
implement reforms in its police department. The
FOP negotiated its contract with the City fully
aware of the City's prerogative and obligation
relating to the retention of public records under the
LRA. While the FOP argues that the City agreed to
destroy police disciplinary records in contracts over
several decades and that the Court should not
protect the City from itself, the public policy
exception is a judicially created doctrine to protect
the public from the parties’ offensive agreement,
and it matters not that the City benefits from the
exception here.
In its final bid to defend the Arbitral Award, the
FOP argues that under the Illinois Public Labor
Relations Act, 5 ILCS 315/1 et seq. (“Labor Act”),

82a
the SRA and LRA must yield to the provisions of
the CBA. Section J5(a) of the Labor Act states: “in
case of any conflict between the provisions of this
Act and any other law . . . the provisions of this Act
or any collective bargaining agreement negotiated
thereunder shall prevail and control.” Section 15(b)
of the Labor Act states that “any collective
bargaining contract between a public employer and
a labor organization executed pursuant to this Act
shall supersede any contrary statutes, charters,
ordinances, rules or regulations relating to wages,
hours and conditions of employment and
employment relations adopted by the public
employer or its agents.” Assuming, without
deciding, that section 8.4 of the CBA represents a
condition of employment, the FOP’s argument is
unpersuasive because the Labor Act does not
control when in conflict with the public policy of
Illinois. See Decatur Police Benevolent and
Protective Assn. Labor Comm. v. City of Decatur,
2012 IL App (4th) 110764, ¶30 (“The wording of
section 15 is that when the Labor Act is in conflict
with a specific statute or rule regarding of
conditions of employment, the Labor Act’s
provisions control. Section 15 does not say the
Labor Act controls when in conflict with the public
policy of the state. If applied as the Union argues,
section 15 would swallow the public policy
exception, because, no matter how offensive to
public policy an arbitrator’s decision is, the
arbitrator’s decision would stand. We will not read
it so broadly, particularly when the public policy
exception has been considered and applied by

83a
Illinois courts since the Labor Act’s inception."
(citations omitted)). Thus, the Labor Act provides
no refuge to the FOP.
In conclusion, enforcement of the Arbitral
Award violates a well-defined and dominant public
policy to preserve government records. To hold
otherwise would (i) violate the public policy of
maintaining public records for the benefit of the
municipality and the general public; (ii) infringe on
the municipality and general public’s ownership
interest in public records; (iii) usurp the
municipality’s right to determine for itself what
records are required for the transaction of business,
including legal and administrative matters; and
(iv) commandeer the authority of a local records
commission as the exclusive arbiter of whether and
what public records may be destroyed. Moreover,
destruction of important public records, such as the
police disciplinary files at issue here, undermines
principles of government transparency that are so
vital to the preservation of the rule of law. If the
City is to be responsive to the citizenry, it must
have access to historical police disciplinary and
investigative records to make better-informed
decisions on policing, a point echoed in the DOJ
and Task Force reports. Otherwise, policy makers
are condemned to repeal the failings of the past,
like the “Thin Blue Line” or “Code of Silence” that
Mayor Emanuel declared was a problem “at the
heart of the policing professions” in his address to
the Chicago City Council on December 9, 2015.

84a
III.

CONCLUSION

The City’s motion to vacate the Arbitral Award
is granted and the FOP’s motion to affirm the
Arbitral Award is denied.
The Clerk shall notify all counsel of record of
the entry of this order.
Entered:
___________________
Sanjay T. Tailor

ENTERED
JUDGE SANJAY TAILOR -1870
OCT 18 2017
Dorothy Brown
Clerk of the Circuit Court
of Cook County, IL

85a
APPENDIX D
VOLUNTARY LABOR ARBITRATION
TRIBUNAL
Before George T. Roumell, Jr., Arbitrator

In the Matter of:
CITY OF CHICAGO

Gr. Nos.
129-11-035
and 129-12-004
(Policy Grievances)

and

FRATERNAL ORDER OF POLICE
CHICAGO LODGE NO. 7

ARBITRATOR'S OPINION AND INTERIM
AWARD
APPEARANCES:
FOR CITY OF CHICAGO

FOR FRATERNAL
ORDER OF
POLICE CHICAGO
LODGE No. 7:

Richard Schnadig,
Special Assistant
Corporation Counsel
Tamara B. Starks,
Asst. Corporation Counsel

Brian C. Hlavin,
Attorney
Patrick N. Ryan
Attorney
Dean C. Angelo,

86a
Joseph Martinico,
FOP President
Chief Labor Negotiator
Judy Dever
Donald J. O'Neill,
Director, Human Resources
The Grievances and Answers
Grievance No. 129-11-035, initiated at Step 1 on
30 November 2011 by Richard Aguilar, then
Grievance Chair of the FOP Chicago Lodge No. 7,
on behalf of all affected members reads:
On 30 November 2011, the Lodge learned
that the City of Chicago was retaining files
and documents in violation of Section 8.4 of
the contract. The Lodge demands that all
investigative files, disciplinary history
entries, OPS, IPRA & IAD disciplinary
records along with any other records or
summaries thereof, be destroyed in
accordance with the contract. The Lodge
further requests that the City be ordered to
certify its compliance with Section 8.4 and
cease and desist its practice of wrongly
retaining records in violation of the
collective bargaining agreement, and the
contract made whole.
Grievance No. 129-12-004, initiated on April 12,
2012 at Step 1 by Richard Aguilar on behalf of all
affected members reads:

87a
Today, the Lodge became aware that the
Department has not destroyed any
disciplinary files since, at least 1998. This
revelation occurred during an arbitration
hearing of Grievance 015-09-006 when Sgt.
Muzupappa, the CO of Records Management
for the Bureau of Internal Affairs, stated,
under oath, that in 1998 she was told by
ADS Kirby that she was to discontinue the
practice of destroying any disciplinary files.
She went on to state that this included
sustained disciplinary files. The Lodge
demands that this practice cease
immediately and demands that all
disciplinary files five years old or older be
destroyed immediately as required by the CBA.
On June 8, 2012, then Commander Donald J.
O'Neill, Management and Labor Affairs Section of
the Chicago Police Department, in a letter to
Richard Aguilar denied Gr. No. 129-12-004,
writing:
Grievances: 129-12-004 DESTRUCTION OF
DISCIPLINARY FILES Grievant: Richard
Aguilar on behalf of all FOP members
Dear Mr. Aguilar:
This letter is in response to the above-identified grievance filed by the Fraternal
Order of Police, Chicago Lodge 7 (“the
Union”). The Chicago Police Department

88a
(“the Department”) has reviewed the
information and circumstances that gave
rise to the grievance and, for the reasons
stated below, the grievance is denied in its
entirety.
The Union alleges that, on April 12, 2012, it
first learned that the Department has,
notwithstanding Section 8.4 of the collective
bargaining agreement, been preserving
officer investigative files and disciplinary
records and/or histories. This statement, and
the grievance itself alleging the
Department’s wrongful retention of such
records, are most surprising given the
Union’s longstanding knowledge of the
Department’s open practice of retaining
disciplinary records. As the Union well
knows, this practice is the result of several
Federal Court orders issued in litigation
dating back to the early 1990’s involving
matters of alleged police misconduct. It is
even more surprising given the fact that
nearly twenty years ago the Union
affirmatively attempted to intervene in one
of these cases over the issue of record
preservation. The Union’s knowledge and
longstanding acceptance of the Department’s
practice, demonstrates that the Union has
waived its right to grieve this issue given its
failure to timely grieve any violation of the
pertinent provisions of the collective

89a
bargaining agreement
intervening 20 years.

during

the

By way of background, the Union became
aware of the retention of disciplinary records
more than 20 years ago. In 1990, the City’s
Corporation Counsel defended Departmental
officers in Fallon v. Dillon, 90 C 6722, a case
filed in the Northern District of Illinois
purporting “policy” claims pursuant to 42
U.S.C. § 1983 and Monell v. New York City
Dept. of Social Services, 436 U.S. 658 (1978).
During the litigation, plaintiff’s counsel
made several broad discovery requests in
response to which Judge Milton Shadur
ordered the City to cease destruction of
certain documents, including disciplinary
records. Judge Shadur did so despite City
objections that the order would result in a
violation of relevant provisions of its
collective bargaining agreement with the
Union. Although the Union did not seek to
intervene in this matter to raise its own
objections about potential violations of the
retention provisions of the collective
bargaining agreement, Judge Shadur’s order
constitutes the first instance of notification
to the Union of the Department’s duty to
preserve disciplinary records.
In 1994, the Union was once again provided
notice of the Department’s obligation to
preserve disciplinary records when it filed a

90a
motion for leave to intervene in Wiggins v.
Burge et. al., 93 CV 0019, another case
alleging police misconduct for violations of
42 U.S.C. § 1983 and 28 U.S.C. § 1367(a).
On June 16, 1994, Judge Reuben Castillo
granted plaintiff’s oral motion seeking
preservation of Departmental disciplinary
records. Shortly following Judge Castillo’s
order, the Union in fact published an article
in its August 1994 internal newsletter
advising its members of the obligation
imposed upon the City to preserve
disciplinary and investigative records and
files, notwithstanding Section 8.4 of the
collective bargaining agreement. Thereafter
on August 16, 1994, and in an effort to
prevent the Chicago Reader and other third
parties from obtaining access to the
disciplinary records, the Union sought to
intervene. This motion was denied.
Undeterred, on November 20, 1996, the
Union filed a subsequent motion to
intervene and that motion was granted by
the district court.
Following Judge Castillo's May 9, 2007 order
granting the Chicago Reader’s request for
access and motion to strike the confidential
designation attached to the disciplinary
records, the Union filed an appeal to the
United States Court of Appeals for the
Seventh Circuit. Although the appeal was
denied due to lack of standing, the Seventh

91a
Circuit rejected the Union’s attempt to
require the destruction of disciplinary
records. In fact, the Seventh Circuit did
explain that the preservation orders prohibit
the FOP [the Union] from enforcing any
right to the destruction of documents.
Wiggins v. Marlin, 150 F. 3d 671 (7th Cir.
1998). The Seventh Circuit’s decision
constitutes explicit notice to the Union of the
Department’s obligation to preserve such
records. What is more, the Union’s tacit
acceptance of the Department’s obligation to
preserve disciplinary records is evidenced by
its decision to forgo further appeals by way
of a motion requesting an en banc hearing
before the Seventh Circuit or a petition for
certiorari to the United States Supreme
Court.
Further litigation involving the Department
by the People's Law Office and others
followed and included similar broad
discovery requests seeking the preservation
of Department disciplinary records. In
response to the litigation, the Department,
in consultation with the Corporation
Counsel, continued to preserve disciplinary
records. Similar litigation has been ongoing
up until the present time. Neither the
Department nor the Corporation Counsel
has departed from the practice of preserving
disciplinary records. And, the Union has had
knowledge of and accepted this practice.

92a
In addition to the federal litigation, the
Department and the Union have frequently
discussed the retention of disciplinary
records at discipline sub-committee
meetings and during the past four collective
bargaining negotiations. It is also important
to emphasize that the Department strictly
adheres to Department Directive G.0.08-01
(formerly G.O. 93-03) when making
determinations on the appropriate use of
certain disciplinary records when
recommending discipline in sustained
complaint register investigations. To this
end, Department retained disciplinary
records are not used for such employment
decisions.
In view of the Union's twenty year
knowledge of and acquiescence to the
Department’s practice, as well as the
Department’s continuing legal obligation
with respect to the preservation of these
records, the grievance is denied in the
entirety. Should you have any questions or
require further information please contact
me at 312-745-5807.
By letter dated June 27, 2012, Commander
O'Neill wrote Richard Aguilar as Grievance Chair,
Fraternal Order of Police Chicago Lodge No. 7,
denying Gr. No. 129-11-035 which began:

93a
On today’s date, the Management and Labor
Affairs Section received grievance no.
129-11-035, via e-mail, from Richard Aguilar
of the Fraternal Order of Police, Chicago
Lodge 7 (“the Union”). The below response to
grievance no. 129-11-035 was also sent to
the Union in response to a similar grievance,
no. 129-12-004, filed by the Union in April
2012. The Chicago Police Department (“the
Department”) reviewed the information and
circumstances that gave rise to grievance no.
129-12-004 and, for the reasons stated
below, denied the grievance in its entirety.
The Department now denies this grievance,
no. 129-11-035, for the same reasons.
The letter then continued essentially reiterating
the Department’s rationale as set forth in
Commander O’Neill’s June 8, 2012 answer to Gr.
No. 129-12-004.
Section 8.4
Grievance Nos. 129-11-035 and 129-12-004 were
filed when the parties’ 2007-2012 contract was in
effect as the July 1, 2012 to June 30, 2017 contract
between the parties did not become effective until
November 18, 2014. The focus of the grievances are
on Section 8.4 which in the 2007-2012 contract
reads:

94a
Section 8.4 -Use and Destruct ion of File
Material.
All disciplinary investigation files,
disciplinary history card entries,
Independent Police Review Authority and
Internal Affairs Division disciplinary
records, and any other disciplinary record or
summary of such record other than records
related to Police Board cases, will be
destroyed five (5) years after the date of the
incident or the date upon which the violation
is discovered, whichever is longer, except
that not sustained files alleging criminal
conduct or excessive force shall be retained
for a period of seven (7) years after the date
of the incident or the date upon which the
violation is discovered, whichever is longer,
and thereafter, cannot be used against the
officer in any future proceedings in any
other forum, except as specified below,
unless the investigation relates to a matter
which has been subject to either civil or
criminal court litigation or arbitration prior
to the expiration of the five (5) year period.
In such instances, the Complaint Register
case files normally will be destroyed
immediately after the date of the final
arbitration award or the final court
adjudication, unless a pattern of sustained
infractions exists.

95a
Any information of an adverse employment
nature which may be contained in any
unfounded, exonerated, or otherwise not
sustained file, shall not be used against the
officer in any future proceedings.
Information contained in files alleging
excessive force or criminal conduct which
are not sustained may be used in future
disciplinary proceedings to determine
credibility and notice.
A finding of “Sustained -Violation Noted, No
Disciplinary Action” entered upon a
member’s disciplinary record or any record
of Summary Punishment may be used for a
period of time not to exceed one (1) year and
shall thereafter be removed from the
officer’s disciplinary record and not used to
support or as evidence of adverse
employment action. The Department’s
finding of “Sustained -Violation Noted, No
Disciplinary Action” is not subject to the
grievance procedure.
Information relating to a preventable traffic
accident involving a Department Vehicle
may be used and/or considered in
determining future discipline for a period of
time not to exceed two (2) years from the
date of such preventable traffic accident and
shall thereafter not be used and/or
considered in any employment action
provided there is no intervening preventable

96a
traffic accident involving a Department
Vehicle and if there is, the two-year period
shall continue to run from the date of the
most recent preventable traffic accident and
any prior incidents may be used and/or
considered in employment actions. In no
event shall any prior incident five (5) or
more years old be used and/or considered.
Issues Presented
The Lodge presents the issue as follows:
Whether the City violated Section 8.4 of the
parties’ Collective Bargaining Agreement by
its admitted failure to destroy disciplinary
records, CR Files and/or other records
identified within Section 8.4 of the parties’
Collective Bargaining Agreement. If so, what
should the remedy be?
The City presents the issue as:
Whether the city is violating Section 8.4 of
the parties’ Agreement by retaining
Complaint Register and related disciplinary
and/or investigatory files pursuant to Court
order or otherwise? If so, what is the
remedy?

97a
The Parties’ Positions
In order to fully appreciate the parties’
respective positions when reviewing the history,
the circumstances and the current state of affairs
surrounding the issue of the destruction of
disciplinary files, this Arbitrator deemed it
appropriate to set forth the introductory comments
of the parties’ Counsel prior to addressing the facts.
The Lodge’s Position:
In his opening statement, the Lodge’s Counsel
noted:
Mr. Arbitrator, this case involves the
City’s failure to destroy records that are
listed within Section 8.4 of the parties’
Collective Bargaining Agreement.
While the language has evolved over the
years, Section 8.4, entitled Use of
Destruction of File Materials, requires the
City to destroy disciplinary records, CR files,
and/or other records or summaries thereof,
which are identified within Section 8.4, once
the period of time for their retention,
typically it's a five-year period, has expired.
The provision does allow the retention
time period to be tolled if the records relate
to a matter that is subject to a civil or
criminal procedure.

98a
However, Section 8.4 is clear and
specifically states, “In such circumstances
the records shall be destroyed upon the
conclusion of the proceeding.”
Now, while these grievances were filed in
2011 and 2012 respectively, these grievances
took on a higher significance once the City
notified the Lodge that it had received
Freedom of Information Act requests, or
FOIA requests, from the Chicago Tribune
and Chicago Sun-Times seeking the
disclosure of lists of CR investigations and
the accompanying disciplinary findings, if
any, for all officers dating all the way back
to 1969. Thereafter, the City received FOIA
requests seeking the underlying CR files
related to certain of these cases.
The Lodge filed suit in the Circuit Court
of Cook County, and relying on Section 8.4
successfully obtained an injunction
prohibiting the release of records related to
the first FOIA request and then a second
injunction prohibiting the release of the CR
files requested by the later FOIA request.
Judge Flynn, in granting both
injunctions, relied upon the pending
grievances and the importance of
maintaining the status quo until this
Arbitrator had an opportunity to render a
decision and a remedy.

99a
Judge Flynn specifically left to the
Arbitrator the role of determining whether
the contract has been violated and what
remedy, including an order of immediate
destruction of records, would be appropriate.
And the evidence will show in this case
that the City and the Lodge, since the initial
contract was entered into back in 1981, have
always had a provision under Section 8.4
requiring the destruction of records.
The evidence will also establish that the
City initially complied with the destruction
requirement. However, at a date which is
unknown, but is believed to be sometime in
1998, the City unilaterally ceased destroying
any records identified for destruction within
Section B.4 and have since retained such
records.
This action by the City was done in secret
and not communicated to the Lodge. In fact,
the City’s official policies continue to
publicize that the City destroyed such
records once the retention period has
expired.
What the Arbitrator will hear is that
beginning in the early 1990s the City was
sued repeatedly in federal court, more often
than not, by a specific law firm who
requested Court orders requiring the City to

100a
preserve and turn over records related to the
misconduct that was alleged in the
particular case.
The first such order was entered by Judge
Shadur. However, contrary to the
representations I expect to be made by the
City here today, none of those orders require
the permanent retention of any record.
Rather, the order applies only while the
litigation remained ongoing.
** *
The Lodge’s Counsel supplemented his opening
statement with the following introduction to his
post hearing brief:
In its opening statement at the
Arbitration, the City claimed that it “has
adhered to the spirit years old.” (Tr, p. 28).
Assuming (for now) the truth of the City’s
claim that it never uses stale records, it
provides no defense to the City’s admitted
violation of the destruction requirement in
Section 8.4 (Tr. pp. 129-132, 137, 144, 157,
164-165).
The City does its best to
acknowledge and minimize the difficulties in
its position, first noting that “there is
language in the contract that says that we
should destroy, and there’s bargaining
history trying to change or modify some of
that language for a long, long period of

101a
time,” (Tr. p. 26). It then suggests that these
facts should not “disturb” the Arbitrator,
because “where both parties know that the
contract is not being followed, then the
obligation is on both parties to try and
conform the contract to the reality.” (Tr. p.
26). Thus, according to the City, it’s failure
“in obtaining the modification that should
have been made to make the contract an
honest contract instead of a deceptive
contract” should be overlooked (Tr. p. 28).
As the testimony at the hearing makes
clear, the existence or non-existence of
particular CR files and other disciplinary
records can either help or hinder the relative
positions of individual Officers, the City, and
third-parties. There are reasonable
arguments both for and against retaining
records indefinitely. Notwithstanding
arguments for retention, the City cannot
escape the clear language of Section 8.4
which unambiguously requires the
destruction of CR files after a set period of
time. Any changes to that language must be
made in bargaining. It is not enough for the
City to say that it tried and failed to
eliminate the destruction requirement
within Section 8.4, particularly when it had
the option to pursue its desired changes
through interest arbitration and chose not
to.

102a
The City has not and cannot establish
that its non-compliance is warranted by
either contractual exceptions or public policy
arguments. Because the destruction
requirement in Section 8.4 and the City’s
breach thereof are clear, the grievances
should be sustained and the City ordered to
comply with the destruction requirement
forthwith. (See pages 1-2, Lodge’s brief;
footnote omitted).1
The City's position was succinctly set forth in
then Commander O'Neill's answers to the
grievances and in the introduction of its Counsel's
post-hearing brief, which reads:
Section 8.4 of the collective bargaining
agreement (“CBA”) negotiated between the
City and the Fraternal Order of Police,
Lodge No.7, (“FOP” or “Union”) is
undisputedly intended to govern how the
City uses Complaint Register files (“CR
files”) and related records in subsequent
disciplinary proceedings. The section’s first
paragraph requires that disciplinary records
be “destroyed” after five years so that the
City will not use them against the officer “in
any future proceedings in any other forum

1

References in the quotation as well as in this Opinion
to “Tr.” is to the transcript of the arbitration hearing.

103a
..., unless the investigation relates to a
matter which has been subject to either civil
or criminal court litigation or arbitration
prior to the expiration of the five-(5-)year
period.” The subsequent paragraphs in
Section 8.4 set out additional limits on how
disciplinary files are to be used in future
discipline, including a bar on the City using
“not sustained” findings, a one-year limit on
the use of findings deemed "Sustained
Violation Noted, No Disciplinary Action,”
and a two-year limit on the City’s use of
information related to “preventable” traffic
accidents. Taken as a whole, every
paragraph of Section 8.4 is focused on the
City’s use of prior disciplinary records in
subsequent disciplinary proceedings. These
grievances, however, do not allege any such
misuse by the Department of any officers’
disciplinary records. Indeed, at the hearing,
the Union failed to produce any evidence
that the City has used disciplinary records
older than five years in any proceeding
against any officer, even though they are
admittedly retained by the Department.
None of the Unions' witnesses presented any
evidence that the City has ever used or
considered records older than five years
against any officer in disciplinary
proceedings or otherwise.
Despite the clear purpose of this
provision, the Union instead asserts that the

104a
Department's wellknown and long-standing
practice, extending over several decades, of
retaining disciplinary files not for use by the
City in any future proceedings but rather
due to court-sanctioned discovery requests
in literally hundreds of civil lawsuits filed by
References in the quotation as well as in this
Opinion to “Tr.” is to the transcript of the
arbitration hearing. Chicago citizens
alleging police misconduct, violates Section
8.4's direction that police officer disciplinary
records be “destroyed.”
As explained in greater detail below, the
instant grievances are entirely without
merit and should be denied for the following
reasons: First, the Union has
unquestioningly known of the Department's
practice of retaining disciplinary documents
for decades and has acquiesced in it; Second,
the City has complied with the negotiated
meaning and purpose of Section 8.4; Third,
requiring destruction of all disciplinary
documents would cause irreparable harm to
the City's ability to defend itself and its
police officers; Fourth, the City has a legal
duty as a matter of public policy to preserve
police disciplinary files; Fifth, the recent
award in the grievances filed by the
supervisory unions is wrong and without
precedential value; Lastly, the remedy
sought by the FOP is overly broad and

105a
unreasonable, and no remedy comports with
the law (Quoting pages 1-3 of City's brief.)
The Evolution of Section 8.4
Section 8.4 appeared in the parties’ first
Collective Bargaining Agreement covering the
period January 1, 1981 through July 1, 1983, and
in its entirety read:
Section 8.4 Use And Destruction Of File
Material.
Disciplinary Investigation Files, other
than police Board cases, will be destroyed by
the Internal Affairs Division five (5) years
after the date of the incident or the date
upon which the violation is discovered,
whichever is longer, unless the investigation
relates to a matter which has been subject to
either civil or criminal court litigation prior
to the expiration of the five year period. In
such instances, the Complaint Register case
files normally will be destroyed five years
after the date of the final court adjudication,
unless a pattern of sustained infractions
exists.
Any information of an adverse
employment nature which may be contained
in any unfounded, exonerated or otherwise
not sustained file, shall not be used against
the officer in any future proceedings.

106a
Any record of summary punishment may
be used for a period of time not to exceed one
( 1) year and shall thereafter not be used to
support or as evidence of adverse
employment action.
In the successor 1983 through December 31,
1985 contract, the first paragraph of Section 8.4
was amended as set forth in the following italics
language to expand the definition of the
disciplinary records covered by the Section that
continues in the 2007-2012 contract and even in
the successor 2012-2017 contract.
Section 8.4 Use and Destruction of File
Material.
Disciplinary Investigation Files,
Disciplinary History Card Entries, OPS

disciplinary records, and any other
disciplinary record or summary of such
record other than Police Board cases, will be
destroyed five (5) years after the date of the
incident or the date upon which the violation
is discovered, whichever is longer, unless the
investigation relates to a matter which has
been subject to either civil or criminal court
litigation prior to the expiration of the five
year period. In such instances, the
Complaint Register case files normally will
be destroyed five years after the date of the
final court adjudication, unless a pattern of
sustained infractions exists.

107a
Any information of an adverse
employment nature which may be contained
in any unfounded, exonerated or otherwise
not sustained file, shall not be used against
the officer in any future proceedings.
Any record of summary punishment may
be used for a period of time not to exceed one
(1) year (three (3) years in the case of vehicle
license violations) and shall thereafter not
be used to support or as evidence of adverse
employment action.
In addition, as italicized, the third paragraph
added the “(three (3) years in the case of vehicle
license violations)” as to summary punishment
records.
The 1985-1988 contract made the following
change to Paragraph 1 of Section 8.4 as italicized,
providing:
Section 8.4 Use and Destruction of File
Material.
Disciplinary Investigation Files,
Disciplinary History Card Entries, OPS
disciplinary records, and any other
disciplinary record or summary of such
record other than Police Board cases, will be
destroyed five (5) years after the date of the
incident or the date upon which the violation
is discovered, whichever is longer, and

108a
therefore cannot be used against the officer
in any future proceedings in any other
forum, unless the investigation relates to a
matter which has been subject to either civil
or criminal court litigation prior to the
expiration of the five year period. In such
instances, the Complaint Register case files
normally will be destroyed five years after
the date of the final court adjudication,
unless a pattern of sustained infractions
exists.
In the 1989-1991 contract in Section 8.4 the
following change as italicized in the last sentence
of the first paragraph: “In such instances, the
complaint register case file normally will be
destroyed five years after the date of the final
arbitration award or the final court adjudication
unless a pattern of sustained infraction exists”.
There were no changes in the successor
1992-1995 contract in the Section 8.4 language. In
the 1995-1999 Collective Bargaining Agreement,
the first two paragraphs of Section 8.4 were
inadvertently omitted when the contract was
printed. But, there were no changes negotiated as
to the first two paragraphs. (Jt. Ex. I; Tr. 47-48).
However, in the 1995-1999 Agreement the
following paragraphs were introduced:
Section 8.4-Use and Destruction of File
Material.

109a
A finding of “Sustained-Violation Noted,
No Disciplinary Action” entered upon a
member’s disciplinary record or any record
of Summary Punishment may be used for a
period of time not to exceed one (I) year and
shall thereafter be removed from the
officer’s disciplinary record and not used to
support or as evidence of adverse
employment action. The Department's
finding of “Sustained -Violation Noted, No
Disciplinary Action” is not subject to the
grievance procedure.
Information relating to a traffic accident
involving a Department Vehicle may be used
and/or considered in determining future
discipline for a period of time not to exceed
two (2) years from the date of such traffic
accident and shall thereafter not be used
and/or considered in any employment action
provided there is no intervening traffic
accident involving a Department Vehicle
and if there is, the two-year period shall
continue to run from the date of the most
recent accident and any prior incidents may
be used and/or considered in employment
actions. In no event shall any prior incident
five (5) or more years old be used and/or
considered.
The language in Section 8.4 that appears in the
2007-2012 contract first appeared as amendments
to the July 1, 1999-June 30, 2003 contract, namely,

110a
“except that nonsustained files alleging criminal
conduct or excessive force shall be retained for a
period of seven (7) years after the date of the
incident or the date which the violation is
discovered whichever is longer and the term
“immediately” was added to the language “will be
destroyed immediately after the date of the final
arbitration or final court adjudication unless a
pattern of sustained infraction exists”. The second
paragraph language “information contained in files
alleging excessive force or criminal conduct which
are not sustained may be used in future
disciplinary proceedings to determine credibility”.
The term “preventable traffic accident" was also
introduced in the 1999-2003 contract and continued
in the 2003-2007 contract and, as noted, in the
2007-2012 contract.2
With this history of the language that was
adopted by the parties in negotiations or in what
turned out to be three interest arbitrations reveals
that since the initial adoption of Section 8.4 there
is the use of the word “destroyed” consistently in

2

As a matter of fact, the 2012-2017 contract in Section 8.4
is identical to the 2007-2012 contract except there is an
added statement after the third paragraph providing
"reprimands and suspensions of one (1)to five (5) days
will stay on the officer’s disciplinary history for a period
of three (3) years from the last date of suspension or date
of reprimand, or five (5) years from the date of the
incident, whichever is earlier.”

111a
Section 8.4; that the definition of discipline records
has been expanded; that the retention in certain
cases has been expanded to seven years; and that
arbitration is included, along with civil or criminal
court litigation. In addition, there were certain
exceptions adopted as to the general use of records
in future disciplinary proceedings.
The Applicable General and Special Orders
On 14 December 1975, effective 15 December 1975,
then Superintendent of Police James M. Rockford
issued General Order 75-22 “Complaint and
Disciplinary Procedures”, wherein the Order
provided in part:
XVI. EXPUNGEMENT OF RECORDS OF
COMPLAINTS
All Complaint Register case files
involving the investigation of complaints
against Department members shall be
destroyed five years from the date of the
conclusion of an investigation unless the
investigation relates to a matter which has
been subject to either civil or criminal court
litigation prior to the expiration of the five
year period. The Complaint Register case
files, in such instances, will be destroyed five
years after the ate of the final court
adjudication.

112a
The significance of this Order is, though it was
entitled “Expungement of Records of Complaints”,
the language in Paragraph XVI used the term
“shall be destroyed” and set forth a “five year” time
period. General Order 75-22 was issued prior to
any collective bargaining agreements between the
City and the Lodge but, as just noted, contained
the concept of “destroy”.
General Order 75-22 was rescinded by General
Order 82-14 which was not introduced into this
record. However, Addendum 6A issued on 16 May
1986, effective 17 May 1986, classified as an
addendum to General Order 82-14, provided in
part:
Q. Expungement of Records of Complaints
l. Disciplinary investigation files, other
than Police Board cases, will be
destroyed by the Internal Affairs
Division five years after the date of the
incident or the date upon which the
violation is discovered, whichever is
longer, unless the investigation relates to
a matter which has been subject to either
civil or criminal court litigation prior to
the expiration fo the five year period. In
such instances, the Complaint Register
case files normally will be destroyed five
years after the date of the final court
adjudication, unless a pattern of
sustained infractions exists.

113a
2. Any information of an adverse
employment nature which may be
contained in any exonerated file, shall
not be used against the member in any
future proceedings.
General Order 93-3-6, effective 13 January
1993, as did the 1986 addendum, contained the
same language as to expunging of records of
complaints, namely:
R. Expungement of Records of Complaints
l. Disciplinary investigation files, other
than Police Board cases, will be
destroyed by the Internal Affairs
Division five years after the date of the
incident or the date upon which the
violation is discovered, whichever is
longer, unless the investigation relates to
a matter which has been subject to either
civil or criminal court litigation or
arbitration prior to the expiration of the
five year period. In such instances, the
Complaint Register case files normally
will be destroyed five years after the date
of the final arbitration award or the final
court adjudication, unless a pattern of
sustained infractions exists.
***

114a
The addendum to General Order 82-14 as well
as General Order 93-3-6 tracked the then effective
Section 8.4 language in terms of the five year time
line and the “normally will be destroyed five years
after the date of the final court adjudication, unless
a pattern of sustained infractions exists”. This
particular language was not in General Order
75-22.
Special Order S08-0l-04 entitled “Sustained
Complaint Options”, issued on 11 March 2013,
effective 17 March 2013, though issued after the
date of the grievances, announced that it rescinds
the 13 January 1993 version and does continue the
same language that this Arbitrator has noted
appearing in previous Orders over the duration of
time, namely, in Paragraph II and II.N.2.a:
N. Expungement of Records of Complaints
***
2.
Members represented by the
Fraternal Order of Police, Chicago
Lodge 7 bargaining unit.
a.

Disciplinary investigation
files, other than Police
Board cases, will be
destroyed/purged by the
BIA five (5) years after the
date of the incident or the
date upon which the
violation is discovered,
whichever is longer, except

115a
that not sustained files
alleging criminal conduct or
excessive force shall be
retained for a period of
seven (7) years after the
date of the incident or the
date upon which the
violation is discovered,
whichever is longer, and
thereafter, cannot be used
against the member in any
future proceedings in any
other forum, unless the
investigation relates to a
matter which has been
subject to either civil or
criminal court litigation or
arbitration prior to the
expiration of the five (5)
year period. In such
instances, the case files
normally will be destroyed
/purged from the five (5)
years after the date of the
final arbitration award or
the final court adjudication
unless a pattern of
sustained infractions exists.
Special Order S08-01-04 does add the five year
time line and does introduce the term “be
destroyed/purged”. It is interesting to note that
Paragraph N .3 from the same Order addresses

116a
“members represented by the Policemen’s
Benevolent and Protective Association of Illinois
(PBPA) Unit 156 Sergeants, Lieutenants and
Captains, and American Federation of State,
County Employees (AFSCME) in 3.A adopts the
same language as N.2.a as regards to the Lodge. It
is further noted that the Unit 156 contracts refer to
"purged" rather than “destroyed”. The importance
of the history of the General Orders in regard to
the Lodge contract as noted is that the concept of
destroy came from the Department's Orders and
has continued even to the current Special Order
S08-01-04 which though adding the term “purge”
seemed by doing so to recognize the language of
other contracts. In other words, the term
"destroyed" is not a new concept and initially came
from the Department.
Prior Arbitration Decisions Regarding Section
8.4
Within two years of the expiration of the first
contract between the parties -January 1, 1981
through July 1, 1983-where Section 8.4 first
appeared, arbitrators in disputes between the
parties, namely, the City of Chicago Department of
Police and the Fraternal Order of Police Chicago
Lodge No. 7, were called upon to interpret Section
8.4 as might be applicable to the matter before the
arbitrator. Arbitrator Kelleher issued an award
finding that the City violated Section 8.4 and
ordered “all references to instances occurring more
than five years previously be destroyed” and

117a
ordered that “Officer X’s records wherever
maintained be appropriately expunged and all
references to instances occurring more than five
years previously be destroyed”. In the same year
(1985), in Gr. No. 710-83-04, Arbitrator Gabriel N.
Alexander, considering a just cause issue in a
behavior alert, noted at page 9:
Insofar as Officer Bauer is concerned, I
perceive no pending issue of consequence.
The evidence is uncontradicted to the effect
that all files and documents pertaining to
the Behavioral Alert counseling session to
which he was subjected have been destroyed.
That portion of the Union’s request for relief
has already been effectuated ....
Though not referring to 8.4, earlier in the opinion
Arbitrator Alexander had made reference to
Section 8.4 and this quoted comment seemed to be
a recognition of the applicable Section 8.4
provisions as to destroying records.
In 1985, Arbitrator Goldberg in Hayes Gr. No.
11-84-4 sustained a grievance in part challenging
an Officer's removal from active duty after a fitness
for duty examination on the basis that the doctor’s
reliance on C.R.s.
In 1988, Arbitrator Kossoffin Gr. Nos. 03-85-09,
003-85-10 concluded that the transfers that were
challenged had been based upon the use of

118a
information in C.R.s in violation of Section 8.4
required that the transfers be rescinded.
In 1997, Arbitrator James R. Cox, in Gr. No.
284-95-004, where a transfer involving an Officer
with 27 years of service was challenged, was being
based on the use of discipline records older than
five years in violation of Section 8.4, Arbitrator Cox
granted that portion of the grievance challenging
the use of the older discipline records and in doing
so wrote at pages 9-10:
The portion of the Grievance relating to
a violation of 8.4 is granted. While the
Commander did not rely on the stale
discipline information or upon unfounded or
not sustained files and that evidence was
not used “against” Officer Anderson, that
information, as she conceded, should not
have been made available to her.
Furthermore, Section 8.4 states that such
stale disciplinary records “will be destroyed
five (5) years after the date of the incident or
the date upon which the violation is
discovered, whichever is longer”. The
Department violated 8.4 in failing to destroy
the stale documentation. The part of the
Grievance relating to stale violations is
granted.
All state CR violations are to be removed
from Grievant’s file and destroyed except as
otherwise provided by Section 8 .4.

119a
***
(Emphasis in original.)
The Cox opinion in the opinion of this Arbitrator is
even more precise as to the destroy language of 8.4
than the previous decisions cited in which the same
conclusion as to the meaning of “destroy” was
reached in a variety of circumstances.
In 2012 Arbitrator Meyers, in Gr. No. 123-100541179, in a decision rendered during the life of
the 2007-2012 contract, denied the grievance based
on the proposition that the Lodge failed to prove
there was an existing C.R. file or that any C.R. file
was consulted in regard to the request for a fitness
for duty examination. However, in doing so,
Arbitrator Meyers recognized the prohibition and
requirements of Section 8.4 when he wrote at page
17: “Under the clear and unambiguous language of
Section 8.4, there is no doubt that the City is not
authorized to retain unsustained C.R. files for as
long as nine years”.
The conclusion that can be drawn from an
examination of the above cases is that arbitrators
consistently have recognized that the “destroyed”
language of Section 8.4 is
unambiguous.
The Testimony of Sergeant Muzupappa
Sergeant Phyllis Muzupappa is the
Commanding Officer of the Records Section, having

120a
assumed her Command in 1998. (Tr. 108-109; 132).
A short time after she arrived as Commanding
Officer of Records in 1998, she was told by the
Office of Legal Affairs that she could not destroy
any disciplinary files. (Tr. 132).
Referring to Section 8.4, Sergeant Muzupappa
testified that the Records Section she commands
keeps the records described in Section 8.4. (Tr.
111-113). Sergeant Muzupappa testified that the
records are both kept as physical documents and on
computers. She described the CLEAR system
involving investigations conducted by the Internal
Affairs Division and the Independent Police Review
Authority. (Tr. 113-114).
Sergeant Muzupappa described the “CRMS”
system known as the Complaint Register
Management System, which is a computer data
base housing “the members’ complaint and
disciplinary history”; that the complaint and
disciplinary history are two separate histories and
can be pulled up currently on CRMS. (Tr. 115-116).
Sergeant Muzupappa described the CLEAR
system as coming into existence in 2007 and CRMS
in 2000. (Tr. 118-119). Before 2000, Sergeant
Muzupappa stated there was a main frame which
initially she testified that she could not answer
whether it was still in existence and where it was.
She also stated that the main frame began in 1967
and apparently was used until the CLEAR system
was developed in 2000. (Tr. 119-120).

121a
Sergeant Muzupappa also described keeping
paper files in boxes in various locations, including
“the warehouse”. (Tr. 120-122). In terms of paper
documents, Sergeant Muzupappa testified that the
volume, apparently referring to the number of
boxes, was up to something “like
3,600 plus”. (Tr. 122).
Sergeant Muzupappa testified that there was
limited access to the files, including through the
CLEAR system and from the CRMS, normally for
Command Channel Review and members within
the Internal Affairs Division and persons in
Records as well as individuals in the Advocate
Section. (Tr. 124-125). Sergeant Muzupappa
testified that the main frame goes back to 1967;
that she did not recall if any actual paper files
existed from 1967; that she was aware that either
on the CLEAR system, the CRMS, the main frame
or hard copy that there were records more than five
years old from the date of the incident. (Tr. 129).
Sergeant Muzupappa acknowledged that she
did not have any first-hand knowledge as to
whether records were destroyed after five years
before she came to Records. She also stated that
she does view the main frame and does not use it to
enter data; that the material on the main frame
has never been destroyed. (Tr.135-137).
This Arbitrator notes that in Special Order
S-08-01- 04 issued 11 March 2013 there is a
reference to the “electronically attached to the

122a
automatic complaint system (ACS). In the
provision of Special Order S-08-01-04 quoted by
this Arbitrator in N.2.a there is a reference to the
“case files normally will be destroyed/purged from
the ACS five years ...”. Yet, Sergeant Muzupappa
made no reference to the ACS in her testimony nor
was she asked about the ACS. Instead, the
computer system she referred to was the CLEAR
system and the CRMS. Interesting, though asked
numerous questions about the main frame, she at
one point suggested that she did not know what
information was on the main frame and then
suggested that since 2000 she has used the main
frame to review, but not to enter data. (Tr.
136-137).
Sergeant Muzupappa also stated that the
CRMS system is programmed to go back five years.
(Tr. 138-139). She was aware that “I know
electronically [referring to files prior to 1998], there
was files that were expunged that information
electronically. As far as the physical files,
sometimes we do searches and we can’t find that
file so we’re going to just assume that was
destroyed. But I can’t, you know, I don't know what
happened prior to my ...”. (Tr. 146-147). She also at
the same time testified that there were some paper
files beyond five years that have still been kept.
(Tr. 147).
Though there were times that Sergeant
Muzupappa’s testimony may have been equivocal,
she was firm in stating that since 1998 no records

123a
have been destroyed; that she acknowledged that
there were some files prior to 1998 that were
electronically “expunged” and that some paper files
were missing. She also acknowledged that there
were files older than 1998 that are still kept by
Records.
The Court Orders
Based upon the record evidence, beginning
around 1991 there were a series of Court Orders
emanating from the United States District Court,
Northern District of Illinois Division, in lawsuits
brought against the City or Officers or both where
plaintiffs were requesting discovery or preservation
of Police disciplinary records. In Fallon v Dillon,
Docket No. 90-C-6722, before the Honorable Milton
I. Shadur, U.S. District Judge, in a hearing held on
March 13, 1991, the following colloquy occurred
between Judge Shadur and Patrick Rocks
representing the defendant:
THE COURT: Right. Because there is no
need for you to do that. So we are going to
replace that, as I say, with April 4th at 9:00
o'clock. In the meantime, though, I do think
that it’s appropriate to order preservation of
records. I gather that there is a regular
procedure under which things get disposed
of as they reach a certain age.
MR. ROCKS: Yes.

124a
THE COURT: And in the interim that
should not be done.
MR. ROCKS: If may comment just for the
record?
THE COURT: Yes.
MR. ROCKS: The City does have a
procedure by which Complaint Registers
that are not sustained are destroyed after a
five year period.
THE COURT: Yes.
MR. ROCKS: It's a procedure devised by
a contract between the Police Union and the
City. And Mr. Taylor-I advised Mr. Taylor
that the City could not voluntarily
THE COURT: I know that.
MR. ROCKS: -breach the terms of that
contract.
THE COURT: I know that. I recognize
that. And basically remember it's not-these
are not being produced currently, so it's not
as though you are undercutting the force of
the existing agreement with -I don't know
whether it's a federation or whatever.

125a
MR. ROCKS: It's the Fraternal Attorney
Order of Police.
THE COURT: Fraternal Order of Police.
But in any event, preservation it seems to
me is important given the nature of the
claim. And that can be further-you know,
resolution of that in substantive terms can
be for the future. Before anything would be
done along those lines it would seem to me
that it might be well for you to notify counsel
for the Fraternal Order of Police. They may
have some legal position that they want to
advance --Though Mr. Rocks was stating in 1991 that the
City did destroy records after five years and the
Court recognized that there could be a regular
procedure for disposal “as they reached a certain
age” issued a preservation order which was also
discussed with the Court on March 21, 1991. The
upshot of this was that on March 22, 1991 Patrick
Rocks, Assistant Corporation Counsel, wrote to
Marvin Gittler, then General Counsel of the Lodge,
referring to a number of cases brought by the same
law firm at the time seeking the discovery of
“disciplinary histories of police officers who had no
contact with plaintiffs in each case” and, noting
Judge Shadur's preservation Order, “for that
reason the City cannot continue the destruction of
records pursuant to Section 8.4 of the agreement
between the City and the Lodge ...”.

126a
On March 29, 1991, Mr. Gittler wrote Mr. Rocks
acknowledging the letter of March 22, 1991,
pointing out that Section 8.4 was the bargain
struck which was “an effective balance between the
right to privacy interest of officers covered by our
agreement and the City’s claimed right to consider
work history in making current disciplinary
judgments”. Mr. Gittler went on to state “Lodge 7
will hold the City of Chicago to the terms of its
bargain and contract; and will hold the City
accountable for any breach”.
In Wiggins v. Burgee, Case No. 93-C-199 before
the Honorable Ruben Castillo, on June 6, 1994
there was a hearing over the preservation of files.
In that hearing, Assistant Corporation Counsel
Donald Zoufal represented to the Court that “there
has been an order that was entered by Judge
Shadur in a case that is now no longer before the
Court and again by Judge Moran in a case that no
longer is before him with regard to preservation of
complaint registers”. (P6, C. Ex. 4). Mr. Zoufal
then stated, “There are contract issues that the
City has with regard to the bargaining unit that
causes some concern over that and the “policy is
pursuant to the bargaining agreement to eliminate
that documentation”. (P6, C. Ex. 4). Mr. Zoufal
again advised Judge Castillo “It's important to
understand, though, those orders are gone because
the cases are gone”. (PS, C. Ex. 4). Nevertheless,
Judge Castillo issued an order preserving the
records involved, noting “all we want to is stay at
the status quo”. (P9, C. Ex. 4).

127a
The Lodge through its Counsel on August 16,
1994 sought to intervene, seeking in effect to have
the Court recognize the provisions of Section 8.4.
The motion to intervene by the Fraternal Order of
Police on August 16, 1994 was denied. (P5, C. Ex.
4). On August 29, 1996, prior to the scheduled trial
date, the case was settled. However, the Lodge’s
motion to again intervene filed on November 20,
1996 was granted by the District Court on
November 26, 1996.
The matter was appealed to the Seventh Circuit
in the Seventh Circuit in an opinion reported in

Wiggins and Chicago Reader, et al. v. Leroy
Martin, et al., 150 F.3d 671 (1998). The Seventh
Circuit held that the Lodge had no standing to
intervene. Thomas Pleines, who became General
Counsel, had signed the initial motion to intervene
plus the accompanying affidavit. See, City Ex. 5. In
the initial motion, Lodge Counsel specifically in
paragraph 3 set forth the Section 8.4 language
existing at the time.
Counsel Pleines had advised the membership of
the Lodge of the Wiggins case and the efforts to
intervene before Judge Castillo in both the August
and September 1994 issue of the Lodge’s
newsletter. (L. Ex. 38). See, City Ex. 8.
After the Lodge filed its notice of appeal in

Wiggins, which according to the Seventh Circuit
was around June 9, 1997, on November 13, 1997,

128a
Donald R. Zoufal, General Counsel to the
Superintendent, had written FOP Lodge No. 7
Counsel Thomas J. Pleines as follows:
This is in response to your letter of
October 23, 1997, concerning the destruction
of complaint register files. Please be advised
that it is the position of the Department that
it is now and always has been in compliance
with the provisions of section 8.4 of the
collective bargaining agreement with the
FOP. As you know, an exception for
destruction is provided under section 8.4 for
materials relating to civil and criminal court
litigation. I advised you back in August that
the Corporation Counsel has indicated that
destruction of C.R. file material is precluded
by several on going civil proceedings. I
suggest that you set up a meeting with the
Corporation Counsel’s office so that they can
answer any specific questions you have with
regard to this issue.
Introduced as City Exhibit 7 was an Order
signed by United States District Judge James B.
Moran, United States District Court for the
Northern District of Illinois, Eastern District, in
Fuentes and Young v. City of Chicago, et al. in
Case No. 92-C-1871. The Order directs the City’s
Department of Police to preserve a wide range of
Police records involving Police Officers, though the
Order is undated by the case number that appears

129a
that the Order was in the same time period as the
Fuentes and Wiggins period.
The above history of Federal Court Orders
directed to the Department to preserve records
involving Police Officers prompted Jeffrey Given,
then Chief Assistant Corporation Counsel, at the
request of George Rosenbrock, then Commander of
the Management and Labor Affairs Section of the
Chicago Police Department, to write the following
letter dated January 29, 2002 concerning
“preserving C.R.s beyond contract retention
period”:
As Chief Assistant Corporation Counsel
responsible for defending the City in police
misconduct cases, I am responding to your
request for a short historical summary of
litigation involving the retention of CR files.
My understanding is that this summary is to
be forwarded to the Captain’s Union in
connection with a grievance alleging that the
City has violated the captains' bargaining
agreement “by retaining and/or maintaining
disciplinary files and records past the agreed
upon retention period.” This summary
explains why that assertion is not correct.
As you are aware, since the early l990’s the
City has been subjected to an unbroken
chain of lawsuits brought by the People’s
Law Office (“PLO”) and other civil rights
plaintiffs’ lawyers alleging various “police”

130a
claims pursuant to 42 U.S.C. § 1983 and

Monell v. New York City Dept. of Social
Services, 436 U.S. 658 (1978). One of the
central allegations in these cases is that the
City fails to properly investigate and
discipline police officers accused of
misconduct. Typically, plaintiffs’ attorneys
take an expansive view of this claim and
essentially contend that all disciplinary files
of all police officers for all time are
potentially relevant; thus, plaintiffs serve
extremely broad discovery requests seeking
such records, and the City then fights over
the scope of the request and the subsequent
production.
One such case was Fallon v. Dillon, 90 C
6722 (N.D. Ill.). In Fallon, the PLO made
extremely broad discovery requests for
disciplinary records, to which the City
objected. In 1991, the City was ordered by
Judge Shadur to cease destruction of all
documents that were potentially responsive
to the PLO’s discovery requests, despite the
fact that the City objected because following
his order would cause the City to violate the
retention provisions of the F.O.P. contract.
The F.O.P. chose not to seek intervention in
order to raise their own objections.
(Attachment A).
After Fallon, the PLO made a concerted and
successful effort to ensure that they always

131a
had a lawsuit pending against the City
alleging a “policy” claim and making the
same (or even broader) discovery requests
for disciplinary records as were made in
Fallon. In the early and mid-1990s, the PLO
sought and received written judicial orders
that, as in Fallon, expressly required the
City to preserve and maintain all relevant
disciplinary records regardless of age or
bargaining agreement. Over time, the PLO
ceased to seek such written orders; instead,
they merely filed their “policy” case and
served their related discovery requests, and
the City was obligated by the force of
previous court orders and by federal law to
preserve any document that potentially was
responsive to those discovery requests.
As the 1990’s wore on, more plaintiffs’
attorneys began bringing more of the same
“policy” cases and making more of the same
(or even broader) discovery requests as did
the PLO. I have enclosed various samples of
some typical discovery requests served by
the PLO and other plaintiffs’ attorneys in
lawsuits dating from Fallon through cases
filed only a few months ago. (Attachment B).
As you will see, the scope of the requests
makes it virtually impossible not to retain
every CR that has existed since the time of
Fallon.

132a
The net effect of this history is that, since
1991 and continuing to the present (and into
the foreseeable future), the City has been
required to retain disciplinary files and
records that would otherwise not have been
retained under the various bargaining
agreements. If the City unilaterally decided
to destroy such documents without the
approval of each federal judge before whom
was pending a “policy” claim and its
attendant discovery requests, the City would
be subject to petitions for rules to show
cause why it should not be held in contempt
of court and would face other judicial
sanctions that would adversely and severely
impact the defense of the City and every
defendant police officer. And given the broad
scope of the discovery requests and their
broad interpretation by courts, there is no
reasonable way to try weeding out C.R.s that
might fit some relatively small “loophole.”
Consequently, the City no longer fights the
“retention” battle, but rather fights the
“production” battle on a case-by-case and
request-by-request basis. However, as in
1991, the unions are free to file a motion to
intervene in any “policy” case they may
desire if they wish to litigate the issue of
document retention. Based on the F.O.P.’s
failed efforts to intervene in Wiggins v.
Martin, 150 F.3d 671 (7th Cir. 1998), it

133a
would seem unlikely that such a strategy
would succeed.
In the meantime, the City will continue to
abide by the contract provisions while at the
same time following the rules and laws of
the federal courts. To the extent documents
are kept past their usual retention period,
that is done solely for purposes relating to
matters that are subject to civil court
litigation, a circumstance that is permitted
by the contract.
I hope this answers your questions. Please
call me if you need more information.
Donald J. O'Neill, the Department’s current
Director of Human Resources, and previously
Commander of the Management and Labor Affairs
Section, at one time was President of both the
Lieutenants Association and General Counsel and
President of the Captains Association. As such, he
was involved in negotiations for those two
Associations in 2002, resulting in their respective
collective bargaining agreements. (Tr. 150-152).
Director O’Neill has been admitted to the Bar of
Illinois since 1984. In connection with his
negotiations on behalf of the Sergeants,
Lieutenants and Captains who were negotiating as
one group in 2003, he researched in the Federal
Court records for any Orders concerning destroying
Officers’ discipline records, including the Castillo
and Shadur Orders. Director O’Neill stated he

134a
found the Shadur and Castillo Orders “but those
cases had been resolved”. Director O'Neill further
stated that as a result of his research, referring to
2003, “that there were no current judicial Court
Orders, Federal Court Orders that said that you
cannot destroy any files”. (Tr. 155-156).
However, in his January 29, 2002 letter to
Commander Rosenbrock, Jeffrey Givens was
discussing court activity and noted that “only a few
months ago there were lawsuits filed seeking
discovery of disciplinary records.”
Up to this point in this Opinion, this Arbitrator
had discussed the historical antecedent leading to
the adoption of Section 8.4, the bargaining history
involving the evolution of 8.4 and successive
contracts resulting in the language set forth in the
2007-2012 contract, the contract before this
Arbitrator, and for that matter the 2012-2017
contract. Similarly, this Arbitrator has also
referenced that the General and Special Orders of
the Department over the years have tracked in the
broadest respects the language of Section 8.4.
The reference to the history of the preservation
orders in the various Federal Court cases along
with the efforts in the Wiggins case of the Lodge to
intervene, along with the internal analysis ofthe
effect of those Court Orders on the application of
8.4 as represented by the Givens and Zoufal letters
seem to confirm that until about 1991 the
Department was complying with Section 8.4; that

135a
since about 1991, the advent of the Court Orders,
the Department is maintaining that if there is
compliance with 8.4 it is limited.
Past Practice Or Acquiescence
The City is maintaining that the Lodge by past
practice or, in other words, acquiescence, has in
effect agreed that since 1991 the Department, in
applying Section 8.4, was not destroying
disciplinary records.
As pointed out in the still relevant seminal
article by Arbitrator Richard Mittenthal, Past
Practice in the Administration of Collective
Bargaining Agreements, 59 Mich L Rev 1017 (1961
), past practices, namely, the practices that have
either been recognized by the parties or have been
mutually permitted to be established, may serve to
interpret, amend, implement the agreement or
establish enforceable conditions of employment.
Thus, past practice can be used as a tool of
interpretation when the contract language is
ambiguous, when the contract language is general,
and when there is no contract language and the
practice fills a missing gap. There is a fourth
category where some arbitrators have used past
practice to arrive at a decision, namely, utilizing
past practice to modify unambiguous language. It
is the latter category that the City is urging this
Arbitrator to apply the principle of past practice or,
in other words, has acquiescence to the City’s not
destroying disciplinary records.

136a
As pointed out, the “destroyed” language and
the “cannot be used against the officer in any
further proceedings” language along with the
reference to five years, seven years and, later on, as
to certain actions one year and two years, are clear
and unambiguous. The line of authority suggesting
that where the contract language is clear and
unambiguous despite a past practice, the
Arbitrator is required to follow the language of the
contract. See, e.g., Lackawanna Leather, 113 LA
603, 608 (Pelofsky, 1990); BASF Wyandotte Corp.,
84 LA 1055, 1057-58 (Caraway, 1985).
In
Anheuser-Busch Inc. v Teamsters Local 744, 280
F.3d 1133 (2013), the Court held in effect that clear
contract terms cannot be modified by past practice.
Nevertheless, there are some situation where
arbitrators have recognized where there is clear
contract language the “existence of a binding past
practice may be established where it is shown to be
the understood and accepted way of doing things
over an extended period of time. Mutuality of the
parties must be shown”. Reed Tool Co., 115 LA
1057, 1061 (Bankston, 2001).
However, long ago, in terms of modifying clear
language, Arbitrator Killingsworth in Bethlehem
Steel, 13 LA 556, 560 (1949), noted that a positive
acceptance or endorsement of the practice by the
parties must be shown to support a modification by
a binding past practice.
There was a dispute on this record as to the
extent that the Lodge through its representatives

137a
knew since 1991 that the Department was not
destroying records as set forth in Section 8.4. By
March 22, 1991, Assistant Corporation Counsel
Rocks had advised the Lodge’s then Attorney
Marvin Gittler by letter of the protective orders
being issued in Fallon v Dillon and other cases. But
the March 29, 1991 letter from Mr. Gittler in
response, to repeat, contained the statement,
“Lodge 7 will hold the City of Chicago to the terms
of its bargain and contract; and will hold the City
accountable for any breach”.
Thomas Pleines was General Counsel to the
Lodge from 1993 until 2002, preceding Marvin
Gittler. (Tr. 36-37). By August 1994, Thomas
Pleines was aware in the Wiggins case of the
existence of a broad protective order. Mr. Pleines
discussed the Wiggins case and the issue of the
disciplinary files in the Lodge’s newsletters in July
and August 1994.
David Johnson, who was the City’s chief labor
negotiator of 2004 to 2010, the Chief Assistant
Corporation Counsel from 1989 to 2004, and
previously a Senior Supervisory Assistant
Corporation Counsel, positions in which he was
either familiar with the Collective Bargaining
Agreement with the Lodge or as early as 1992 was
involved in negotiations with the Lodge. (Tr.
167-168; 197-199). In his capacity, Mr. Johnson
became familiar with litigation in the Federal
Courts where Orders were sought and obtained
concerning preservation of Officer discipline files.

138a
Mr. Johnson testified there was a change in policy
in the Department as to the destruction of C.R.
files, namely, that prior to 1991 he understood
“that C.R. files unless they qualify for one of the
exceptions set forth in 8.4 were destroyed pending
the five year mark” but the change according to Mr.
Johnson came about because of the Federal Court
litigation. (Tr. 170-171).
Throughout Mr. Johnson’s testimony, he
suggested that the representatives of the Lodge
knew of the change going back as far as the
decisions of Judges Shadur and Castillo. (Tr.
71-74). In particular, Mr. Johnson referenced the
interest arbitration before a panel consisting of
Arbitrator Steven Briggs and the Lodge’s appointed
Thomas Pleines and City appointed Darka
Papushkewych, members, in connection with the
2000 contract.
On September 27, 2001, the interest arbitration
panel in a hearing heard testimony from a City
representative discussing the fact that the City had
been sued in Federal Court and that from time to
time there have been Federal Court injunctions
relevant to maintaining of discipline files and in
particular the representative stated, “At any given
time they have a number of cases pending, they
always have some cases pending, and this group of
lawyers have been successful for over a decade to
my understanding of obtaining upon the filing of
one of their lawsuits an order from a judge, a
federal judge or a number of judges, basically

139a
barring the City from physically destroying any of
its -any of its old investigative files or CR files. And
as I said, this has been going on for a period of
time.” The representative then stated to a question:
Q So pursuant to these orders, how far
back does the City have to maintain files
for?
A To my understanding, it's at least a
decade, at least ten years.
(City Ex. 12, p. 306-308).
This testimony was heard by the Lodge’s
representative on the panel.
Mr. Johnson testified in regard to the
negotiations leading to the 2012-2017 contract that
a member of the discipline sub-committee
representing the Lodge, Rich Aguilar, stated that
“we knew you weren’t destroying the files”. (Tr.
193). However, it is noted that this testimony was
over objection and the fact is, by the time of Mr.
Aguilar’s comment, he had filed at least the first
grievance if not the second grievance now before
this Arbitrator and by those times clearly had
knowledge of the City’s retention of the files.
Mr. Johnson, as did Director O’Neill, who was
testifying in regard to his experience as
Commanding Officer of the Department's
Management and Labor Affairs Section, testified
that until the two grievances involved in this

140a
matter, the City had not received any grievances
from the FOP Chicago Lodge No. 7 protesting the
failure to destroy C.R. files as set forth in Section
8.4. (Tr. 183-184; 160).
Director O'Neill testified that, as a member of
the Lodge when he was a Police Officer, he was
aware, as were other Officers, that the City was
retaining records. He also testified that he learned
from letters that the City was not destroying
records and that officers who were involved in
depositions complained that they were confronted
with “C.R. files that were more than five years old,
ten years old, and I don't know how they got these.
And this whole Shadur thing was in the FOP
newsletter. It was discussed.” (Tr. 158-160).
Sergeant Muzupappa testified that in her
capacity as Commanding Officer of the Records
Section she had conversations with Harold Kunz
who was involved on the FOP’s negotiating team
for the 1995 negotiations and in the 1994
newsletters was listed as a member ofthe Lodge’s
Board of Trustees.
According to Sergeant
Muzupappa, she complained to Harold Kunz “about
the fact that I had to keep these files.” (Tr. 142-143;
45).
This Arbitrator has set forth a litany of evidence
on the record that arguably established knowledge
on the part of the representatives of the FOP that
the City was not complying with the provisions as
to destruction of C.R. files as set forth in Section

141a
8.4 for a considerable period of time in an effort to
determine whether there was the requirement of
mutuality supporting a past practice to modify
unambiguous contract language. The problem for
the City is, noting the discussion by such
arbitrators as Bankston in Reed Tool Co., 115 LA
1057, 1061 (2001), or Arbitrator Killingsworth in
Bethlehem Steel, 13 LA 556, 560 (1949), there was
not the unequivocal acceptance ofthe alleged past
practice to override unambiguous contract
language because of one glaring reason.
The problem for the City as to being able to
reach the unequivocal acceptance of the alleged
past practice necessary to override unambiguous
contract language first begins with the Gittler
letter of March 29, 1991 insisting that Section 8.4
be followed. General Counsel Pleines participated
in the negotiations for the contracts covering the
periods from 1995 through 2003. (Tr. 43-51 ).
During his testimony, he essentially denied that
during this period the Lodge was never told during
negotiations that the City had ceased destroying
complaint register and similar files. The following
stipulation was entered on the record:
MR. SCHNADIG: So if questioned about --in
any of your capacities with FOP, or for that
matter representing any other union, the
City has never explicitly told you that they
had ceased destroying complaint register
and similar files; is that true?

142a
BY THE WITNESS:
A. That is true and accurate.
***
ARBITRATOR ROUMELL:
stipulation accepted?

ls

the

MR. HLAVIN: Yes, I'm sorry. I accept the
stipulation.
ARBITRATOR ROUMELL: It's received.
(Tr. 50-5 I).
In regard to Mr. Zoufal's letter of November 13,
1997, Mr. Pleines testified:
A. Yes. This is a letter sent to me by Don
Zoufal, and that’s Z-o-u-f-a-l, on
November 13th, 1997.
Q. And can you tell us what were the
circumstances or events as you recall
that gave rise to this letter?
A. Well, going from what the letter says,
Mr. Zoufal is responding to a letter of
mine dated October 23rd, 1997, which
concerned the destruction of complaint
register files, and Mr. Zoufal is assuring
me and assuring the Lodge that the City
has always been in compliance with 8.4.

143a
Q At any point related to the events
concerning this letter, did anyone from
the City advise Lodge 7 that the City was
not complying with Section 8.4 and had
ceased destroying all records referenced
within 8.4?
A. No.
(Tr. 49).
Again, if all there was on this record is the
evidence as to the knowledge by Lodge
representatives that the Courts were issuing
injunctions and discovery that prevented the
destruction of certain records, along with such
testimony quoted above before Arbitrator Briggs
leading to the 1999-2003 contract, the City could
perhaps argue that there was acquiescence by
virtue of a mutual adopted past practice because
there was some knowledge. However, the
bargaining history undermines such an argument.
The parties seem to suggest that prior to Judge
Shadur’s Order in Fallon v Dillon in 1991 the
Department was destroying records. The Fallon
litigation as well as other litigation as expressed in
Mr. Rocks' letter of March 22, 1991 was known
when the parties were engaged in formulating their
1992-1995 agreement which resulted in an interest
arbitration before this Arbitrator. Except for the
adding of “final arbitration award”, there was no
change to the Section 8.4 language in the
1992-1995 contract in that the “destroyed”

144a
language was continued. In the 1995-1998 contract,
the printer inadvertently left out the first two
paragraphs of Section 8.4 but the record evidence
is that the parties recognized that there were no
changes in the first two paragraphs from the
1992-1995 contract and that the “destroyed”
language continued.
In bargaining the 1999-2003 agreement, the
City on September 13, 1999 had a proposal to
delete the word “destroyed” from the first
paragraph of Section 8.4 and substitute “purge
from the online file system”'. (L. Ex. 16; Tr. 52).
Later, on April 11, 2002, the City had an amended
proposal providing for “will be destroyed ten (10)
years after the investigation is completed ...”. (L.
Ex. 18). The reason for doing so as this Arbitrator
has already quoted was discussed before the
interest arbitration panel chaired by Arbitrator
Briggs.
The July I, 1999-June 30, 2003 contract was the
result of negotiations and the interest arbitration
award. As already noted, there were changes in the
first two paragraphs of Section 8.4. But none of the
changes eliminated the "destroy" language. There
were changes in the time limits by providing a five
year and seven year limit for retaining. And there
was the provision, as noted, that “information
contained in the files alleging excessive force or
criminal conduct which are not sustained may be
used in further disciplinary proceedings to
determine credibility and notice”. But, to repeat,

145a
though there was an opportunity in the interest
arbitration to change the term “destroyed”, and the
City attempted to do so, the City was not successful
in doing so during the period where apparently
there were Court injunctions and discovery
proceedings.
The negotiations for the July I, 2003-June 30,
2007 contract highlight the proposition that the
parties were continuing to consider the language of
the first two paragraphs of Section 8.4 and yet the
“destroyed” language continued in the 2003-2007
agreement.
On September 13, 2003, Lidia Taylor, Executive
Director, Justice Coalition, Greater Chicago, and
allegedly a liaison for 70 religious legal education
and community organizations, wrote Darka
Papushkewych, Chief Labor Negotiator, City of
Chicago Law Department, urging certain
amendments or changes to Section 8.4 be changed
by the City, including a proposal that “disciplinary
records regarding a particular officer should be
retained for as long as an officer works for the
CPD, and at least three years thereafter.
Accordingly, the JCGC recommends a removal of
this language”. (U. Ex. 25). Ms. Taylor’s letter was
shared with the Lodge’s bargaining team. Yet, on
January 23, 2004, the City proposed to continue
the “destroyed” language with the five year and
seven year provisions.

146a
During these same negotiations, the Lodge had
proposed a four year period. Nevertheless, the 2003
contract ended up with the “destroyed” language
and the five and seven year time lines. This
bargaining history for the 2003-2007 contract and
the resulting continuing of the “destroyed”
language against a background where the City was
aware of the Court Orders and arguably so were
Lodge representatives, the parties specifically in a
give and take continued the “destroyed” language.
This action does not sound like acquiescence to
retaining files other than as set forth in the Section
8.4 exceptions.
In the negotiations for the 2007 contract, the
contract as issued here, the City had proposed as to
Section 8.4 on November 19, 2007, that “all
disciplinary records related to
sustained complaint register case files will be
retained for the duration of the member’s
employment with the Department”. This language
was rejected. The parties continued the five year,
seven year time lines and the destruction language.
(U. Ex. 28). The only change in the 2007-2012
Section 8.4 language is that the parties substituted
“Independent Police Review Authority and Internal
Affairs Division” for the previous Office of
Professional Standards and Bureau of lnternal
Affairs.
It is also noted that the 2007-2012 contract
came about pursuant to an interest arbitration
chaired by Arbitrator Edwin Benn. The arbitration

147a
panel made no changes as proposed by the City and
continued the “destroyed” language.
In the negotiations for the 2012-2017 contract,
there was again an attempt to obtain retention
language for the duration of the member’s
employment with the Department, which was
rejected and the language of the 2007-2012
language was continued. Though David Johnson
maintains that the purpose of making the
proposals was to conform to the practice or
acquiescence, the fact is this bargaining history
even up to current times belies the fact that there
was an unequivocal mutually accepted past
practice or that the Lodge was acquiescent in the
retention of all disciplinary files.
“Destroyed”
Viewed from the various perspectives that this
Arbitrator has thus far employed, the Section 8.4
“destroyed” language in regard to discipline records
that qualify under the five or seven year
benchmark in 8.4 has been and has become a
feature of the record keeping of the Chicago Police
Department. The term “destroyed” existed prior to
the parties’ first Collective Bargaining Agreement
as evidenced by the 1975 General Order 75-22 and
continues as part of the recently issued Special
Order S08-01-04. The “destroyed” language has
continued in the successor contracts since 1981 to
the present, despite attempts to modify the
language and despite the fact that three of the

148a
contracts, including the 2007-2012 contract, were
the result of interest arbitration where the
“destroyed” language was not changed. Though
there was an attempt to suggest that the Lodge
and its representatives knew that as early as 1991
the Department was not destroying records
because of Court litigation, the fact is the
continued utilizing of the term “destroyed” in
successor contracts belied any acquie-scence or
viable, enforceable past practice to override the
clear and unambiguous term “destroyed”. And
then there were the arbitrators who, on occasion
considered the term "destroyed", had applied its
obvious meaning to eliminate. There is no other
way that this Arbitrator can interpret the contract
language.
In reviewing the language in the dispute
between these parties, this Arbitrator’s attention
was called to the November 4, 2015 decision of
Arbitrator Jules I. Crystal in the arbitration
between the Chicago Police Benevolent and

Protective Association and City of Chicago
Department of Police, Case Nos. SGTS-14-013,
SGTS-14-013 (amended), CPTS 14-001, LTS
14-003. To begin, Arbitrator Crystal was not faced
with the daunting faced by this Arbitrator because
he was dealing with different contracts that did not
include the “destroyed” language, but rather
“purged” language. Thus, Arbitrator Crystal, at
page 33 of his opinion, recognized that though he
was agreeing that the online information should be
purged, noted: “The City has organized and stored

149a
this data in file boxes which have been kept in a
number of locations including a warehouse facility.
Since this information is not on the ‘online file
system’, the requirements of Section 8.4 are not
applicable”. Earlier, as page 33, Arbitrator Crystal
wrote, “The record confirms the existence of source
investigated files”.
At page 34, Arbitrator Crystal wrote, “Thus, the
City’s obligation to remove -without having to
destroy -the records from the online file system
already existed in clear words prior to this
obligation. The investigation files that are in
storage, discussed infra, are not addressed by
Section 8.4.”
At page 41, Arbitrator Crystal writes, “As noted
earlier, the record herein reveals that original
source investigation files of all complaints are
retained and stored by the City. Therefore, the City
has the capability to comply with the language for
which it and the Association bargained, and yet
still provide historical information required for
litigation purposes”.
In other words, Arbitrator Crystal did not have
before him the task of determining the meaning of
the term “destroyed” as used by the parties. In this
regard, at page 31 of his opinion, Arbitrator Crystal
noted in regard to the 1998 negotiations with the
Sergeants, Lieutenants and Captains, the City’s
attorneys, James Franczek and David Johnson,
who negotiated that contract on behalf of the City,

150a
specifically testified that they advised the joint
Sergeants/ Lieutenants/Captains bargaining team
that the City would not destroy the disciplinary
records. There was no such testimony before this
Arbitrator except that David Johnson, while
acknowledging that the City had attempted in
several negotiations to change or modify the
“destroy” language, only stated specifically at
negotiations for the 2012-2017 contract that the
City was not destroying records. This was after the
grievances were filed.
Finally, Arbitrator Crystal, as is obvious, was
not faced with the “destroyed” language.
Section 8.4 Revisited
Paragraph 1 of Section 8.4, which is central to
the dispute here, bears repeating:
All disciplinary investigation files,
disciplinary history card entries,
Independent Police Review Authority and
Internal Affairs Division disciplinary
records, and any other disciplinary record or
summary of such record other than records
related to Police Board cases, will be
destroyed five (5) years after the date of the
incident or the date upon which the violation
is discovered, whichever is longer, except
that not sustained files alleging criminal
conduct or excessive force shall be retained
for a period of seven (7) years after the date

151a
of the incident or the date upon which the
violation is discovered, whichever is longer,
and thereafter, cannot be used against the
officer in any future proceedings in any
other forum, except as specified below,
unless the investigation relates to a matter
which has been subject to either civil or
criminal court litigation or arbitration prior
to the expiration of the five (5-) year period.
In such instances, the Complaint Register
case files normally will be destroyed
immediately after the date of the final
arbitration award or the final court
adjudication. unless a pattern of sustained
infractions exists.
(Emphasis supplied by Arbitrator.)
The five year and seven year benchmarks are
there to be read as are the exceptions. The
“destroyed” language is there to be read as is the
“civil or criminal court litigation or arbitration”
provision if such litigation or arbitration
commenced prior to the five year period. But then
there is the language which this Arbitrator has
emphasized,” ... the Complaint Register case files
normally will be destroyed immediately after the
date of ... unless a pattern of sustained infractions
exists”.
This analysis brings this Arbitrator to certain
statements of acknowledgment in the Lodge’s
post-hearing brief. At page 47-48 of the Lodge’s
brief, the following is stated, “The Lodge is not

152a
suggesting that CR files can only be retained
pursuant to the litigation exception where there is
a Court order precluding their destruction. The
Lodge fully understands that while litigation is
pending (or reasonably anticipated) the parties are
required to retain records which may be relevant to
litigation not withstanding any document
destruction/retention policy”. This Arbitrator also
notes that after making this statement the Lodge’s
Counsel writes, “The problem for the City is that it
stretches this general rule beyond the breaking
point effectively assuming that it cannot destroy
any records if there is any litigation pending then
or potentially arising regardless of how related the
records actually are to the litigation”.
At page 49, Lodge Counsel writes, “Of course,
Section 8.4 itself allows the City to retain
documents subject to litigation until such time as
litigation is concluded. The Lodge simply is not
seeking to have the City destroy records which it
must retain due to pending litigation. However, if
the City is notified of litigation concerning a dozen
officers, then it needs to implement a litigation
hold as to that relevant universe, not to “every
shred of paper or electronic document forever”.
At page 50, Lodge Counsel writes, “While the
City provided testimony regarding an officer
involved in a shooting case requiring analysis of CR
Files on shooting cases covering a ten year period
(Tr. pp. 235-236) even that universe of files is still
finite in identifiable. There is no dispute that this

153a
finite universe of records may be retained during
the pendency of litigation without violating Section
8.4. While the City is subject to a dozen, if not
hundreds, of separate civil rights suits at any given
time (Tr. pp. 215- 216), there was no evidence
provided by the City that 100% of CR files are
relevant to pending or reasonably anticipated
litigation now at the time of the grievances or at
any time since the Shadur, Moran and Castillo
orders in the 1990's.”
At page 51, Lodge Counsel writes, “If somebody
is convicted of a crime they could not credibly argue
that subsequent reverse conviction claim is
‘reasonably anticipated, to the point where the City
is required to maintain records until long after the
person is out of prison. However, the mere
potentiality of litigation is not sufficient to trigger
a litigation hold or for the City to invoke the
litigation exception to Section 8.4. Only if litigation
is pending or reasonably anticipated at the five (or
seven) year mark may the record be preserved”.
At page 77 of their brief, Lodge Counsel writes:
As Judge Flynn noted, the Wiggins v.
Martin case (Lodge Ex. 39) supports the
view that Section 8.4 is a valid, enforceable
contract provision and that the Lodge acted
properly by invoking it before the documents
at issue find their way to third-parties.
(Lodge Ex. 40, p. 56). Judge Flynn correctly
explained that “Wiggins held that the Lodge

154a
lacked standing in that case because it had
suffered no injury because of the Litigation
exception and because, in any event, the
documents at issue were already in the
hands of third parties not in privily with the
contractual requirements imposed on the
City.” (Lodge Ex. 40, p. 56). The Lodge is not
asking for the City to somehow be
responsible for destroying records in the
hands of third parties. It is seeking the
destruction of records before they can make
it into the hands of third-parties under
circumstances in which destruction places
the parties in the position they would have
been in but for the City’s breach.
The reason this Arbitrator has quoted
extensively from sentences and paragraphs from
the Lodge’s post-hearing brief is to test the Lodge’s
understanding of the last sentence of paragraph 1
of Section 8 .4 and particularly the term “normally
will be destroyed”. It is clear what the ending
phrase “unless a pattern of sustained infractions
exists” means. But is the Lodge recognizing that
once a file has been released through discovery or
preservation order to parties engaged in litigation
with the City or involving Police Officers, that
those files need not be destroyed because of
reasonably anticipated future litigation by counsel
who have obtained those files?
This inquiry dovetails the testimony of Liza
Franklin who has been with the City of Chicago

155a
Department of Law since February 1997 and is
currently Deputy of the Federal Civil Rights
Litigation in the Corporation Counsel's Office
whose responsibility is defending the City and
Police Officers in civil suits. (Tr. 213-214). After
describing in detail the need to preserve C.R. files,
Ms. Franklin testified as follows:
Q. When you were discussing earlier the
potential for having a Court enter an
adverse inference if we were unable to
produce a document, in your experience,
do you believe it would be sufficient at
this point to say, “We destroyed those
because of this Collective Bargaining
Agreement or under --or pursuant to a
schedule”?
A. It would not.
Q. And why not?
A. Well, first of all, other people have a lot
of these CRs.
If, for example, we destroyed the City’s
copy of Jon Burge CRs, that just means
we have to get them from the People’s
Law Office. So the only party that is
hampered in the defense is the City of
Chicago.

156a
Second of all, litigation is pending.
There's always litigation pending. And so
if we destroyed CRs today, we are in
violation of at least one of those policy
claims.
Tr. 236-237).
It was brought to the Arbitrator’s attention that
the People’s Law Office is a frequent counsel for
plaintiffs in cases involving the Chicago Police
Department and its Police Officers and has
attained over the years a number of discipline files
pursuant to discovery orders and preservation
orders. This has been true of other lawyers
involving lawsuits against the City and its Police
Officers.
There are two points to be made from this
discussion. First, as should now be obvious by this
Opinion, this Arbitrator will find that there is an
obligation on the part of the City to destroy the
files described in Section 8.4 that are beyond the
enumerated benchmarks set forth therein and are
not within the exceptions noted in Section 8.4. The
second point, however, is that there is a litigation
exception which in noting the comments in the
Lodge’s brief the Lodge seems to recognize,
particularly when third parties have the
information. The question is whether the proclivity
of some law firms or any lawyer in Cook County to
bring lawsuits against the City and Police Officers
if those firms or lawyers have the files or the
information contained therein, does this mean that

157a
those files are not to be destroyed as coming within
the flexibility of the term “normally” as used in the
last sentence of the third paragraph of Section 8.4
or the concept of anticipated litigation in regard to
the use of those files already in the hands of law
firms or lawyers that were acquired through
preservation and discovery orders? It is for this
reason that in fashioning an award will give the
Lodge and the City an opportunity for a short
period of time to address the litigation exception
set forth in Section 8.4 within the parameters as
just raised by this Arbitrator after considering the
comments in Counsel’s brief.
Although the City may have understandable
reasons not to destroy any disciplinary files due to
litigation concerns, the City has over the years
engaged in numerous collective bargaining sessions
resulting in numerous agreements with a number
of changes increasing the limitations in Section 8.4,
the City has not been able in contract negotiations
with the Lodge, although attempting to do so, to
obtain what the City is seeking in defending
against these grievances. Any way that this
Arbitrator has viewed the history and
circumstances, the contractual path leads to one
conclusion that the discipline records are to be
destroyed if the records are within the definition
and outside the benchmarks or exceptions set forth
in Section 8.4. The only caveat to this conclusion is
to give the parties an opportunity to explore the
meaning ofthe last sentence as involving files
already released to third parties through court

158a
litigation involving lawyers who may have the
propensity to continue to sue the City of Chicago on
behalf of various clients and have information in
the files that have been released for this, as noted,
this Arbitrator will address in the Award.
Public Policy
Both the United States Supreme Court and the
Illinois Supreme Court have recognized that an
arbitration award that violates law or public policy
is subject to being vacated by the Courts. United
Paperworkers International Union v. Misco Inc.,
484 U.S. 29, 42 (1987); American Federation of

State, County and Municipal Employees AFL-CIO
v. State of Illinois Dept. Of Mental Health, et al.,
124 Ill.2d 426, 460 (1988). However, as the
Supreme Court noted in Misco, 484 U.S. at 43, in
order to apply the public policy exception, “some
explicit public policy as is well defined and
dominate as ascertained by reference to laws and
legal precedent and not from general
considerations of supposed public interest.”
This caution set forth in Misco is not new to
these parties. Arbitrator Sinicropi noted in
Detective Promotion Grievance # 129-90-049 &
129-90-063, p. 15-16 (1991):
An arbitrator must be aware of the legal
concerns and public policies surrounding the
resolution of the dispute. Clearly, an arbitrator
would be loathe to mandate a resolution which

159a
would render either party to be in violation of
the law as such award would surely be subject to
challenge.
***
This Arbitrator is of the opinion that he clearly
has a duty to construe Collective Bargaining
Agreements in light of statutes and case law.
And he may also take into account well-settled
public policy, if it does not conflict with the labor
agreement and is either explicitly argued by the
parties or implied in their presented evidence
and/or argument. Moreover that public policy
must be clearly articulated by statutory law or
specific judicial decision and not merely be a
general notion of what the state of affairs is.
In his opening statement, Counsel for the City made
the observation that the retention comports with “policy
reflected in the Freedom of Information Act statute
here in Illinois and the local Record Act”'. (Tr. 28). In
testimony, Liza Franklin was asked the following
questions and answered:
Q. With respect to --you mentioned Kalven, and
you mentioned FOIA.
It’s correct that nothing under the Freedom of
Information Act, FOIA, requires the police
department to maintain records, right?
A. True.

160a
Q. FOIA only requires the police department to
turn over records that are in its possession,
correct?
A. Correct.
Q. If the documents do not exist, there’s no
obligation to turn them over, correct?
A. Correct.
(Tr. 242-243).
There is the interesting analysis which is indeed
persuasive on this Arbitrator of the Honorable Peter
Flint, Judge of the Circuit Court of Cook County, IL,
Chancery Division, who in FOP Order of Police and
Chicago Lodge No. 7 v. City of Chicago, et al., in Case
No. 14-CH-17454, in a proceeding held on that matter
on December 15, 2015, reported at pages 52-56:
The language of Section 8 just about directly
contradicts the City’s position that a record
which should have been deleted has to be
produced because the language of Section 8 calls
for a two-step process by an employer.
The first step is to review a personnel record
and the second step is to delete information
which is more than four years old. If the
information is there when the record is reviewed,
IPRA says it should be deleted before the
information is disclosed.

161a
So the notion that information that shouldn’t
be in a file is nevertheless fair game under FOIA
is certainly not supported by Section 8 of IPRRA.
The City argues, however, that Watkins
versus McCarthy, 2012 IL App (1st) 100632 held
that IPRRA is not a state law which would
prohibit the disclosure of information contained
in CR files to the extent such information may
fall within the scope of IPRRA but was required
to be disclosed under FOIA. The City’s invocation
of Watkins without qualification comes in my
view close to inexcusable. The Watkins' decision,
when you read it, turns out to be based on the
2009 version of the legislation. But effective
January 1, 2010 Section 7.5(q) of FOIA, 5 ILCS
14017.5(q) took effect. Watkins did not consider
7.6(q) and could not have considered 7.5(q)
because Watkins carefully pointed out that it
was dealing with a version of the legislation
which predates 7.5(q).
7.5(q) creates an exception --an explicit
exception to FOIA for, quote, information
prohibited from being disclosed by the Personnel
Record Review Act, end of quote.
In light of Section 7.5(q), it would be
impossible to apply the language of the Watkins’
court that I just quoted to this situation. At a
minimum it would require a whole lot of
explaining. The City not only didn’t explain it.
The City ignored it. The City also cited Kalven,

162a
KA L V E N versus the City of Chicago, 2014 IL
App (1st) 121846 for the proposition that CPD
complete registered histories generally are not
exempt from disclosure under FOIA Section 7.
But Kalven also does not address Section 7.5(q).
It considered only whether CRs were exempt
from discussion under 7.1 --Sorry --7(1)(n) or
7(1)(f) holding that they were not.
The Kalven court’s opinion makes clear that
its opinion concerns those exceptions and no
others. In fact, the Kalven court explicitly
declined to rely on cases considering other FOIA
exemptions, Gekas, being one of them.
Neither Watkins nor Kalven, therefore, is
instructive on the issue of the impact of Section
7.5(q) on this case. Furthermore, Watkins and
Kalven are also factually distinct from this case
because in those cases the parties objected to
disclosure of all of the requested documents.
There was no nuance about it.
In this case, on the other hand, the Lodge
only objects to disclosure of documents that are
over four years old and that, therefore, fall
within FOIA’s 7.5(q) exemption.
In short, Count I of this case is mostly about
a FOIA provision which was not considered in
either Kalven or Watkins. In reply, the plaintiffs
having pointed this out, the defendants offer an
argument that 7.5(q) really doesn’t mean

163a
anything. I decline to hold that 7.5(q) doesn’t
mean anything.
7.5(q) on its face says that FOIA does not
require disclosure of that which IPRRA --of that
--let me get the grammar correct. That FOIA
does not require disclosure of information as to
which IPRRA prevents disclosure and where we
began was with IPRRA Section 8 which says and
delete disciplinary reports, letters of reprimand,
or other records of disciplinary action which are
more than four years old.
The argument that this is all meaningless
which is essentially the City’s position taken in
the City’s reply doesn’t do much for me. And the
argument that the information in question
doesn't fall within IPRA Section 8 because it is
not a personnel record comes close to challenging
my common sense, but at any event, is not
exactly a self evident conclusion which I am
prepared to pitch my tent on as a matter of law
so as to prevent the plaintiffs from even being
heard on their arguments in this matter.
The City also cites Wiggins versus Martin,
150 F.3d 671. That’s another mis-citation. The
City asserts that in Wiggins versus Martin, the
Seventh Circuit recognized that the police
department’s policy of retaining CRs beyond a
five-year period is not a breach of the CBA, I
don't think Wiggins held that at all. Wiggins
held that the Lodge lacked standing in that case

164a
because it had suffered no injury because of the
litigation exception and because, in any event,
the documents at issue were already in the
hands of third parties not in privity with the
contractual requirements imposed on the City.
The horse was out of the barn. Let's stop talking
about the barn door.
To that extent, if Wiggins is relevant at all in
this discussion, it supports the plaintiff’s position
because Wiggins says if the information once
gets out of the bag, there is no remedy, and that
is exactly what the plaintiffs have argued.
This analysis certainly answers any questions about the
Freedom of Information Act as applied to Section 8.4. In
fact, Section 8.4 does retain most files for at least five
years and some files for at least seven years as a result
of careful negotiated contracts between the parties.
Addressing a public policy argument based on the
Freedom of Information Act on its face fails.
Furthermore, as this Arbitrator views the matter, the
grievances here were filed two years before the suit
before Judge Flint which would suggest that any claims
for files beyond the benchmarks, unless within the
contractual exceptions, would be invalid because the
files should have been destroyed by virtue of the
contract.
In Police Benevolent and Protective Association Unit
No. 5, et al. v. City of Springfield, 7th Judicial Circuit
Sangamon Cty, 13-CH-504 (2013), the trial court did
grant summary judgment in favor of releasing certain

165a
discipline files of the Springfield Police Department
pursuant to a Freedom of Information request even
though the collective bargaining agreement required
destruction of all Internal Affairs files over five years
old. Besides the fact an unpublished order of a trial
court in Illinois is not considered precedential value,
Norton v. City of Chicago, 293 Ill. App.3d 620, 625 (Ill.
App. 1st Dist. 1997), this Arbitrator believes that Judge
Flint’s analysis of the Freedom of Information Act as
applied to the situation involving Section 8.4 is more
persuasive than Springfield and emphasizes that the
specific public policy claim by the City, based upon the
Freedom of Information Act, is not well taken,
recognizing that certain files as set forth in Section 8.4
are kept for various amounts of time with five years
being a minimum.
The City’s Counsel has correctly noted that
pursuant to the Illinois Local Records Act, 50 ILCS
205/7, City files cannot be destroyed without the
approval of the Local Records Commission. The
Department has in place since 7 April 2004 Special
Order S09-03-01, “Records Management”, that provides
for the destruction of certain records providing there is
approval by the Local Records Commission which
recognizes the impact of the Local Records Act.
Presumably, as to other records not at issue in this
case, the Department, following Special Order
S09-03-01, has been disposing of records from time to
time pursuant to the procedure noted in the Special
Order, including obtaining permission from the Local
Records Commission.

166a
This Arbitrator recognizes this point but notes that
in the context of this dispute there is no showing that
the City has applied to the Local Records Commission
to destroy the discipline files that were subject to the
mandate of Section 8.4. Nor is there any showing that
the Local Records Commission denied such application
or permission.
Given the existence of a procedure of Special Order
S09-03-0l, this Arbitrator has no basis to suggest that
the issuance of an award granting relief in these
grievances violates public policy based upon the Local
Records Act. Whether this becomes an issue at a later
date in another forum is not before this Arbitrator.
The bottom line is that this Arbitrator, aware of

Misco and aware of the Illinois Supreme Court’s
concerns as to arbitrators issuing awards contrary to
specifically definable public policy as noted in AFSCME
v. Dept. of Mental Health, has not been shown that the
enforcement of the carefully negotiated retention policy
set forth in Section 8.4, which was confirmed basically
by the recent Special Order S08-0l-04 is contrary to law
or public policy. For this reason, this Arbitrator
concludes that in issuing an Award that enforces
Section 8.4 he is doing so consistent with State law and
not contrary to State public policy for the reasons
enumerated above.
The Remedy
Although the Lodge has proposed an extensive
remedy, this Arbitrator believes that because of the

167a
nature of the grievances and the underlying concerns
plus the language of Section 8.4 that has benchmarks
with provisos, the approach to a remedy should be
tempered so as to reflect the integrity of the Agreement
and the practicalities involved from the viewpoints of
both parties.
Having made the above statement, this Arbitrator,
based upon the analysis in the Opinion, makes a
finding that once the method in doing so and the
records to be destroyed have been determined, the final
Award shall be entered directing the City to destroy all
discipline records covered by Section 8.4 now in
existence, regardless of the format in which they exist,
namely, physical files or electronic records, for which
the benchmark for destruction or the provisions related
to litigation or arbitration are applicable, unless there
is a Section 8.4 exemption. But, before a final Award
can be entered an Interim Award will be entered to
answer the question raised by this Arbitrator
concerning the litigation exception and to give the
opportunity to the City in negotiations with the Lodge
to have input as to the method and procedure to be
followed in destroying eligible disciplinary records as
well as to give the City the opportunity to list records
that are exempt from destruction and the Lodge to
respond to such list and for the parties to attempt to
agree on a method of resolving disputes. Thus, the
Interim Award will provide as follows:
(1)
The matter shall be remanded back to the
parties until March 15, 2016 during which time the
parties are directed to attempt to negotiate between

168a
themselves a time line and method to implement the
findings set forth above that the City should be directed
to destroy all records covered by Section 8.4 not in
existence, regardless of the format in which they exist,
namely, physical files or electronic files, for which the
benchmark for destruction or the provisions related to
litigation or arbitration are applicable or there are
exceptions provided therein.
(2)
By February 15, 2016, the City shall
provide a list to the Lodge of all records which the City
believes should not be destroyed, specifying the reasons
why the records should
be retained.
(3)
By February 15, 2016, the City shall
provide a list of records other than those discussed in
Paragraph (2) above that it wishes to remain in
anticipation due to pending or actual threatened
litigation.
(4)
As part of the remand as discussed in the
Opinion, for records that have already been released in
litigation involving law firms or lawyers that have a
proclivity to sue the City of Chicago and its Officers,
whether the term “normally” would suggest that such
records because of anticipated litigation should remain,
both the Lodge and the City shall have until February
9, 2016 to submit statements to this Arbitrator as to
whether “normally” would encompass the anticipation
of litigation as to the possible use of records already
released in anticipation of subsequent litigation. It is
anticipated that the statements should not be longer

169a
than three to four typed pages, if that, and not a
regurgitation of the arguments in their briefs. After
receipt of these statements, unless there is agreement
between the parties on the point, this Arbitrator will
make a ruling on the issue by February 20, 2016.
(5)
If there are disputes between the parties
as to the records not to be destroyed, the parties are to
submit to this Arbitrator by March 15, 2016 their
agreed upon method of resolving said disputes as to the
current list and recommendations as to resolving
disputes as to records to be destroyed in the future.
(6)
The parties, either jointly or individually,
are to report in writing to this Arbitrator by March 15,
2016 as to whether they have reached any agreements
as to the method of implementing a final Award based
upon this Arbitrator's finding or any agreement as to
resolving any disputes concerning records to be or not
to be destroyed. The Arbitrator intends to issue after
receiving the report from the parties, but no later than
April 15, 2016, his final Award.
(7)
The time lines set in this Interim Award
are specific. However, on request by either party, the
Arbitrator will consider extending the time lines.
It should also be noted that in setting forth the
areas to be covered in the remand, the parties should
understand that this Arbitrator made a basic finding
upon which he intends to issue a final Award upon, but
is giving the parties an opportunity to resolve the
procedural matters and come to some understandings

170a
as to what records are affected. It should also be clear
that any claim by the City that all records are in
anticipation of litigation would not be in keeping with
the spirit ofthe Interim Award as that matter has been
addressed in the Opinion.
Pursuant to the provisions of Article 9.8, the Interim
Award will provide that the Arbitrator’s fees and
expenses shall be borne by the City of Chicago as the
City’s position was not sustained.
INTERIM AWARD
1. The matter is remanded back to the parties until
March 15, 2016 during which time the parties are
directed to attempt to negotiate between themselves a
time line and method to implement the findings set
forth above that the City should be directed to destroy
all records covered by Section 8.4 not in existence,
regardless of the format in which they exist, namely,
physical files or electronic files, for which the
benchmark for destruction or the provisions related to
litigation or arbitration are applicable or there are
exceptions provided therein.
2. By February 15, 2016, the City shall provide a
list to the Lodge of all records which the City believes
should not be destroyed, specifying the reasons why the
records should be retained.
3. By February 15, 2016, the City shall provide a
list of records other than those discussed in Paragraph

171a
(2) above that it wishes to remain in anticipation due to
pending or actual threatened litigation.
4. As part of the remand as discussed in the
Opinion, for records that have already been released in
litigation involving law firms or lawyers that have a
proclivity to sue the City of Chicago and its Officers,
whether the term “normally” would suggest that such
records because of anticipated litigation should remain,
both the Lodge and the City shall have until February
9, 2016 to submit statements to this Arbitrator as to
whether “normally” would encompass the anticipation
of litigation as to the possible use of records already
released in anticipation of subsequent litigation. It is
anticipated that the statements should not be longer
than three to four typed pages, if that, and not a
regurgitation of the arguments in their briefs. After
receipt of these statements, unless there is agreement
between the parties on the point, this Arbitrator will
make a ruling on the issue by February 20, 2016.
5. If there are disputes between the parties as to
the records not to be destroyed, the parties are to
submit to this Arbitrator by March 15, 2016 their
agreed upon method of resolving said disputes as to the
current list and recommendations as to resolving
disputes as to records to be destroyed in the future.
6. The parties, either jointly or individually, are to
report in writing to this Arbitrator by March 15, 2016
as to whether they have reached any agreements as to
the method of implementing a final Award based upon
this Arbitrator’s finding or any agreement as to

172a
resolving any disputes concerning records to be or not
to be destroyed. The Arbitrator intends to issue after
receiving the report from the parties, but in any event
no later than April 15, 2016, his final Award.
7. The time lines set in this Interim Award are
specific. However, on request by either party, the
Arbitrator will consider extending the time lines.
8. The Arbitrator's fees and expenses shall be borne
by the City of Chicago.
___________________________
GEORGE T. ROUMELL, JR.
Arbitrator
January 12, 2016

173a
APPENDIX E
VOLUNTARY LABOR ARBITRATION TRIBUNAL
Before George T. Roumell, Jr., Arbitrator
In the Matter of:
CITY OF CHICAGO
-and-

Gr. Nos. 129-11-035
and 129-12-004
(Policy Grievances)

FRATERNAL ORDER OF POLICE
CHICAGO LODGE NO. 7
===============================
ARBITRATOR'S OPINION AND AWARD
APPEARANCES:
FOR CITY OF CHICAGO

FOR FRATERNAL
ORDER OF POLICE
CHICAGO LODGE

No. 7:
Richard Schnadig,
Special Assistant Corporation
Counsel
Joseph Martinico, Chief Labor
Negotiator
Donald J. O'Neill, Director,
Human Resources

Brian C. Hlavin,
Attorney
Patrick N. Ryan,
Attorney
Dean C. Angelo, Sr.,
FOP President

174a
Background
On January 12, 2016, following a hearing in the
above matter and briefing by the parties, this
Arbitrator issued the following Interim Award:

INTERIM AWARD
1.
The matter is remanded back to
the parties until March 15, 2016 during
which time the parties are directed to
attempt to negotiate between themselves a
time line and method to implement the
findings set forth above that the City should
be directed to destroy all records covered by
Section 8.4 now in existence, regardless of
the format in which they exist, namely,
physical files or electronic files, for which
the benchmark for destruction or the
provisions related to litigation or arbitration
are applicable or there are exceptions
provided therein.
2.
By February l5, 2016, the City
shall provide a list to the Lodge of all
records which the City believes should not
be destroyed, specifying the reasons why the
records should be retained.
3.
By February 15, 2016, the City
shall provide a list of records other than
those discussed in Paragraph (2) above that

175a
it wishes to remain in anticipation due to
pending or actual threatened litigation.
4.
As part of tho remand as discussed
in the Opinion, for records that have already
been released in litigation involving law
firms or lawyers that have a proclivity to sue
the City of Chicago and its Officers, whether
the term “normally” would suggest that such
records because of anticipated litigation
should remain, both the Lodge and the City
shall have until February 9, 2016 to submit
statements to this Arbitrator as to whether
“normally” would encompass the
anticipation of litigation as to the possible
use of records already released in
anticipation of subsequent litigation. It is
anticipated that the statements should not
be longer than three to four typed pages, if
that, and not a regurgitation of the
arguments in their briefs. After receipt of
these statements, unless there is agreement
between the parties on the point, this
Arbitrator will make a ruling on the issue by
February 20, 2016.
5.
If there are disputes between the
parties as to the records not to be destroyed,
the parties are to submit to this Arbitrator
by March 15, 2016 their agreed upon method
of resolving said disputes as to the current
list and recommendations as to resolving

176a
disputes as to records to be destroyed in the
future.
6.
The parties, either jointly or
individually, are to report in writing to this
Arbitrator by March 15, 2016 as to whether
they have reached any agreements as to the
method of implementing a final Award
based upon this Arbitrator's finding or any
agreement as to resolving any disputes
concerning records to be or not to be
destroyed. The Arbitrator intends to issue
after receiving the report from the parties,
but in any event no later than April 15,
2016, his final Award.
7.
The time lines set in this Interim
Award are specific. However, on request by
either party, the Arbitrator will consider
extending the time lines.
8.
The Arbitrator’s fees and expenses
shall be borne by the City of Chicago.
Following the issuance of the Interim Award,
the parties did meet. As noted in footnote 1 of the
Supplemental Statement of the Fraternal Order of
Police Chicago Lodge No. 7, submitted on February
9, 2016:
The parties met on February 4, 2015, to
discuss this issue, at which time the City
made clear its position that it intends to

177a
retain all records under the justification of
“in anticipation of litigation,”
n o t w it hs t and i n g t h e A r b i t r a t o r ’ s
admonishment, and notwithstanding the
finite number of cases currently pending
(approximately 480 at this time).
This position was confirmed by the City in the
City’s February 9, 2016 letter to this Arbitrator
pursuant to the Interim Award wherein the
following statement was made:
1 . The parties were unable to find any
areas of agreement with respect to what
disciplinary and/or investigatory records
of any age or subject matter must be
retained or conversely destroyed. The
only exception, if it can be treated as
such, was on the subject of current and
ongoing litigation where the Lodge
reiterated its recognition, reflected in
your Opinion, that these records must be
kept.
Pursuant to Paragraph 4 of the Interim Award,
the Fraternal Order in its Supplemental Statement
stated as follows:
In the Arbitrator’s Opinion and Interim
Award, the parties were given until
February 9, 2016, to “submit statements to
this Arbitrator as to whether 'normally'
would encompass the anticipation of

178a
litigation as to the possible use of records
already released in anticipation of
subsequent litigation.” (p. 50). In remanding
this discrete issue to the parties, the
Arbitrator stated that “[i]t should also be
clear that any claim by the City that all
records are in anticipation of litigation
would not be in keeping with the spirit of
the Interim Award as that matter has been
addressed in the Opinion.” (p. 51).
The City’s position responding to the Lodge’s
position as expressed in the City's February 9, 2016
letter was:
2. The City’s position, simply put, is the
same as articulated at the hearing in the
above case. It cannot, without fatally
undermining its ability to defend itself,
agree to the destruction of any disciplinary or investigative records. The
vagaries of litigation make it nearly
impossible to predict or anticipate what
records must be maintained in order to
satisfy future court discovery requirements and other legal proceedings.
However, the probability of having to
defend unknown numbers of police
officers (whose identities cannot be
predicted in advance) and the
Department in future litigation can
certainly be reasonably anticipated ....

179a
On February 29, 2016 the City’s Chief Labor
Relations Negotiator, Joseph P. Martinico, emailed
this Arbitrator with copies to the FOP Counsel:
Attached please find the following
documents, submitted in connection with
your Interim Award issued on January 12,
2016 in the above referenced matter:
Arbitrator Crystal’s February 29, 2016
Decision In Response to the City’s
Request For Clarification of his Award in
PBPA Case Nos. Sgts. 14-013, Us. 14-003
and Capts. 14-001; Failure to Purge
Complaint and Disciplinary Records
From Online File System. Arbitrator
Crystal’s initial award was provided to
you by FOP and referenced in your
Interim Award. The attached Decision
finds Article 34, Savings Clause, to be
applicable in the case and “directs the

parties to comply with the directives of
Article 34 and negotiate a substitute
provision for Section 8.4 -- a provision
that addresses the pertinent issues and
concerns raised by both parties and that
is not inconsistent with court rulings,
judicial pronouncements and/or
legislative enactments”.
Copies of correspondence recently
received from the US Department of
Justice, issued in connection with DOJ’s

180a
investigation of the Chicago Police
Department to determine whether the
Department has engaged in patterns and
practices of conduct which violate the US
Constitution and/or federal statutory
law, which correspondence specifically
requests the preservation of all
disciplinary/ investigative records which
are the subject matter of the FOP
arbitration currently before you for final
award.
The City believes these documents bear
directly upon the matter before you and
requests that you consider them in
rendering your final award. Thank you.
The attachments included Arbitrator Crystal’s
February 29, 2016 Decision in Response to the
City’s Request For Clarification of his Award in
PBPA Case Nos. SGTS 14-013, Lts 14-003 and
Capts. 14-001 plus two letters dated February 12
and February 19, 2016, respectively, from
Assistant U.S. Attorney Patrick W. Johnson to
outside counsel for the City of Chicago.
The next day by email and regular mail,
Counsel for the Fraternal Order of Police wrote this
Arbitrator:
The Fraternal Order of Police, Chicago
Lodge No.7, hereby objects to the City’s
February 29, 2016, supplemental

181a
submission. The Opinion and Interim Award
set February 9, 2016, as the date by which
supplemental submissions were due from
the parties. As nearly three weeks have
passed, the City’s submission is untimely.
The Lodge further objects to the extent the
City is attempting to insert new issues into
this proceeding or to reargue issues already
decided. Accordingly, the Lodge respectfully
requests that the City’s submissions be
stricken and that the final Award be issued
based on the record before the Arbitrator as
of the February 9, 2016 submission due
date.
Thank you for your consideration. Please let
us know if you have any questions.
This Arbitrator responded to the parties by the
following letter dated March 4, 2016 setting forth
some of the background enumerated above and
explaining that there are facts that have evolved
since the rendering of the Interim Award raising
issues that this Arbitrator believed should be
considered:
As you know, on January 12, 2016 I
issued an Opinion and Interim Award in the
above matter wherein I discussed the issues
raised by the grievance and set forth an
Interim Award as contrasted to a final
Award. In the Interim Award, I did raise
questions referring to the Opinion as to the

182a
meaning of “normally” as set forth in Article
8, Section 8.4, “Use and Destruction of File
Material” appearing in the parties’ contract.
I invited the parties to present additional
statements to me concerning the issue I
raised.
By February 9, 2016, each of you did so
either by fax or email.
I have reviewed carefully each of your
respective statements, including Mr.
Hlavin’s extensive discussion concerning the
word “normally”. I likewise note that
Counsel for the FOP reminded this
Arbitrator that at page 51 of his Opinion
this Arbitrator did write, “It should also be
clear that any claim by the City that all
records are in anticipation of litigation
would not be keeping with the spirit of the
Interim Award as that matter has been
addressed in the Opinion”.
The parties advised this Arbitrator that
as of February 9, 2016 they had reached no
agreements. In the City’s position
statement, the City’s Advocates did write:
... the Department of Justice has recently
commenced an investigation, pursuant to
the Violent Crime Control and Law
Enforcement Act, 42 U.S.C. § 14141, to
determine whether CPD officers may be

183a
engaging in patterns and practices of
conduct that violate the U.S.
Constitution and federal statutory law,
including Title VI of the Civil Rights Act
of 1964 (“Title VI”). The DOJ has
informed CPD of its obligation to ensure
that all potentially relevant documents,
on a department-wide basis, are
preserved for purposes of its
investigation, and to provide DOJ with
access to such documents in connection
with the investigation. The DOJ
investigation and the related
requirements for document preservation,
includes police investigative and
disciplinary records. This DOJ
investigation in some sense parallels
Monell litigation, evidence concerning
which was presented in the hearing. If
this position seems unduly rigid given
the flexibility sought by the remedial
portion of your Award, we ask you to
consider how the City is to respond to
court ordered discovery or DOJ inquires
that may require production of
department wide records many years old
on a wide variety of subject matters.
Appreciating the arguments proffered by FOP
Counsel as to the word “normally”, notice which
was disseminated publicly in the press that the
Justice Department is conducting an investigation
of the Chicago Police Department cannot be

184a
ignored, including the potential litigation by the
DOJ that could be forthcoming.
Then what did occur is that on February 29,
2016 Mr. Martinico emailed to this Arbitrator three
documents. One was Arbitrator Crystal’s
“Arbitrator's Decision In Response to City’s
Request for Clarification Of Remedy” in Case Nos.
SGTS 14-013, 14-013 (Amended), CPTS 14-001 and
LTS 14-003 issued on February 29, 2016. In
addition, two letters were enclosed. The letter
dated February 12, 2016, signed by Assistant
United States Attorney Patrick W. Johnson, read:
Re:

Chicago Police Department
Investigation pursuant to 42 U.S.
C.§ 14141

Dear Mr. Slagel and Mr. Gurney:
Pursuant to our December 30, 2015
document preservation request and
document preservation notice, please
confirm that for the duration of DOJ’s
pattern and practice investigation under 42
U.S.C. § 14141, the City of Chicago and the
Chicago Police Department will preserve all
existing documents related to all complaints
of misconduct against officers of the Chicago
Police Department, including documents
related to the investigations into and
discipline imposed because of such alleged
misconduct.

185a
If you have any questions, you may contact
me at 312-353-5327.
The second letter, dated February 19, 2016, was
signed by Assistant United States Attorney Patrick
W. Johnson which as with the first letter was
written to outside counsel for the City and read:
Re:

Chicago Police Department
Investigation pursuant to 42 U.S.
C.§ 14141

Dear Mr. Slagel and Mr. Gurney:
Per our recent conversation, I am writing
to clarify our document preservation request
contained in my February 12, 2016 letter.
That request is intended to cover all officer
misconduct complaint and disciplinary files
maintained by the Chicago Police
Department, including those that are the
subject of the two pending arbitration cases:
(1) Chicago and FOP No. 7, Nos. 129-11-035,
129-12-004; and (2) Chicago and PBPA, Nos.
SGTS 14-013, CPTS14-001, LTS 14-003.
In a very quick response by email on March 1,
2016, Attorney Brian C. Hlavin on behalf of the
Lodge as well as by regular mail sent the following
letter to this Arbitrator:
Re:

City of Chicago and Fraternal
Order of Police, Lodge No.7

186a
Grievance Numbers: 129-11-035
and
129-12-004 (File Destruction)
Our File Number: 25697
Dear Arbitrator Roumell:
The Fraternal Order of Police, Chicago
Lodge No.7, hereby objects to the City’s
February 29, 2016, supplemental
submission.
The Opinion and Interim
Award set February 9, 2016, as the date by
which supplemental submissions were due
from the parties. As nearly three weeks have
passed, the City’s submission is untimely.
The Lodge further objects to the extent the
City is attempting to insert new issues into
this proceeding or to reargue issues already
decided. Accordingly, the Lodge respectfully
requests that the City’s submissions be
stricken and that the final Award be issued
based on the record before the Arbitrator as
of the February 9, 2016 submission due
date.
Thank you for your consideration. Please let
us know if you have any questions.
This Arbitrator recognizes the vigor and
sincerity of the above response of Mr. Hlavin. And,
indeed, there were certain guideline dates set forth
in the Interim Award although in Paragraph 7,
though there were no such requests, this Arbitrator

187a
did indicate that he would consider “extending the
time lines”.
The problem presented is that there have been
developing factors since the issuance of the
January 12, 2016 Interim Award, which the parties
are reminded is not a final Award, which impact on
the situation and perhaps the approach that the
Arbitrator took.
Though there were objections to considering the
materials submitted to this Arbitrator on February
29, 2016, which copies were sent to Mr. Hlavin,
this Arbitrator cannot ignore what was presented
in the scheme of the circumstances. To begin, as
noted in particular at pages 35-37 of the Lodge’s
post-hearing brief in this matter, there was
reliance on Arbitrator Crystal’s opinion and award
in City of Chicago (Chicago Police Benevolent and

Protective Association No. 14-013, 14-001 and
14-003 (November 4, 2015), which this Arbitrator
quoted in his Opinion favorably as one of the
foundations for this Arbitrator’s analysis of the
issues before him. Now the City has presented a
clarification by Arbitrator Crystal where he
announced that he had met with the parties and
concluded that he had authority notwithstanding
the doctrine of functus officio to reconsider his
proposed remedy. In doing so, Arbitrator Crystal
noted that “the undersigned cannot ignore the fact
that the posture of this case is different from what
it was when the matter was arbitrated in 2015”.
(Pg. 15). Arbitrator Crystal also stated, “In light of

188a
recent developments that have transpired and
become more consequential issues since the
issuance of the award, I must agree with the City
that contract provisions at issue is a direct
contravention of what has become a clear and
predominant public policy ...”. (Pg. 16).
This Arbitrator recognizes that he took a
different tact in his analysis of public policy
beginning at page 47 of the January 12, 2016
Opinion than Arbitrator Crystal’s analysis of public
policy at pages 16-17 of his clarification.
Then what Arbitrator Crystal did is make
reference to negotiations between the parties
pursuant to Article 34 in the contracts involved,
which is Article 33 of the FOP contract which
reads:
ARTICLE 33 - SAVINGS CLAUSE
If any provisions of this Agreement or
any application thereof should be
rendered or declared unlawful, invalid or
unenforceable by virtue of any judicial
action, or by any existing or subsequently
enacted federal or State legislation, or by
Executive Order or other competent
authority, the remaining provisions of
this Agreement shall remain in full force
and effect. In such event, upon the
request of either party, the parties shall
meet promptly and negotiate with

189a
respect to substitute provisions for those
provisions rendered or declared unlawful,
invalid, or unenforceable.
The fact is there is the existence of the
February 29, 2016 Crystal clarification of an
opinion that this Arbitrator in part relied on.
Directly on point is what was referenced
in the February 9, 2016 submission, namely,
that the Justice Department has commenced
an investigation of the Chicago Police
Department pursuant to Violence, Crime
Control and Law Enforcement Act, 42 U.S.C.
§14141. In this connection, there are the two
letters from Assistant United States
Attorney Patrick Johnson. The February 12,
2016 letter asks for the preservation of all
files. The February 19, 2016 letter confirms
a conversation that the files that are asked
to be retained as part of the investigation
includes the files under consideration in the
arbitration involving this Arbitrator,
Chicago and FOP No. 7, Nos. 129-11-035,
129-12-004, as well as the files involved in
the arbitration under consideration by
Arbitrator Crystal.
At this point, under such circumstances,
the public policy issue surfaces with new
emphasis because the Department of Justice
investigation could well result in litigation
as has happened in other communities.

190a
When faced with such facts, the question
then becomes whether the public policy
argument takes on new meaning with the
advent of the Justice Department
investigation and requests. There is a
fundamental principle in contract
negotiations that the contract must be read
as a whole, which could mean that perhaps
Article 33 is in play in this situation.
This Arbitrator has chosen to address the
issues raised even though the Lodge
maintains these are new issues because
there are continuing issues based on newly
developing evidence. This Arbitrator has
chosen to address the matters raised so that
he can give the opportunity to both parties
to discuss the issues with this Arbitrator.
The Arbitrator’s preference is to have an
in-person discussion with Counsel of the
issues raised in this letter and by the
submissions of February 9, 2016, February
29, 2016 and March 1, 2016.
In this regard, I note that I am now
scheduled to be in Chicago for a hearing
between the City and the Lodge both on
March 11th and March 25, 2016. It could be
that I could meet with the parties at 9:00
a.m. on March 11, 2016 before the scheduled
hearing on March 11th to have a discussion
on the issues raised. I also would be

191a
available after 4:30 p.m. in Chicago on
March l0, 2016.
It may be another time might be more
convenient for the parties. It may be that it
can be done on the phone. There is also the
possibility that I could meet late on March
15 and March 22, 2016. Please let me know
your pleasure. I am sending this letter by
email. I have chosen to make these
comments via letter simply because I think
this is appropriate before issuing any
further Interim Awards or final Awards. I
have put this matter on high priority as I
want to bring the assignment to completion.
Please let me hear from you as soon as
convenient so that we can have a possible
meeting consistent with your respective
schedules.
As always, I appreciate your
professionalism and the opportunity of
working with you.
The parties did meet with this Arbitrator on
March 22, 2016 where the issues were discussed
with the Lodge maintaining that its position
concerning the application of Section 8.4 should be
enforced and the City maintaining that it not be
ordered to destroy the records at issue.
Discussion

192a
The discussion of the issues in this case that
have now surfaced begins with reference to the
Opinion and Award of Arbitrator Jules I. Crystal
issued November 4, 2015 between the City and the
Chicago Police Benevolent and Protective
Association in Case Nos. SGTS14-013, SGTS14-013
(Amended), CPTS14-001 and LTS14-003.
Arbitrator Crystal was interpreting Section 8.4 of
the Sergeants, Captains and Lieutenants contracts
which contain the language: “In such instances the
complaint register case file will be purged from the
online file system five (5) years after the date of the
final arbitration award or the final court
adjudication, unless a pattern of sustained
infractions exists”.
This language is to be contrasted with the 8.4
language of the FOP contract which provides: “In
such instance the complaint register case file
normally will be destroyed immediately after the
date of the final arbitration award or the final
court adjudication, unless a pattern of sustained
infractions exists”. At page 34 of his Opinion,
Arbitrator Crystal noted that he was dealing with
the “obligation to purge the discipline records ‘from
the online file system’” and noted that “the
investigation files that are in storage, discussed
infra, are not addressed by Section 8.4”.
In other words, Arbitrator Crystal was
addressing an obligation that was different as
between the Captains, Sergeants and Lieutenants

193a
contracts on the one hand and the FOP contract on
the other hand. This Arbitrator recognized this
difference in his January 12, 2016 Opinion when
noting at page 38 that Arbitrator Crystal “did not
have before him the task of determining the
meaning of the term ‘destroyed’ as used by the
parties”. Thus, the Crystal Opinion and this
Arbitrator’s Opinion were dealing with two
different approaches as to records represented by
different contract language.
Nevertheless, Arbitrator Crystal’s November 4,
2015 Opinion and Award was offered by the FOP in
support of its position before this Arbitrator at
pages 35-37, 45, 50, 54-62, 66, 70 and 75 of the
Lodge’s post-hearing brief dated November 20,
2015. Having been made aware of the Crystal
Opinion and Award of November 4, 2015, this
Arbitrator analyzed the grievance before him in
part by considering the Crystal analysis.
There is no question in addressing the City’s
arguments opposing the FOP grievance this
Arbitrator followed the same analysis as did
Arbitrator Crystal, including Arbitrator Crystal’s
analysis of the public policy argument.
Beginning at page 39 of his Opinion, Arbitrator
Crystal discussed “public policies/compliance with
judicial rulings” wherein he concluded that it was
not against public policy or judicial rulings to
decide “that the City violated the agreements
before him when it failed to purge C.R. and

194a
disciplinary records from the online file system as
set forth in Section 8.4 of the agreement”. (Pg. 46).
As was argued by the City before Arbitrator
Crystal, the City before this Arbitrator also argued
that the granting of the grievance enforcing Section
8.4 of the FOP’s contract would be against public
policy. In addressing the public policy arguments
of the City, this Arbitrator at pages 48-49,
essentially reaching the same conclusions as
Arbitrator Crystal as to the public policy argument,
wrote:
The bottom line is that this Arbitrator,
aware of Misco and aware of the Illinois
Supreme Court’s concerns as to arbitrators
issuing awards contrary to specifically
definable public policy as noted in AFSCME
v. Dept. of Mental Health, has not been
shown that the enforcement of the carefully
negotiated retention policy set forth in
Section 8.4, which was confirmed basically
by the recent Special Order SOS-01-04 is
contrary to law or public policy. For this
reason, this Arbitrator concludes that in
issuing an Award that enforces Section 8.4
he is doing so consistent with State law and
not contrary to State public policy for the
reasons enumerated above.
As did Arbitrator Crystal, this Arbitrator
buttressed his analysis of the public policy
argument by referring to Special Order S09-03-01.

195a
There have been certain events that have taken
place since the issuance of the January 12, 2016
Opinion and Interim Award. In particular, there is
the investigation of the Justice Department of the
Chicago Police Department and, in connection with
that investigation, Counsel for the City, as
previously noted, on February 12 and February 19,
2016, respectively, received written confirmation of
a request from an Assistant United States Attorney
on behalf of the Department of Justice “that for the
duration of DOJ’s pattern and practice
investigation under 42 U.S.C. ¶ 14141, the City of
Chicago and the Chicago Police Department will
preserve all existing documents related to all
complaints of misconduct against officers of the
Chicago Police Department ...”. The letter of
February 19, 2016 refers “to clarify our document
preservation requests contained in my February
12, 2016 letter ... including those that are the
subject of two pending arbitration cases (1) Chicago
and FOP No. 7 Nos. 129-11-035, 129-12-004 ...”.
In addition, Arbitrator Crystal on February 29,
2016 issued “Arbitrator’s Decision In Response To
City’s Request For Clarification Of Remedy” in
Case Nos. SGTS-14-013, SGTS-14-013 (Amended),
CPTS-14-001 and LTS-14-003. A foundation of
Arbitrator Crystal’s November 4, 2015 Opinion and
Award and a foundation of this Arbitrator’s
Opinion and Interim Award, namely, that
enforcement of Section 8.4 in the FOP contract and
in the Sergeants, Lieutenants and Captains
contracts did not contravene public policy.

196a
Arbitrator Crystal on February 29, 2016
reconsidered the public policy argument and in
doing so at pages 15-17 wrote:
Fourth, with respect to the City’s specific
request, the undersigned cannot ignore that
fact that the posture of this case is different
from what it was when the matter was
arbitrated in 2015. While I agree with the
Union that there has been no court
pronouncement that has directly ordered the
City to retain the disciplinary files of all
police officers, I cannot agree with the Union
that the litigation and civic developments
since issuance of my Award should be
summarily discounted. Without parsing the
language of any court ruling or order -- in
particular, that of Judge Flynn, which was
referenced during the parties’ conference
and in their correspondence -- there is little
doubt that the wholesale purging of files as
requested by the Union such that they
would be inaccessible if their production
were legally required, would be contrary to
the objective of prior court rulings and
recent judicial pronouncements. At the same
time, the inability to find and produce such
data when legally required could have a
devastating impact on the City’s ability to
defend itself in matters where the past
disciplinary record of officers is germane to
potential court action either by a citizen, or
by the state or federal government. Clearly

197a
the import of Judge Flynn’s remarks -- as
well as the remarks of Judge Shadur in the
earlier Kalven decision noted in my Award
- -·point to a judiciary that is in tune with
the climate of the times and the public’s
demand that, assuming the proper legal
protocols are followed and the privacy rights
of officers are not compromised, records be
both locatable and retrievable.
The undersigned cannot simply shut his
eyes to the events that have taken place
since the issuance of his Award. He is
compelled by the circumstances of this case
and his responsibilities as Arbitrator to
consider the broader context. In light of
recent developments that have transpired
and become more consequential since the
issuance of the Award, I must agree with the
City that the contract provision at issue is a
direct contravention of what has become a
clear and predominant public policy - a
public policy that has been embraced by
recent judicial
pronouncements and
mirrored in the language of existing
legislation. With respect to the language of
FOIA, the Public Records Act and the Local
Records Act supports the trend toward
disclosure. This legislation makes clear that
public records must be maintained rather
than destroyed, and that subject to judicial
approval, be made accessible to plaintiffs in
the event of court actions initiated by

198a
citizens alleging
misconduct.

City

and/or

police

Viewed from any perspective, the fact is the
elements that were present at the time Arbitrator
Crystal issued his Opinion and Award on
November 4, 2015 were the same elements that he
relied on February 29, 2016 in concluding that the
Award that he had issued on November 4, 2015
was against public policy. This observation is
highlighted by reference to pages 41-42 of
Arbitrator Crystal’s Opinion where he wrote:
The above analysis is not meant to minimize
the extraordinary monetary liability
potentially confronting the City where the
disciplinary records of officers may be
critical to the City’s defense in a cause of
action. In this respect, deputy Liza Franklin
described with clarity the taxpayer dollars
that potentially are at stake if disciplinary
records are unavailable to the City. As Ms.
Franklin noted, the City's failure to produce
the requested tiles pursuant to a court order
in any pending litigation as a result of their
destruction could result in sanctions by the
court and adverse jury instruction against
the City. The rapid recent increase in
Monell claims in particular was noted by
Ms. Franklin. Callous as this may sound,
however, the potential liability as a result of
Monell and a host of other claims are not
recent phenomena. The information

199a
disclosure requirements of state and federal
statutes pertaining to information requests
similarly are not new. There is no evidence
that the City was forced to agree first to the
word destroy, and then more recently to the
word purge, or that either party was
unaware of the import of having the two
words “will be” immediately precede these
affirmative, active verbs.
Reaching the conclusion of negotiations
for a collective bargaining agreement takes
many turns, and often involves comprises
large and small, some obvious, some less-so.
While the purge language in Section 8.4 may
have been the result of hard fought
negotiations and/or a simply compromise,
the end result is language that is clear and
unambiguous. In the absence of any
evidence supporting a finding that the words
don’t mean what they clearly say - and the
parties never intended the words to mean
what they appear to clearly say - the
undersigned has no basis to support the
City’s decision to ignore the negotiated
terms of Section 8.4. Public policy
considerations cannot in this instance step
into the negotiations and nullify the
language.
By any definition, Arbitrator Crystal
reconsidered his Opinion because, as he suggested,

200a
“the posture of this case is different from what is,
was, when the matter was arbitrated in 2015”.
Where does this leave this Arbitrator in his
analysis in dealing with discipline files in the same
Police Department as Arbitrator Crystal who now
concludes that the enforcement of 8.4 in the
Sergeants, Lieutenants and Captains contracts is
against public policy when previously Arbitrator
Crystal held that such enforcement was not against
public policy - a holding which this Arbitrator
adopted in holding that the enforcement of the FOP
8.4 language did not violate public policy while
raising a question as to the extent of enforcement,
thereby issuing an Interim Award?
There are two differences in the context of the
issues now involved as between the Crystal
Opinions and Awards and this Arbitrator's Opinion
and Interim Award. As noted, the Crystal Award of
November 4, 2015 never directed that discipline
files be destroyed because of the language in the
contracts before him referred to online purging.
Thus, Arbitrator Crystal, in addressing the
clarification, was inviting the parties to apply
Article 34 of the contract before him which is
identical to Article 33 of the FOP contract which
reads:

ARTICLE 33 -SAVINGS CLAUSE

201a
If any provisions of this Agreement or any
application thereof should be rendered or
declared unlawful, in valid or unenforceable
by virtue of any judicial action, or by an
existing or subsequently enacted Federal or
State legislation, or by Executive Order or
other competent authority, the remaining
provisions of this Agreement shall remain in
full force and effect. In such event, upon the
request of either party, the parties shall
meet promptly and negotiate with respect to
substitute provisions for those provisions
rendered or declared unlawful, invalid, or
unenforceable.
In other words, his February 29, 2016 decision
addresses the question of the online index wherein
Arbitrator Crystal notes at page 17: “Inasmuch as
the Union has rejected the City’s proposed
establishment of a searchable electronic database
or index of all disciplinary files and/or records
which would permit the City, when legally
required, to locate specific police officer disciplinary
data, the undersigned is of the opinion that the
city’s proposal to negotiate a new provision
pursuant to Article 34 is the appropriate course of
action.” Here, what is involved is implementing the
“destroy” language which was not involved before
Arbitrator Crystal.
The second difference is that this Arbitrator did
not issue a final award. His Award was an Interim
Award whereby this Arbitrator kept jurisdiction

202a
pending issuing a Final Award. It is true that in
discussing the remedy at page 49 this Arbitrator in
his January 12, 2016 Opinion wrote: “Having made
the above statement, this Arbitrator, based upon
the analysis in the Opinion, makes a finding that
once the method in doing so and the records to be
destroyed have been determined, the final Award
shall be entered directing the City to destroy all
discipline records covered by Section 8.4 now in
existence, regardless of the format in which they
exist, namely, physical files or electronic records,
for which the benchmark for destruction or the
provisions related to litigation or arbitration are
applicable, unless there is a Section 8.4
exemption.” Nevertheless, this Arbitrator only
issued an Interim Award wherein there were
certain instructions directed to the parties,
including discussing the meaning of the term
“normally” that was the prerequisite to the
entering of a final award.
As this Arbitrator views the matter, he has
continuing jurisdiction and it was not necessary to
discuss the concept of functus officio discussed at
length at pages 10-15 of Arbitrator Crystal’s
Opinion of February 29, 2016. Even so, the analysis
of the functus officio doctrine set forth by
Arbitrator Crystal is well taken and researched
and does not require repeating here except to note
the discussion of one published arbitration case at
pages 13-14 of Arbitrator Crystal’s Opinion
wherein he wrote:

203a
Although not involving potential legal or
civic repercussions, one published case that
did address post-award issues involved an
employer who, having been found to have
violated its collective bargaining agreement
when it transferred out certain bargaining
unit work, was directed to restore this work
to the bargaining unit. Shortly after the
award issued, the employer sought to have
the arbitrator reconsider his remedy,
arguing that it was not capable of
implementing the award “due to
impossibility because the position was no
longer being funded, as the grant to fund the
program had not been renewed. What is
significant about this case is not the
arbitrator’s ultimate determination that the
employer's witnesses -- who had provided
evidence of the purported impossibility of
compliance with the initial remedy -- were
not credible, but the willingness on the part
of the arbitrator to hear this evidence in the
first place. One must assume that if the
evidence presented by the employer had in
fact been deemed creditworthy, the
arbitrator would have had no problem
modifying his remedy accordingly.
The following explanation was provided
by the arbitrator regarding his willingness
to consider a modification to his initial
remedy:

204a
Addressing the substance of
the Employer’s Functus Officio
argument, this Arbitrator retained
jurisdiction for a very obvious reason.
This Employer had flagrantly, for a
period of seven (7) years, assigned
bargaining unit work ... to exempt
employees in violation of the [parties’
collective bargaining agreement].
This Arbitrator wanted to insure, to
the extent that an Arbitrator is in a
position to insure anything, that the
remedy was implemented. Surely, an
Arbitrator has such authority and
Elkouri and Elkouri in How
Arbitration Works 6th Edition
Chapter 7E recognize the right and
authority of Arbitrators to retain
jurisdiction to address remedial
issues. This is exactly what this
Arbitrator did in retaining
jurisdiction in this case and this is
exactly why arbitrators generally
retain jurisdiction in contexts such as
the present, when a party claims that
a remedy cannot be effectuated for
one reason or another, not addressed
in the hearing in chief. For all these
reasons, the Employer’s objection to
the retention of jurisdiction is found
to be meritless. (Italics added.)”
____________________

205a
22

23
24

Labor Arbitration Decision, 162372-AAA,
2010 BNA LA Supp. 162372 (Obee,
2010).
id. slip. op., p. 2.
Id., slip. op, p. 5.

[Footnotes included in block quote].
Having concluded that this Arbitrator continues
to have jurisdiction, the question remains as to
whether because of recent events public policy
prevents the issuance of an award at this time in
any respect as sought by the Lodge. As noted, in
regard to the Sergeants, Lieutenants and Captains,
Arbitrator Crystal came to the conclusion that
public policy did prevent the issuance of the type of
award he issued on November 4, 2015.
The United States Supreme Court in W.R.
Grace & Co. v. Local Union 759, 461 U.S. 757, 103
S.Ct. 2177, 76 L.Ed.2d 298 (1983), noted that in
order to vacate an arbitrator’s award the contract
as interpreted by the arbitrator must violate “some
explicit public policy, that is ‘well defined and
dominant, and is to be ascertained’ by reference to
the laws of legal precedence and not of general
considerations of supposed public interest’”. 461
U.S. at 766. In United Paperworkers International
Union v. Misco, 494 U.S. 29, 108 S. Ct. 364, 98
L.Ed.2d 286 (1987), the Supreme Court stated that
in order to set aside an arbitrator's award for
violating public policy the award must create an
“explicit conflict with ‘laws and legal precedent

206a
rather than general considerations of supposed
public interest’ 484 U.S. 29 at 43.
The United States Supreme Court again
reaffirmed the principle in Misco in determining
whether an arbitrator’s award violates public policy
in Eastern Associated Coal Corp. v. Mine Workers
District 17, 531 U.S. 57 (2000).
The Supreme Court of Illinois in American

Federation of Stale, County and Municipal
Employees v. State of Illinois, Department of
Mental Health, et al, 124 Ill.2d 246, 529 N.E.2d
534 (1988), though recognizing that the Court was
“not bound to follow federal decisions because
Illinois has a different arbitration act, we can look
to them for guidance”. 124 Ill.2d at 261. The Court
then went on to cite W R. Grace and Misco. In
holding that the reinstatement of the employee
involved did not violate public policy, the Illinois
Supreme Court noted, “While there is no precise
definition of public policy, it is to be found in the
constitution and statutes and when these are silent
in judicial decisions ... The public policy of a state
or nation must be determined by its constitution
laws and judicial decisions, not by the varying
opinions of laymen, lawyers or judges as to the
demands of the interest of the public.” (Citations
omitted). 124 lll.2d 246 at 260. The Court
proceeded to distinguish the case before it in
AFSCME from cases where arbitrator awards have
been set aside as contrary to public policy when at
263 the Court noted in part:

207a
While courts refuse to enforce an arbitration
award that requires violation of law

(American Postal Workers Union v. United
States Postal Service (9th Cir.1982), 682
F.2d 1280), we need not measure the
arbitrator's award in this case by that
standard. The Department’s reliance on

Board of Trustees of Community College
District No. 508 v. Cook County College
Teachers Union ( 1979), 74 Ill.2d 412, 24 Ill.
Dec. 843, 386 N.E.2d 47, as grounds for
mandating that this arbitration award be
vacated as against public policy, is
misplaced. ln Board of Trustees of
Community College District No. 508, this
court refused to enforce an arbitration
award because the award sanctioned
violations of the law. (74 Ill.2d at 425-26, 24
Ill. Dec. 843, 386 N.E.2d 47.) The award was
repugnant to public policy because
enforcement of the award would have
benefitted those teachers engaged in it. The
arbitration award, in the case at bar, does
not even remotely sanction violations of the
law . . .
If all that was before this Arbitrator at this
point in time were the observations made by
Arbitrator Crystal at pages 16-17 of his February
29, 2016 Opinion as to the reasons he concluded
that public policy prevented him from enforcing the
provisions of Section 8.4 of the Sergeants,
Lieutenants and Captains contracts, this

208a
Arbitrator would not be persuaded. The reason is
that at pages 43-49 of this Arbitrator's January 12,
2016 Opinion this Arbitrator considered the very
arguments as to public policy that were discussed
by Arbitrator Crystal in his February 29, 2016
Opinion at pages 16-17 and concluded that there
was no violation of public policy.
In particular, this Arbitrator noted Judge
Flynn’s erudite discussion of the application and
limits of the Illinois Freedom of Information Act.
At page 48 this Arbitrator discussed the Local
Records Act, specifically noting “there is no
showing that the City has applied to the Local
Records Commission to destroy the discipline files
that were subject to the mandate of Section 8.4.
Nor is there any showing that the Local Records
Commission denied such application or permission
... Whether this becomes an issue at a later date in
another forum is not before this Arbitrator.”
Nevertheless, Arbitrator Crystal did make
reference to “in light of reasons developed that
have transpired ...”. (Pg. 16). Arbitrator Crystal
referenced at page 4 a meeting with the parties on
December 14, 2015. As of that date, this Arbitrator
had not issued his January 16, 2016 Opinion. It is
not clear whether between December 14, 2015 and
the time that he issued his Award on February 29,
2016 Arbitrator Crystal became aware of the
February 12 and February 19, 2016 letters from
Assistant U.S. Attorney Patrick W. Johnson to
Counsel for the City.

209a
It is noted that in the February 12, 2016 letter
Mr. Johnson referenced “our December 30, 2015
document preservation request and document”.
What is clear is that, despite the comment this
Arbitrator has just made concerning the February
29, 2016 public policy analysis of Arbitrator Crystal
and the suggestion that this Arbitrator would not
follow this analysis, the letters or the December
30, 2015 request were not mentioned by Arbitrator
Crystal but they have been brought to this
Arbitrator’s attention. The two letters from
Assistant U.S. Attorney Johnson were non-existent
at the time that this Arbitrator issued his January
12, 2016 Opinion. Nor was this Arbitrator aware of
the December 30, 2015 request.
The request of the Justice Department brings
forth a dynamic that was not present when this
Arbitrator considered the public policy arguments
and, if not in existence currently, would not change
this Arbitrator’s view as to the public policy
argument. But the request has been made by the
Justice Department and confirmed in writing.
Consistent with Grace, Misco and AFSCME, the
request has been made pursuant to a specific
statute, 42 U.S.C. § 14141, which reads:
(a)

UNLAWFUL CONDUCT

It shall be unlawful for any governmental
authority, or any agent thereof, or any
person acting on behalf of a governmental
authority, to engage in a pattern or practice

210a
of conduct by law enforcement officers or by
officials or employees of any governmental
agency with responsibility for the
administration of juvenile justice or the
incarceration of juveniles that deprives
persons of rights, privileges, or immunities
secured or protected by the Constitution or
Laws of the United States.
(b)
CIVIL ACTION BY ATTORNEY
GENERAL
Whenever the Attorney General has
reasonable cause to believe that a violation
of paragraph (1) has occurred, the Attorney
General, for or in the name of the United
States, may in a civil action obtain
appropriate equitable and declaratory relief
to eliminate the pattern or practice.
It is not lost on this Arbitrator that there have
been instances such as in Detroit, Ferguson,
Missouri and New Orleans, to name a few, where
the Justice Department has conducted an
investigation involving a police department
resulting in legal action which in some cases
involved court supervision for a period of time. This
may not come about in Chicago. But the fact the
United States Department of Justice is requesting
that the records be preserved pending investigation
to determine if there is any basis for the Attorney
General to institute civil action pursuant to 42
U.S.C. §14141 as contrasted to generalizations that

211a
were made by the City in terms of unforeseen
possible individual lawsuits in the future. This
Arbitrator emphasizes that there have been
investigations by the Justice Department that have
not resulted in any litigation or Court supervision.
And this may be the ultimate result in Chicago.
But, the potential for litigation is there and,
pursuant to a specific statute, the Department has
made a preservation request and document
preservation notice pursuant to 42 U.S.C. §14141.
With such a request, the public policy argument
involves a dimension which this Arbitrator has not
previously addressed, though this Arbitrator
addressed the public policy arguments considered
by Arbitrator Crystal in his February 29, 2016
Opinion.
It has been suggested that it is for the Courts to
consider public policy arguments and not
arbitrators. In this regard, this Arbitrator’s
attention was called to Arbitrator Sinicropi’s
opinion and award between these parties in Gr. No.
129-90-049-468, 129-90-063-432 (1991) where at
pages 15-16 Arbitrator Sinicropi wrote:
... Moreover in the area of affirmative
action programs, which mandate minority
hiring goals and/or quotas, the law is far
from settled. This Arbitrator is of the
opinion that he clearly has a duty to
construe Collective Bargaining Agreements
in light of statutes and caselaw. And he may

212a
also take into account well-settled public
policy, if it does not conflict with the labor
agreement and is either explicitly argued by
the parties or implied in their presented
evidence and/or argument. Moreover that
public policy must be clearly articulated by
statutory law or specific judicial decision
and not merely be a general notion of what
the state of affairs is. Unfortunately, in this
Arbitrator’s view this area is in flux, and
there is no clear or focused public policy at
this time . . .
In other words, Arbitrator Sinicropi interpreted
the contract noting that there was no basis to
consider public policy because the external law was
in a state of flux. This approach was even more
pronounced in San Francisco Opera Association,
129 LA 42 (2011), wherein Arbitrator Bogue chose
to interpret the parties’ collective bargaining
agreement and not to consider public policy
arguments for she found “the Opera provided no
evidence that any arbitrator or court had found
these clauses to be unenforceable as unlawful or
contrary to public policy”. 129 LA 49.
Here, this Arbitrator is faced with a specific
federal statute permitting action by the Attorney
General. The Attorney General through the
Assistant U.S. District Attorney has given
document preservation notice pursuant to
procedures followed by the Attorney General in
administering 42 U.S.C. §14141. There is nothing

213a
about the statute being in flux, particularly when
it is known that in other communities based upon
the statute the Attorney General has commenced
litigation.
Arbitrators Sinicropi and Bogue were not
dealing with such a situation.
This analysis brings back a reference that this
Arbitrator made at page 39 of is January 12, 2016
Opinion when in quoting from pages 47-48 of the
Lodge’s brief he noted, “The Lodge is not
suggesting that CR Files can only be retained
pursuant to the litigation exception where there is
a court order precluding their destruction. The
Lodge fully understands that while litigation is
pending (or reasonably anticipated), the parties are
required to retain records which may be relevant to
litigating notwithstanding any document
destruction/retention policy”.
During the March 22, 2016 meeting with this
Arbitrator, the Lodge reiterated this point which
this Arbitrator acknowledges. This Arbitrator
recognizes that this position by the Lodge was
made in good faith and with the best of intentions.
Likewise, the Lodge emphasized to this Arbitrator
that files have been kept for many years contrary
to 8.4 involving Officers in some cases who were
retired. An example was given of a past President
of the Lodge who served four presidents ago,
persuasively implying that such files may indeed
have no value.

214a
Nevertheless, the point is that as contrasted to
a general speculation about private litigation in the
future, the investigation of the Attorney General is
ongoing. Litigation may not be initiated by the
Attorney General following this investigation.
Nevertheless, the investigation is ongoing and lhe
Justice Department's notice and request is action
pursuant to specific federal statute.
This Arbitrator could ignore the actions of the
Justice Department and grant the grievance
outright knowing that to do so would now be
against public policy and leave it to the City to
move to set aside this Arbitrator’s Opinion.
However, it is not in the interest of the parties to
engage in unnecessary litigation or precipitate
litigation by the Justice Department when
litigation by the Justice Department may
ultimately never be forthcoming as a result of the
investigation.
In arriving at the conclusions that he has, this
Arbitrator is still of the opinion that 8.4, as he has
interpreted 8.4, is there to be read in the context of
the bargaining history subject to a final resolution
of the effect of the term “normally” in the last
sentence of the first paragraph of 8.4. But this
Arbitrator, because of the public policy as now
established by the request of the U.S. Department
of Justice pursuant to statute, cannot provide any
remedy as suggested in the January 12, 2016
Opinion and Interim Award or any other relief or
remedy at this point in time. Likewise, for the

215a
same reason, not being able to give any relief, it is
unnecessary at this point in time to resolve the
question that this Arbitrator raised as to the effect
of the term “normal”.
Since at this point in time the Lodge has not
continued to prevail, the Arbitrator’s fees and
expenses shall be borne by the Lodge.
AWARD
The grievance is denied at this point in time for
the reasons of the public policy involved in the
request of the U.S. Department of Justice, and only
for this reason, as set forth in the Opinion. The
Arbitrator’s fees and expenses shall be borne by the
Lodge.

GEORGE T. ROUMELL, JR.
Arbitrator
April 28, 2016

216a
APPENDIX F
VOLUNTARY LABOR ARBITRATION
TRIBUNAL
Before George T. Roumell, Jr., Arbitrator
In the Matter of:
CITY OF CHICAGO
-and-

Gr. Nos. 129-11-035
and 129-12-004
(Policy Grievances)

FRATERNAL ORDER OF POLICE
CHICAGO LODGE NO. 7
=============================

ARBITRATOR'S RULING ON FRATERNAL
ORDER
OF POLICE LODGE NO. 7'S MOTION FOR
RECONSIDERATION OR, ALTERNATIVELY.
CLARIFICATION
APPEARANCES:
FOR CITY OF CHICAGO

FOR
FRATERNAL
ORDER OF
POLICE
CHICAGO
No. 7:

217a
Joseph Martinico, Attorney
and Chief Labor Negotiator

Brian C. Hlavin,
Attorney

Background
Policy Gr. Nos. 129-1 1-035 and 29-12-004, filed
by the Fraternal Order of Police Chicago Lodge No.
7, sought to have disciplinary investigative files,
disciplinary histories, current entries, Independent
Police Review Authority and Internal Affairs
Division disciplinary records and any other
discipline records or summaries of such records
other than records related to Police Board cases be
destroyed if not within the exceptions set forth in
Section 8.4 of the parties’ 2012-2017 Collective
Bargaining Agreement.
In the discussion immediately preceding setting
forth the Interim Award, this Arbitrator at pages
49-50 wrote:
(I)
The matter shall be
remanded back to the parties until
March 15, 2016 during which time the
parties are directed to attempt to
negotiate between themselves a time line
and method to implement the findings
set forth above that the City should be
directed to destroy all records covered by
Section 8.4 not in existence, regardless of
the format in which they exist, namely,
physical files or electronic files, for which
the benchmark for destruction or the

218a
provisions related to litigation or
arbitration are applicable or there are
exceptions provided therein.
(Emphasis supplied here by Arbitrator.)
This was the finding.
In reaching this finding, this Arbitrator at
pages 39-40 made reference to comments in the
Lodge's post-hearing brief setting forth the Lodge's
acknowledgment concerning the application of
Section 8.4:
This analysis brings this Arbitrator to
certain statements of acknowledgment in
the Lodge's post-hearing brief. At page 47-48
of the Lodge's brief, the following is stated,
"The Lodge is not suggesting that CR files
can only be retained pursuant to the
litigation exception where there is a Court
order precluding their destruction. The
Lodge fully understands that while litigation
is pending (or reasonably anticipated) the
parties are required to retain records which
may be relevant to litigation not
withstanding
any
document
destruction/retention policy". This Arbitrator
also notes that after making this statement
the Lodge's Counsel writes, "The problem for
the City is that it stretches this general rule
beyond the breaking point effectively
assuming that it cannot destroy any records
if there is any litigation pending then or

219a
potentially arising regard less of how related
the records actually are to the litigation".
At page 49, Lodge Counsel writes, "Of
course, Section 8.4 itself allows the City to
retain documents subject to litigation until
such time as litigation is concluded. The
Lodge simply is not seeking to have the City
destroy records which it must retain due to
pending litigation. However, if the City is
notified of litigation concerning a dozen
officers, then it needs to implement a
litigation hold as to that relevant universe,
not to "every shred of paper or electronic
document forever".
Beginning at page 43 through page 49 of the
January 12, 2016 Opinion, this Arbitrator
concluded that the public policy at issue before this
Arbitrator at the time would not prevent
enforcement of Section 8.4, namely, the Freedom of
Information Act, and noting that there was no
evidence that the Illinois Local Records Act had
been violated. In doing so, this Arbitrator quoted
extensively from the Ruling of Judge Peter Flynn
of the Circuit Court of Cook County, Illinois,
Chancery Division in FOP Order of Police Chicago
Lodge No. 7 v. City of Chicago, et al, in Case No.
14-CH-17454 (2015).
These observations as to what this Arbitrator
considered in the January 12, 2016 Opinion are
relevant in considering the current Motion for

220a
Reconsideration or Clarification, namely, that the
Lodge recognized in its post-hearing brief some
litigation limitations and this Arbitrator concluded
that on January 12, 2016, based upon the
information before him when hearing the case,
there was no basis to claim that a decision finding
a requirement to destroy certain records not
exempt did not violate public policy.
In reaching the January 12, 2016 Opinion, this
Arbitrator was furnished the November 4, 2015
Opinion of Arbitrator Jules I. Crystal who decided
a similar issue favorable to the Unions involved in
interpreting Section 8.4 in the Sergeants, Captains
and Lieutenants contracts concerning purging
on-line records. See, SGTS 14-013, SGTS 14-013
(Amended), CPTS 14-001, LTS 14-003. At the
time, Arbitrator Crystal had reached the conclusion
that there should be a purging based upon the
language of Section 8.4 in the contracts he was
reviewing. The rationale proffered by Arbitrator
Crystal was favorably considered by this Arbitrator
in arriving at the January 12, 2016 Opinion and
Interim Award.
Subsequent to the issuance of the Interim
Award, the City, over the objections of the Lodge,
submitted Arbitrator Crystal's "Decision in
Response to City's Request for Clarification of
Remedy" in Case Nos. SGTS 14-013, SGTS 14-013
(Amended), CPTS 14-001, LTS 14-003 dated
February 29, 2016 as well as two letters dated
February 12 and 19, 2016, respectively, from

221a
Assistant U.S. Attorney Patrick Johnson whereby,
as part of an investigation that had been
commenced by the United States Department of
Justice investigating the Chicago Police
Department pursuant to Violence, Crime Control
and Law Enforcement Act 42 U.S.C. §14141, a
request was made in the February 12, 2016 letter
"that for the duration of DOJ's pattern and practice
investigation under 42 U.S.C. § 14141, the City of
Chicago and the Chicago Police Department will
preserve all existing documents relating to all
complaints of misconduct against officers of the
Chicago Police Department ...". The February 19,
2016 letter refers "to clarify our document
preservation request contained in my February 12,
2016 letter ... including those that are the subject
of two pending arbitration cases (1) Chicago and
FOP No. 7 Nos. 129-11-035, 129-12-004; and (2)
Chicago and PBPA Nos. SGTS 14-013, CPTS
14-001, LTS 14-003".
What occurred after the submission to this
Arbitrator of Arbitrator Crystal's February 29, 201
6 opinion and the two letters from Assistant U.S.
Attorney Patrick Johnson is that this Arbitrator on
March 4, 2016 wrote the parties' Counsel
discussing the submission and noting that
Arbitrator Crystal made reference to the parties
negotiating pursuant to the savings clause in
Article 34 of the contracts before him, which is the
same as the savings clause in Article 33 of the FOP
contract. This Arbitrator then noted at page 5 of
his letter:

222a
Directly on point is what was referenced in
the February 9, 2016 submission, namely,
that the Justice Department has commenced
an investigation of the Chicago Police
Department pursuant to Violence, Crime
Control and Law Enforcement Act, 42 U.S.C.
§14141. In this connection, there are the two
letters from Assistant United States
Attorney Patrick Johnson. The February 12,
2016 letter asks for the preservation of all
files. The February 19, 2016 letter confirms
a conversation that the files that are asked
to be retained as part of the investigation
includes the files under consideration in the
arbitration involving this Arbitrator,
Chicago and FOP No. 7, Nos. 129-11-035,
129-12-004, as well as the files involved in
the arbitration under consideration by
Arbitrator Crystal.
At this point, under such circumstances.
the public policy issue surfaces with new
emphasis because the Department of Justice
investigation could well result in litigation
as has happened in other communities.
When faced with such facts, the question
then becomes whether the public policy
argument takes on new meaning with the
advent of the Justice Department
investigation and requests. There is a
fundamental principle in contract
negotiations that the contract must be read

223a
as a whole, which could mean that perhaps
Article 33 is in play in this situation.
This Arbitrator has chosen to address the
issues raised even though the Lodge
maintains these are new issues because
there are continuing issues based on newly
developing evidence. This Arbitrator has
chosen to address the matters raised so that
he can give the opportunity to both parties
to discuss the issues with this Arbitrator.
The Arbitrator's preference is to have an in-person discussion with Counsel of the
issues raised in this letter and by the
submissions of February 9, 2016, February
29, 2016 and March l, 2016.
(Emphasis supplied here by this Arbitrator.)
Whereas Arbitrator Crystal in his November 4,
2015 opinion and award seemed poised to grant the
grievances purging the on-line records, as a result
of his February 29, 2016 opinion and award
Arbitrator Crystal, depending on how one
interprets the award, either clarified, modified or
reversed his position by referring the parties back
to negotiation pursuant to the Article 34 savings
clause.
In doing so, Arbitrator Crystal at page 15 of his
February 29, 2016 wrote:
Fourth, with respect to the City's specific
request, the undersigned cannot ignore that

224a
fact that the posture of this case is different
from what it was when the matter was
arbitrated in 2015 . . .
Earlier at pages 7-8, Arbitrator Crystal wrote:
... Additionally, argues the City, an
investigation by the US Department of
Justice has been initiated regarding an
alleged pattern or practice of excessive force
by CPD officers, which will likely include an
investigation of the Department's
investigative files and practices, and that, as
a result of this investigation, there will
continue to be a "heightened focus upon the
Department's internal investigation process
and its record keeping practices." Thus,
argues the City, the Department's retention
and possession of all past police disciplinary
records and files is critically essential,
particularly at this time.
Thus, Arbitrator Crystal was obviously motivated
by the Department of Justice investigation in
reaching his conclusions in his February 29, 2016
opinion.
This Arbitrator did meet with the parties and,
after doing so, issued this Arbitrator's Opinion and
Award dated April 28, 2016. This Arbitrator,
beginning at page 19 of the April 28, 2016 Opinion,
expressed uncertainty as to whether Arbitrator
Crystal was aware at the time he issued his

225a
February 29, 2016 opinion of the Justice
Department investigation and more specifically as
to the preservation request of U.S. Assistant
District Attorney Patrick Johnson.
As this
Arbitrator has now pointed out, Arbitrator Crystal
was apparently aware of the Justice Department
investigation. Arbitrator Crystal did not mention
Patrick Johnson's request. Yet, Arbitrator Crystal
seemed to conclude that his motivation for his
Clarification, Modification or Reversal was at least
in part due to the Justice Department
investigation.
This Arbitrator in his April 28, 2016 Opinion,
beginning at page 19 went into detail concerning
the request of the Justice Department, quoting in
particular the relevant language of 42 U.S.C. §
14141. Though this Arbitrator rejected previous
public policy arguments by the City in his January
12, 2016 Opinion, as was the case with Arbitrator
Crystal, this Arbitrator could not ignore
subsequent developments, namely, an investigation
of the Chicago Police Department pursuant to a
Federal statute wherein a request was made to
preserve files.
As a result, though this Arbitrator had found
that pursuant to Article 8.4 that certain records not
exempt were to be destroyed, because of the public
policy that surfaced due to the actions of the
Justice Department, issued the following Award:

226a
The grievance is denied at this point in
time for the reasons of the public policy
involved in the request of the U.S.
Department of Justice, and only for this
reason, as set forth in the Opinion. The
Arbitrator's fees and expenses shall be borne
by the Lodge. (Emphasis supplied here by
Arbitrator.)

227a
Discussion
This Arbitrator has set forth in detail the
background leading to the April 28, 2016
Arbitrator's Opinion and Award so as to hone in on
the issues raised by the, Fraternal Order's Motion
for Reconsideration or, Alternatively, Clarification
and the City's response.
Insofar as the City challenges the Motion on the
grounds that this Arbitrator has issued an Award
and therefore the doctrine of ex functus officio
applies, this argument fails. To begin, contrary to
the City's current position, the approach that the
Order is now taking was the same approach taken
by the City in convincing both this Arbitrator and
Arbitrator Crystal to issue their respective April 28
and February 29, 2016 opinions and awards after
previously issuing their respective January 16,
2016 and November 4, 2015 opinions and interim
award or award. Furthermore, in his February 29,
2016 opinion, Arbitrator Crystal presented a
scholarly analysis of the limits of the ex functus
officio doctrine which this Arbitrator incorporated
by reference, including a quotation in his April 28,
2016 Opinion. Then, too, there is precedent and
comment that when there is an ambiguity or even
an apparent mistake in the award or the award is
incomplete, the arbitrator has jurisdiction to
address the claims as an exception to the basic ex
functus officio document. See, e.g., GTE North Inc.,
98 LA 894, 895-896; also see, Dunsford, Should
Arbitrators Retain Jurisdiction Over Awards,

228a
Proceedings of the 51" (1998) annual Meeting of the
National Academy of Arbitrators (pp. 102-111)
(BNA).
Before addressing what this Arbitrator
perceives is the focus of the dispute in its present
form between the parties, the parties' attention is
called to the comments that this Arbitrator made
at pages 21-22 of his April 28, 2016 Opinion:
It is not lost on this Arbitrator that there
have been instances such as in Detroit,
Ferguson, Missouri and New Orleans, to
name a few, where the Justice Department
has conducted an investigation involving a
police department resulting in legal action
which in some cases involved court
supervision for a period of time. This may
not come about in Chicago. But the fact the
United States Department of Justice is
requesting that the records be preserved
pending investigation to determine if there
is any basis for the Attorney General to
institute civil action pursuant to 42 U.S.C.
§14141 as contrasted to generalizations that
were made by the City in terms of
unforeseen possible individual lawsuits in
the future. This Arbitrator emphasizes that
there have been investigations by the
Justice Department that have not resulted
in any litigation or Court supervision. And
this may be the ultimate result in Chicago.
But, the potential for litigation is there and,

229a
pursuant to a specific statute, the
Department has made a preservation
request and document preservation notice
pursuant to 42 U.S.C. § 14141.
And herein is the nub of the concern raised by
both parties from their respective points of view.
At page 4 of his written response, the City's
Attorney writes:
Perhaps the FOPs claim that the Final
Award fails to provide "finality" to the
parties' dispute and instead "assures future
litigation" constitutes, in the union's eyes,
an "imperfection" as to form. This claim
must be rejected for several reasons. First,
FOP's concern about the award's "finality" is
articulated by its question, "what happens
when the DOJ investigation is concluded?"
The question fails to take into account
numerous intervening and virtually certain
events which may soon address, in whole or
in part, the underlying dispute. Within a
year or so, the parties will be at the
bargaining table where it is very likely that
some form of resolution of this issue will be
the subject of negotiations between the
parties. Additionally, the subject matter of
the dispute will undoubtedly be included
within the DOJ's investigation of the
Department's practices
and it may
ultimately be resolved within that process.

230a
Secondly, this claim
itself does not
constitute an "imperfection" as to form, not
affecting the merits of the Final Award. In
his Final Award, the Arbitrator found that
the DOJ's investigation and the potential
outcomes thereof, including protracted
litigation and/or extended periods of
supervision/ monitoring constituted
sufficient public policy basis upon which to
deny the FOP's grievances. The FOP's
request for reconsideration is based not upon
some "imperfection as to form", but rather
its plain disagreement with the merits of
this conclusion and finding.
(Emphasis by this Arbitrator.)
Now read the closing paragraph and conclusion of
the Lodge's Counsel in his Motion wherein at pages
7-8 he writes:
The Lodge has consistently recognized, and
the Arbitrator so noted, that a litigation
exception exists to Section 8.4 which permits
the City to retain documents otherwise
subject to destruction. Indeed, the Arbitrator
in his January 12, 2016 Interim Award
quoted extensively from the Lodge's
Post-Hearing Brief wherein the Lodge fully
acknowledged the litigation exception
(Interim Award, p. 39):
... "The Lodge is not suggesting
that CR Files can only be retained

231a
pursuant to the litigation exception
where there is a court order precluding
their destruction. The Lodge fully
understands that while litigation is
pending (or reasonably anticipated) the
parties are required to retain records
which may be relevant to litigation
notwithstanding any document
destruction/ retention policy." This
Arbitrator also notes that have making
the statement the Lodge's Counsel
writes, "The problem for the City is that
it stretches this general rule beyond the
breaking point effectively assuming that
it cannot destroy any records if there is
any litigation pending then or potentially
arising regardless of how related the
records are to the litigation."
At the meeting between the parties and
the Arbitrator on March 22, 2016, the Lodge
unequivocally stated that the Department of
Justice's preservation request would trigger
the litigation exception under Section 8.4 as
understood by the Lodge. Indeed, the
Arbitrator confirms such fact in his final
Opinion and Award, stating "during the
March 22, 2016 meeting with the Arbitrator,
the Lodge reiterate this point which this
Arbitrator acknowledges. This Arbitrator
recognizes that the position by the Lodge
was made in good faith and with the best of
intentions." Accordingly, the Lodge submits

232a
that the impact of the Department of Justice
retention request does not create a public
policy making the document destruction
clause unenforceable nor does it absolve the
City of its admitted breach of Section 8.4 for
the past twenty years. However, the request
may act to stay the parties from complying
with Section 8.4's clear and unequivocal
obligation to destroy records until such time
as the U.S. Department of Justice's
preservation order is lifted. ·
CONCLUSION
WHEREFORE, for the foregoing reasons,
the Fraternal Order of Police, Lodge No. 7
respectfully requests this Arbitrator to
reconsider his Opinion and Award entered
April 28, 2016 and/or clarify same to
reaffirm this Arbitrator's prior findings as to
the meanings and intent of Section 8.4 as
clearly set forth in his January 12, 2016
Interim Award; and direct the City to
comply with said Award consistent with the
order set forth in the January 12, 2016
Interim Award; and that said compliance
shall not commence until after the
preservation notice issued by the U.S.
Department of Justice has expired.
(Emphasis supplied by Arbitrator.)
When the respective statements as just quoted
by this Arbitrator are reviewed, a reasonable

233a
argument can be made that under the
circumstances, with the intervention of the
Department of Justice, the parties are closer in
their analysis of the situation than they might
acknowledge. As this Arbitrator noted and as the
Lodge repeats at page 7 of its Motion, the Lodge
recognizes that under Article 8.4 the litigation
exception could preclude destruction "while
litigation is pending (or reasonably anticipated)".
This Arbitrator in his quote from page 21-22 of his
April 28, 2016 Opinion, made reference as to
potential outcomes based on the experience in
other cities of a Department of Justice
investigation of a police department.
The comments quoted by this Arbitrator of the
City's response make reference to the potential
that the Justice Department's current preservation
request may go beyond the status of the situation
as now existing. Neither party, nor can this
Arbitrator, anticipate the course of the DOJ
investigation which could lead to potential
litigation which may be based on public policy as
set forth in 42 U.S.C. § 14141, thereby invoking the
Article 8.4 litigation exception.
The bottom line is straightforward. The Award
stands, but with a clarification as to the Award's
meaning. The initial finding of January 12, 2016
as to the destruction of records pursuant to the
language of Section 8.4 is there to be read and
applied once the public policy exception brought on
by the Department of Justice investigation and its

234a
possible consequences no longer exists. This is the
meaning of the Award of April 28, 2016 by the
language "at this point in time", namely, as long as
the Department of Justice is involved in any
capacity with the City of Chicago Police
Department and makes any requirements or
requests, as currently is the case and may be in the
future, that the records at issue be preserved. The
language "only for this reason" means that if the
Department of Justice is no longer involved with
the City of Chicago in any capacity wherein the
retention of the records is not involved, then the
public policy exception ceases to exist. The
definition of involvement by the Department of
Justice as a result of the investigation could mean
litigation or an agreement between the City and
the Department of Justice in lieu of litigation or a
settlement stemming from litigation monitoring or
oversight that would involve retention of records
pursuant to the Department of Justice's authority
as set forth in 42 U.S.C. §14141.
The Department of Justice may conclude its
investigation without any further action or any
action that affects the records involved. But until
the Department of Justice is no longer involved in
any capacity, as just defined by this Arbitrator, the
Award as issued stands as clarified, noting that
this Arbitrator did make a finding as to the
meaning of Section 8.4 without the intervention of
and record preservation request by the Department
of Justice. This is the clarification.

235a
This clarification somewhat bridges the
respective positions of the parties as this Arbitrator
has analyzed their positions with the quotes he has
made from their respective submissions. The public
policy exception which this Arbitrator relied on, to
repeat, only applies as long as the Department of
Justice is involved with the City of Chicago Police
Department in any capacity, as "any capacity" has
been defined herein by this Arbitrator.
Because this Arbitrator, though repeating his
Award as set forth on April 28, 2016, believes that
the clarification as to the meaning of the Award in
the context of this dispute has aspects that are
consistent with each parties respective positions,
the Arbitrator's fees for issuing what has amounted
to a clarification in the body of this response shall
b equally split between the parties.
Based upon the clarification as set forth in the
above discussion, the Arbitrator issues the
following Award which will be subject to the
above-described clarifications.

236a
AWARD
Subject to the clarification as explained in this
Ruling, particularly as set forth at pages 10-11, the
grievances are denied at this point in time for the
reasons of public policy involved in the request of
the United States Department of Justice, and only
for this reason, as set forth in the Opinion of April
28, 2016.

___________________________
GEORGE T. ROUMELL,
JR.
Arbitrator
June 21, 2016

237a
APPENDIX G
STATE OF ILLINOIS
ILLINOIS LABOR RELATIONS BOARD
GENERAL COUNSEL
Fraternal Order of Police, )
Lodge No. 7,
)
)
Labor Organization
) Case No. L-DR-21-001
Petitioner
)
)
and
)
)
City of Chicago
)
(Police Department),
)
)
Employer.
)
DECLARATORY RULING
On July 2, 2020, the Fraternal Order of Police,
Lodge No. 7 (Union) unilaterally filed a Petition for
Declaratory Ruling pursuant to Section 1200.143 of
the Rules and Regulations of the Illinois Labor
Relations Board. 80 Ill. Admin. Code 1200.143. The
Petition seeks a determination as to whether three
proposals offered by the City of Chicago (Police
Department) concern permissive or mandatory
subjects of bargaining within the meaning of the
Illinois Public Labor Relations Act, 5 ILCS 315
(2016), as amended (Act). Both parties filed briefs.

238a
I. Background
The Employer and the Union were parties to a
collective bargaining agreement that was effective
from July 1, 2012 to June 30, 2017. By its terms, it
continued in force and effect past its expiration
date.
On July 13, 2017, the parties began negotiations
for a successor agreement. During negotiations, the
Employer proposed to remove the requirement that
a complaint against an officer alleging non-criminal
conduct be supported by a signed affidavit and
instead allow for anonymous complaints. It
proposed to remove the requirement that officers
be advised of the identity of the complainants prior
to officer interrogations/interviews. It also proposed
to remove the time limits on retention of officers’
disciplinary record so that the Employer could
retain them indefinitely.
On November 22, 2017, the Union requested
mediation. On October 25, 2019, the Union filed its
demand for compulsory interest arbitration. The
parties have not yet selected an interest arbitrator.
II. Relevant Statutory Provisions
The duty to bargain is defined in Section 7 of
the Act which provides in relevant part:
A public employer and the exclusive
representative have the authority and duty

239a
to bargain collectively set forth in this
Section.
For the purpose of this Act, “to bargain
collectively” means the performance of the
mutual obligation of the public employer or
his designated representative and the
representative of the public employees to
meet at reasonable times, including
meetings in advance of the budget-making
process, and to negotiate in good faith with
respect to wages, hours and other conditions
of employment, not excluded by Section 4 of
this Act, or the negotiation of an agreement,
or any question arising thereunder and the
execution of a written contract incorporating
any agreement reached if requested by
either party, but such obligation does not
compel either party to agree to a proposal or
require the making of a concession.
The duty “to bargain collectively” shall also
include an obligation to negotiate over any
matter with respect to wages, hours and
other conditions of employment, not
specifically provided for in any other law or
not specifically in violation of the provisions
of any law. If any other law pertains, in
part, to a matter affecting the wages, hours
and other conditions of employment, such
other law shall not be construed as limiting
the duty “to bargain collectively” and to
enter into collective bargaining agreements

240a
containing clauses which either supplement,
implement, or relate to the effect of such
provisions in other laws.
5 ILCS 315/7 (2014).
Section 4 of the Act sets forth an employer’s
management rights, over which an employer shall
not be required to bargain. It also sets forth an
exception to this general rule applicable to
employers and exclusive representatives that
negotiated collective bargaining agreements prior
to the effective date of the Act. Section 4 states the
following in relevant part:
Employers shall not be required to bargain
over matters of inherent managerial policy,
which shall include such areas of discretion
or policy as the functions of the employer,
standards of services, its overall budget, the
organizational structure and selection of
new employees, examination techniques and
direction of employees. Employers, however,
shall be required to bargain collectively with
regard to policy matters directly affecting
wages, hours and terms and conditions of
employment as well as the impact thereon
upon request by employee representatives.
To preserve the rights of employers and
exclusive representatives which have
established collective bargaining
relationships or negotiated collective

241a
bargaining agreements prior to the effective
date of this Act, employers shall be required
to bargain collectively with regard to any
matter concerning wages, hours or
conditions of employment about which they
have bargained for and agreed to in a
collective bargaining agreement prior to the
effective date of this Act.
5 ILCS 315/4 (2014).
Section 8 of the Act sets forth the parties’
obligation to maintain a grievance procedure
within their collective bargaining agreements, as
follows:
The collective bargaining agreement
negotiated between the employer and the
exclusive representative shall contain a
grievance resolution procedure which shall
apply to all employees in the bargaining unit
and shall provide for final and binding
arbitration of disputes concerning the
administration or interpretation of the
agreement unless mutually agreed
otherwise. Any agreement containing a final
and binding arbitration provision shall also
contain a provision prohibiting strikes for
the duration of the agreement. The
grievance and arbitration provisions of any
collective bargaining agreement shall be
subject of the Illinois “Uniform Arbitration
Act”. The costs of such arbitration shall be

242a
borne equally by the employer and the
employee organization.
5 ILCS 315/8 (2014).
III. The Employer’s Proposals
Section 6.1.D
D.
...
No anonymous complaint made against an Officer
shall be made the subject of a Complaint Register
investigation unless the allegation is a violation of
the Illinois Criminal Code, the criminal code of
another state of the United States or a criminal
violation of a federal statute.
No anonymous complaint regarding residency or
medical roll abuse shall be made the subject of a
Complaint Register investigation until verified,
unless the allegation is a violation of the Illinois
Criminal Code, the criminal code of another state
of the United States or a criminal violation of a
federal statute. No ramifications will result
regarding issues other than residency or medical
roll abuse from information discovered during an
investigation of an anonymous complaint regarding
residency or medical roll abuse, unless of a
criminal nature as defined in the preceding
paragraph.

243a
E. Immediately prior to the interrogation of an
Officer under investigation, he or she shall
be informed in writing of the nature of the
complaint and the names of all
complainants.Subsequent to the
interrogation, but prior to the Employer’s
i nves t i gat i ve ag e n c y c l o s i n g i t s
investigation, the Officer under
investigation shall be informed of the names
of all complainants. In the event the
investigative agency has a good faith belief
that there exists a high risk that the
complainant would be subject to retaliation
were his or her identity to be disclosed, the
agency may withhold the identity of the
complainant. The basis for the good faith
belief shall be documented in writing.
APPENDIX L
AFFIDAVITS IN DISCIPLINARY
INVESTIGATIONS
1. No affidavit or verification will be required in
support of anonymous complaints of criminal
conduct. IPRA and IAD The Employer’s
investigative agencies shall continue the
current and past practice with respect to
classifying allegations as either criminal or
excessive force. Allegations of excessive force
shall not be classified as criminal for purposes
of avoiding the affidavit requirement.

244a
2. Anonymous non-criminal complaints of Medical
Roll Abuse and/or Residency violations will not
be made the subject of a Complaint Register
(CR) investigation until verified, consistent with
the current procedure. If the anonymous
complaint has been verified, no affidavit will be
required.
3. Where a supervisor receives an allegation of
misconduct from a citizen, the supervisor will
not be required to sign an affidavit.
4. Where one Department member makes an
allegation of misconduct against another
Department member, neither Department
member will be required to sign an affidavit
because both Department members are subject
to discipline for making a false report under the
Rule 14 of the Department’s Rules and
Regulations. This provision shall continue to
apply in the case of allegations of misconduct
made by employees of any of the Employer’s
investigative agencies, provided the employees
of such agency are subject to discipline for
making a false report.
5. A complaint which is supported by an affidavit
will not require additional affidavits in support
of additional allegations within the same
complaint.
6. In all other cases, IPRA and IAD the
Employer’s investigative agency will make a

245a
good faith effort to obtain an appropriate
affidavit from the complainant within a
reasonable time. An “appropriate affidavit” in
the case of a citizen complainant is one where
the complainant affirms under oath that the
allegation(s) and statement(s) made by the
complainant are true.
7. When an appropriate affidavit cannot be
obtained from a citizen complainant, the head of
either IPRA or IAD the Employer’s
investigative agency conducting the
investigation may sign an appropriate affidavit
according to the following procedure. An
“appropriate affidavit” in the case of the head of
either IPRA or IAD is an affidavit wherein the
agency head states he or she has reviewed
objective verifiable evidence of the type listed
below, the affidavit will specify what evidence
has been reviewed and in reliance upon that
evidence, the agency head affirms that it is
necessary and appropriate for the investigation
to continue.

246a
Section 8.4
All disciplinary investigation files, disciplinary
history card entries, IPRA and IAD disciplinary
records, and any other disciplinary record or
summary of such record other than records related
to Police Board cases, will be retained indefinitely
by the Employerdestroyed five (5) years after the
date of the incident or the date upon which the
violation is discovered, whichever is longer, except
that not sustained files alleging criminal conduct or
excessive force shall be retained for a period of
seven (7) years after the date of the incident or the
date upon which the violation-is discovered,
whichever is longer, and thereafter, cannot be used
against the Officer in any future proceedings in any
other forum, except as specified below, unless the
investigation relates to a matter which has been
subject to either civil or criminal court litigation or
arbitration prior to the expiration of the five (5 )
year period. In such instances, the Complaint-Register case files normally will be destroyed
immediately after the date of the final arbitration
award or the final court adjudication, unless a
pattern of sustained
infractions exists.
IV. Issues
The Union asserts that the above-reference
proposals are permissive subjects of bargaining
because they seek a waiver of its statutory rights
under the Illinois Uniform Peace Officers

247a
Disciplinary Act (Disciplinary Act), the Chicago
Municipal Code, and the Illinois Personnel Record
Review Act.
The Employer asserts that all of the proposals
are mandatory subjects of bargaining under
Section 4 of the Act, which allegedly requires
unions that represent historical units to continue
negotiating over subjects they negotiated prior to
the effective date of the Act. More specifically, the
Employer denies that there is a statute that
requires it to tender the names of a complainant to
an officer prior to his interrogation, and further
notes that an ordinance could not support the
Union’s claim of waiver. It next asserts that the
Union’s objections to its proposal eliminating the
affidavit requirement are contrary to public policy.
Finally, the Employer claims that its proposal for
the indefinite retention of disciplinary records is a
mandatory subject of bargaining because any
proposal short of indefinite retention is void as a
matter of public policy.
V. Discussion and Analysis
The Employer’s proposal to eliminate the
affidavit requirement for complaint register
investigations of non-criminal conduct and its
proposal to eliminate the obligation to inform
officers of a complainant’s name prior to
interrogation are permissive subjects of bargaining.
However, the Employer’s proposal for the indefinite

248a
retention of disciplinary records is a mandatory
subject of bargaining.
1. Eliminate Affidavit Requirement for
Complaint Register Investigations of Non-Criminal Conduct
All of the Employer’s proposals concern
permissive subjects of bargaining because they
seek a waiver of the Union’s statutory rights.
Pursuant to Section 7 of the Act, parties are
required to bargain collectively regarding
employees’ wages, hours, and other conditions of
employment — the “mandatory” subjects of
bargaining. City of Decatur v. Am. Fed'n of State,
Cnty. and Mun. Empl., Local 268, 122 Ill. 2d 353
(1988); Am. Fed’n of State, Cnty. and Mun. Empl.
v. Ill. State Labor Rel. Bd., 190 Ill. App. 3d 259, 265
(lst Dist. 1989); Ill. Dep't of Military Affairs, 16
PERI ¶ 2014 (IL SLRB 2000); City of Mattoon, 13
PERI ¶ 2016 (IL SLRB 1997); City of Peoria, 3
PERI ¶ 2025 (IL SLRB 1987). By contrast, Section
4 of the Act provides that “[e]mployers shall not be
required to bargain over matters of inherent
managerial policy.” 5 ILCS 315/4 (2014).
To resolve the tension between Section 7 and
Section 4, the Illinois Supreme Court has
established the three-part Central City test.
Central City Educ. Ass'n, IEA/NEA v. Ill. Educ.
Labor Rel. Bd., 149 Ill. 2d 496, 523 (1992). This test
applies to determine whether a topic is a

249a
mandatory subject of bargaining, unless the topic
is specifically excluded from interest arbitration
under Section 14(i) of the Act. Vill. of Oak Lawn v.
Ill. Labor Rel. Bd., State Panel, 2011 IL App (1st)
103417 ¶ 23.
A proposal that seeks a waiver of a statutory
right is a permissive subject of bargaining.
Wheaton Firefighters Union, Local 3706 v. Illinois
Labor Relations Bd., 2016 IL App (2d) 160105, ¶
17; Bd. of Trustees of Univ. of Illinois v. Illinois
Educ. Labor Relations Bd., 244 Ill. App. 3d 945,
949 (4th Dist. 1993). A union may “choose to give
up its right and the parties may negotiate for that
concession, but if the [u]nion refuses to give in[,]
the employer may not make the concession a
condition of any agreement.” Bd. of Trustees of
Univ. of Illinois, 244 Ill. App. 3d at 949.
2. Proposal to Eliminate Affidavit Requirement
for Complaint Register Investigations of
Non-Criminal Conduct
The Employer’s proposal to allow complaint
register investigations against an officer without
obtaining a sworn affidavit in cases alleging
non-criminal conduct is a permissive subject of
bargaining. It seeks a waiver of the Union’s
statutory rights under the Illinois Uniform Peace

250a
Officers Disciplinary Act (“Disciplinary Act”) and
the Chicago Municipal Code.1 The Disciplinary Act
states that “anyone filing a complaint against a
sworn peace officer must have the complaints
supported by a sworn affidavit.” 50 ILCS 725/3.8.
The Chicago Municipal Code likewise bars the use
of anonymous complaints against officers where
the complaint alleges non-criminal misconduct.
Chicago Municipal Code, Section 2-84-330(D) (“no
anonymous complaint made against an officer shall
be made the subject of a complaint register
investigation unless the allegation is of a criminal
nature”).
There is no merit to the Employer’s assertion
that the Disciplinary Act is inapplicable to this
bargaining unit. The chancery case relied upon by
the Employer does not support that overly-broad
proposition. It concerned the Disciplinary Act’s
applicability after the parties had executed a
collective bargaining agreement that expressly
allowed for the initiation of investigations based
upon anonymous complaints. The judge noted that
the Disciplinary Act applied only where there is no
CBA “dealing with the subject matter of this Act.”
50 ILCS 725/6. The judge concluded that because

As the Union notes, the Chicago Municipal Code, enacted by
a home rule unit, “has the same force and effect within the
corporate limits as a state statute,” and should therefore be
viewed as such for purposes of the waiver analysis. Lavine
Const. Co. v. Johnson, 101 Ill. App. 3d 817, 819 (1st Dist. 1981).
1

251a
the parties’ contract expressly allowed the
Employer to initiate investigations into officers
based on anonymous complaints, the Disciplinary
Act’s affidavit requirement did not apply. Here, by
contrast, the relevant question is the prospective
applicability of the Disciplinary Act after the
parties’ existing contract ends.2 Although the
parties are expected to enter into a new contract,
its terms are not yet set, and they cannot
supersede the Disciplinary Act.3 Thus, the
Disciplinary Act applies when considering
questions of negotiability.
Nor is there merit to the Employer’s claim that
its proposal is a mandatory subject of bargaining
under Section 4 of the Act. That section excludes
matters of inherent managerial authority from the
scope of mandatory bargaining, but also contains
an exception that preserves the rights of labor
organizations representing historical units. 5 ILCS
315/4; State of Ill. Department of Cent. Mgmt.
Serv., 3 PERI ¶ 2026 (IL SLRB 1987). The
exception requires employers to bargain over
matters they previously bargained, even if the
subjects may now be deemed matters of inherent
managerial authority. State of Ill. Department of
Cent. Mgmt. Serv., 3 PERI ¶ 2026. However, the

2

Although the contract expired in 2017, it continued in force
and effect, by its own terms. CBA, Section 28.2.
3

In light of this analysis, it is unnecessary to determine how
Section 15(a) of the Act, cited by the Union, bears on my ruling.

252a
exception for historical negotiations does not
require the Union to bargain over the disputed
proposal because the historical duty to bargain
contained in Section 4 expressly applies
exclusively to employers.4 University of Illinois
(Chicago), 8 PERI ¶ 1014 (IL ELRB 1991)
(interpreting identical language contained in the
Illinois Educational Labor Relations Act). None of
the cases cited by the Employer supports a
contrary proposition. Cf. State of Ill. Department of
Cent. Mgmt. Serv., 3 PERI 2026 (IL SLRB 1987)
(addressing unit appropriateness); cf. Village of
Oak Lawn, 33 PERI ¶ 21 (IL LRB-SP 2016)
(historical protections did not apply); cf. City of
Rockford, 31 PERI ¶ 170 (IL LRB-SP GC 2013)
(historical protections applied, but no waiver issue
presented).
Finally, the Employer’s remaining policy-based
arguments fail to squarely address the core finding
set forth above, that the Employer’s proposal seeks
the waiver of the Union’s statutory right to insist
upon affidavits to support complaint register
investigations of non-criminal matters. If, as the
Employer asserts, those statutory rights are

4

“[E]mployers shall be required to bargain collectively with
regard to any matter concerning wages, hours or conditions of
employment about which they have bargained for and agreed to
in a collective bargaining agreement prior to the effective date of
this Act.” 5 ILCS 315/4 (emphasis added).

253a
radical, contrary to public policy, or illegal,5 then
the Employer’s remedy lies with the legislature,
the courts, and its own City Council. Meanwhile,
the Employer’s proposal seeking the waiver of the
Union’s statutory rights under the Disciplinary Act
and the Municipal Code remains a permissive
subject of bargaining.
3. Proposal to Eliminate the Requirement that
the Employer Inform Investigated Officers of
a Complainant’s Name Prior to the
Interrogation
The Employer’s proposal to eliminate the
requirement that the Employer inform an
investigated officer of the complainant’s name,
prior to interrogating the officer, is a permissive
subject of bargaining because it seeks the waiver of
the Union’s rights under the Chicago Municipal
Code. The Code states that, “immediately prior to
the interrogation of an officer under investigation,
he shall be informed in writing of the nature of the
complaint and the names of all complainants.”
Chicago Municipal Code, Section 2-84-330(E). The
Employer’s proposal, limiting the pre-interrogation
disclosure of information to withhold the names of
complainants, seeks a waiver of the Union’s rights
under the Municipal Code.

5

This final claim is hard to square with the fact that the
Union is relying on provisions of an existing and valid statute.

254a
As discussed above, the Section 4 exception for
historical negotiations does not apply to this
proposal or render it a mandatory subject of
bargaining.
4. Proposal for the Indefinite Retention of
Disciplinary Records
The Employer’s proposal to retain disciplinary
records indefinitely is a mandatory subject of
bargaining. It does not seek a waiver of the Union’s
statutory rights under the Illinois Personnel
Records Review Act, as the Union contends.
Section 8 of the Illinois Personnel Records
Review Act, cited by the Union, does not require
the Employer to destroy all disciplinary records
that are more than four years old. Indeed, it does
not even apply to the Employer’s internal
record-keeping practices. As the title indicates,
Section 8 addresses the Employer’s obligation to
“review...records prior to the release of
information” to third parties. 820 ILCS 40/8. It
directs an employer to “review a personnel record
before releasing information to a third party and
delete records of disciplinary action which are more
than 4 years old.” Id.6 When read in context, the

6

“An employer shall review a personnel record before
releasing information to a third party and, except when
the release is ordered to a party in a legal action or
arbitration, delete disciplinary reports, letters of

255a
directive to delete records of discipline that are
more than four years old clearly pertains to those
records that an employer releases to a third party.
Id. It does not on its face require an employer to
delete or destroy its own internal records of
discipline, as the Union suggests. Id.
My reading of the Personnel Records Review
Act is consistent with principles of statutory
interpretation because it allows that Act to be read
in harmony with the Local Records Act. “Statutes
are read together and construed in a harmonious
fashion.” Rottman v. Illinois State Officers
Electoral Bd., 2018 IL App (1st) 180234, ¶ 14. The
Local Records Act bars an employer’s unfettered
destruction of disciplinary records because it
requires agencies to seek approval from the Local
Records Commission before the records are
destroyed, and it requires agencies to comply with
the Commission’s decision. 50 ILCS 205/7 & 10;
City of Chicago v. Fraternal Order of Police, 2020
IL 124831 ¶ 40 & 41. The Personnel Records
Review Act’s mandate, to delete disciplinary
records after four years, is compatible with these
statutory requirements when viewed as applying to

reprimand, or other records of disciplinary action which
are more than 4 years old. This Section does not apply
to a school district or an authorized employee or agent
of a school district who is sharing information related to
an incident or an attempted incident of sexual abuse or
severe physical abuse.” 820 ILCS 40/8

256a
records reviewed by employers for release to third
parties, rather than to records maintained by the
employer.
By contrast, the Union’s reading of the
Personnel Records Review Act, as requiring the
absolute destruction of disciplinary records after
four years, is inconsistent with the Local Records
Act because it conflicts with the review process
contained in that statute. See 50 ILCS 205/7 & 10.
Thus, the Union’s claim that it possesses an
absolute statutory right to the destruction of
disciplinary records under the Personnel Records
Review Act is untenable.
In sum, the Employer’s proposal to retain
disciplinary records indefinitely is a mandatory
subject of bargaining because it does not seek the
Union’s waiver of its statutory rights under the
Personnel Records Review Act.

of

Issued in Chic ago, Illinois, this 16th day
October, 2020.
STATE OF ILLINOIS
ILLINOIS
BOARD

LABOR

/s/ Helen J. Kim
Helen J. Kim
General Counsel

RELATIONS

257a

APPENDIX H
Illinois Public Labor Relations Act
5 ILCS 315/1
315/1. Short title
§ 1. This Act shall be known and may be cited as
the "Illinois Public Labor Relations Act".
*****
5 ILCS 315/8
315/8. Grievance Procedure
§ 8. Grievance Procedure. The collective bargaining
agreement negotiated between the employer and
the exclusive representative shall contain a
grievance resolution procedure which shall apply to
all employees in the bargaining unit and shall
provide for final and binding arbitration of disputes
concerning the administration or interpretation of
the agreement unless mutually agreed otherwise.
Any agreement containing a final and binding
arbitration provision shall also contain a provision
prohibiting strikes for the duration of the
agreement. The grievance and arbitration
provisions of any collective bargaining agreement
shall be subject to the Illinois "Uniform Arbitration
Act". The costs of such arbitration shall be borne
equally by the employer and the employee
organization.

258a
*****
5 ILCS 315/15
315/15. Act Takes Precedence
§ 15. Act Takes Precedence.
(a) In case of any conflict between the provisions of
this Act and any other law (other than Section 5 of
the State Employees Group Insurance Act of 1971
and other than the changes made to the Illinois
Pension Code by Public Act 96-889 and other than
as provided in Section 7.5), executive order or
administrative regulation relating to wages, hours
and conditions of employment and employment
relations, the provisions of this Act or any collective
bargaining agreement negotiated thereunder shall
prevail and control. Nothing in this Act shall be
construed to replace or diminish the rights of
employees established by Sections 28 and 28a of
the Metropolitan Transit Authority Act, Sections
2.15 through 2.19 of the Regional Transportation
Authority Act.2 The provisions of this Act are
subject to Section 7.5 of this Act and Section 5 of
the State Employees Group Insurance Act of 1971.
Nothing in this Act shall be construed to replace
the necessity of complaints against a sworn peace
officer, as defined in Section 2(a) of the Uniform
Peace Officer Disciplinary Act, from having a
complaint supported by a sworn affidavit.
(b) Except as provided in subsection (a) above, any
collective bargaining contract between a public
employer and a labor organization executed

259a
pursuant to this Act shall supersede any contrary
statutes, charters, ordinances, rules or regulations
relating to wages, hours and conditions of
employment and employment relations adopted by
the public employer or its agents. Any collective
bargaining agreement entered into prior to the
effective date of this Act shall remain in full force
during its duration.
(C) It is the public policy of this State, pursuant to
paragraphs (h) and (i) of Section 6 of Article VII of
the Illinois Constitution, that the provisions of this
Act are the exclusive exercise by the State of
powers and functions which might otherwise be
exercised by home rule units. Such powers and
functions may not be exercised concurrently, either
directly or indirectly, by any unit of local
government, including any home rule unit, except
as otherwise authorized by this Act.

260a
APPENDIX I
Illinois Local Records Act
50 ILCS 205/1
205/1. Short title
§ 1. This Act may be cited as the Local Records Act.
50 ILCS 205/2
205/2. Legislative declaration
§ 2. This Act declares that a program for the
efficient and economical management of local
records will promote economy and efficiency in the
day-by-day record keeping activities of local
governments and will facilitate and expedite
governmental operations.
*****
50 ILCS 205/4
205/4. Public records; disposal; duties of archivist
§ 4. (a) Except as otherwise provided in subsection
(b) of this Section, all public records made or
received by, or under the authority of, or coming
into the custody, control or possession of any officer
or agency shall not be mutilated, destroyed,
transferred, removed or otherwise damaged or
disposed of, in whole or in part, except as provided

261a
by law. Any person who knowingly, without lawful
authority and with the intent to defraud any party,
public officer, or entity, alters, destroys, defaces,
removes, or conceals any public record commits a
Class 4 felony.

Court records filed with the clerks of the Circuit
Court shall be destroyed in accordance with the
Supreme Court's General Administrative Order on
Record keeping in the Circuit Courts. The clerks of
the Circuit Courts shall notify the Supreme Court,
in writing, specifying case records or other
documents which they intend to destroy. The
Supreme Court shall review the schedule of items
to be destroyed and notify the appropriate Local
Records Commission of the Court's intent to
destroy such records. The Local Records
Commission, within 90 days after receipt of the
Supreme Court's notice, may undertake to
photograph, microphotograph, or digitize
electronically any or all such records and
documents, or, in the alternative, may transport
such original records to the State Archives or other
storage location under its supervision.
The Archivist may accept for deposit in the State
Archives or regional depositories official papers,
drawings, maps, writings and records of every
description of counties, municipal corporations,
political subdivisions and courts of this State, when
such materials are deemed by the Archivist to have
sufficient historical or other value to warrant their
continued preservation by the State of Illinois.

262a
The officer or clerk depositing such records may,
upon request, obtain from the Archivist, without
charge, a certified copy or reproduction of any
specific record, paper or document when such
record, paper or document is required for public
use.
(b) Upon request from a chief of police, county
sheriff, or State's Attorney, if a person has been
arrested for a criminal offense and an investigation
reveals that the person arrested was not in fact the
individual the arresting officer believed him or her
to be, the law enforcement agency whose officers
made the arrest shall delete or retract the arrest
records of that person whom the investigation
revealed as not the individual the arresting officer
believed him or her to be. In this subsection (b):
“Arrest records” are as described in Section
3b of this Act.
“Law enforcement agency” means an agency
of a unit of local government which is vested
by law or ordinance with the duty to
maintain public order and to enforce
criminal laws or ordinances.
*****
50 ILCS 205/6
205/6. Local Records Commission
§ 6. For those agencies comprising counties of
3,000,000 or more inhabitants or located in or

263a
coterminous with any such county or a majority of
whose inhabitants reside in any such county, this
Act shall be administered by a Local Records
Commission consisting of the president of the
county board of the county wherein the records are
kept, the mayor of the most populous city in such
county, the State's attorney of such county, the
County comptroller, the State archivist, and the
State historian. The president of the county board
shall be the chairman of the Commission.
For all other agencies, this Act shall be
administered by a Local Records Commission
consisting of a chairman of a county board, who
shall be chairman of the Commission, a mayor or
president of a city, village or incorporated town, a
county auditor, and a State's attorney, all of whom
shall be appointed by the Governor, the State
archivist, and the State historian.
A member of either Commission may designate a
substitute.
Either Commission may employ such technical,
professional and clerical assistants as are
necessary.
Either Commission shall meet upon call of its
chairman.
50 ILCS 205/7
205/7. Disposition rules

264a
§ 7. Disposition rules. Except as otherwise provided
by law, no public record shall be disposed of by any
officer or agency unless the written approval of the
appropriate Local Records Commission is first
obtained.
The Commission shall issue regulations which
shall be binding on all such officers. Such
regulations shall establish procedures for compiling
and submitting to the Commission lists and
schedules of public records proposed for disposal;
procedures for the physical destruction or other
disposition of such public records; procedures for
the management and preservation of electronically
generated and maintained records; and standards
for the reproduction of such public records by
photography, microphotographic processes, or
digitized electronic format. Such standards shall
relate to the quality of the film to be used,
preparation of the public records for filming or
electronic conversion, proper identification matter
on such records so that an individual document or
series of documents can be located on the film or
digitized electronic form with reasonable facility,
and that the copies contain all significant record
detail, to the end that the copies will be adequate.
Any public record may be reproduced in a
microfilm or digitized electronic format. The agency
may dispose of the original of any reproduced
record providing: (i) the reproduction process forms
a durable medium that accurately and legibly
reproduces the original record in all details, that
does not permit additions, deletions, or changes to
the original document images, and, if electronic,
that are retained in a trustworthy manner so that

265a
the records, and the information contained in the
records, are accessible and usable for subsequent
reference at all times while the information must
be retained, (ii) the reproduction is retained for the
prescribed retention period, and (iii) the
Commission is notified when the original record is
disposed of and also when the reproduced record is
disposed of.
Such regulations shall also provide that the State
archivist may retain any records which the
Commission has authorized to be destroyed, where
they have a historical value, and that the State
archivist may deposit them in the State Archives,
State Historical Library, or a university library, or
with a historical society, museum, or library.
*****
50 ILCS 205/10
205/10. Records not having administrative, legal or
fiscal value
§ 10. The head of each agency shall submit to the
appropriate Commission, in accordance with the
regulations of the Commission, lists or schedules of
public records in his custody that are not needed in
the transaction of current business and that do not
have sufficient administrative, legal or fiscal value
to warrant their further preservation. The head of
each agency shall also submit lists or schedules
proposing the length of time each records series
warrants retention for administrative, legal or
fiscal purposes after it has been received by the

266a
agency. The Commission shall determine what
public records have no administrative, legal,
research or historical value and should be
destroyed or otherwise disposed of and shall
authorize destruction or other disposal thereof. No
public record shall be destroyed or otherwise
disposed of by any Local Records Commission on its
own initiative, nor contrary to law. This Section
shall not apply to court records as governed by
Section 4 of this Act.

267a
APPENDIX J
Illinois State Records Act
5 ILCS 160/1
160/1. Short title
§ 1. This Act may be cited as the State Records Act.
5 ILCS 160/1.5
160/1.5. Purpose
§ 1.5. Purpose. Pursuant to the fundamental
philosophy of the American constitutional form of
government, it is declared to be the public policy of
the State of Illinois (i) that government records are
a form of property whose ownership lies with the
citizens and with the State of Illinois; (ii) that those
records are to be created, maintained, and
administered in support of the rights of those
citizens and the operation of the State; (iii) that
those records are, with very few exemptions, to be
available for the use, benefit, and information of
the citizens; and (iv) that those records may not be
disposed of without compliance to the regulations
in this Act.
*****
5 ILCS 160/17

268a
160/17. Disposal and reproduction of records;
regulations
§ 17. (a) Regardless of other authorization to the
contrary, except as otherwise provided in
subsection (b) of this Section, no record shall be
disposed of by any agency of the State, unless
approval of the State Records Commission is first
obtained. The Commission shall issue regulations,
not inconsistent with this Act, which shall be
binding on all agencies. Such regulations shall
establish procedures for compiling and submitting
to the Commission lists and schedules of records
proposed for disposal; procedures for the physical
destruction or other disposition of records proposed
for disposal; and standards for the reproduction of
records by digital, photographic, or
microphotographic processes with the view to the
disposal of the original records. Such standards
shall relate to the electronic digital process and
format, quality of film used, preparation of the
records for reproduction, proper identification
matter on the records so that an individual
document or series of documents can be located on
the film or electronic medium with reasonable
facility, and that the copies contain all significant
record detail, to the end that the photographic,
microphotographic, or digital copies will be
adequate.
Such regulations shall also provide that the State
archivist may retain any records which the
Commission has authorized to be destroyed, where
they have a historical value, and that the State
archivist may deposit them in the State Archives or

269a
State Historical Library or with a historical society,
museum or library.
(b) Upon request from a chief of police, county
sheriff, or State's Attorney, if a person has been
arrested for a criminal offense and an investigation
reveals that the person arrested was not in fact the
individual the arresting officer believed him or her
to be, the law enforcement agency whose officers
made the arrest shall delete or retract the arrest
records of that person whom the investigation
revealed as not the individual the arresting officer
believed him or her to be. In this subsection (b):

270a
“Arrest records” are as described in Section 4a of
this Act.
“Law enforcement agency” means an agency of this
State which is vested by law or ordinance with the
duty to maintain public order and to enforce
criminal laws or ordinances.

